<html>
<title> - ESSA IMPLEMENTATION: PERSPECTIVES FROM EDUCATION STAKEHOLDERS</title>
<body><pre>[Senate Hearing 114-767]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-767
 
     ESSA IMPLEMENTATION: PERSPECTIVES FROM EDUCATION STAKEHOLDERS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING EVERY STUDENT SUCCEEDS ACT IMPLEMENTATION, FOCUSING ON 
                PERSPECTIVES FROM EDUCATION STAKEHOLDERS

                               __________

                              MAY 18, 2016

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
              U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-069 PDF             WASHINGTON : 2018       

      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
                  
MICHAEL B. ENZI, Wyoming             PATTY MURRAY, Washington
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                  ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                 AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska               MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                  SHELDON WHITEHOUSE, Rhode Island
TIM SCOTT, South Carolina            TAMMY BALDWIN, Wisconsin
ORRIN G. HATCH, Utah                 CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas                  ELIZABETH WARREN, Massachusetts
BILL CASSIDY, M.D., Louisiana

                               
                                     
                                       
               David P. Cleary, Republican Staff Director
         Lindsey Ward Seidman, Republican Deputy Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                        WEDNESDAY, MAY 18, 2016

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     3
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     5
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..    46
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    47
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    49
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    51
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    53
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    55
Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana...    56
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    58
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    60

                               Witnesses

Garcia, Lily Eskelsen, President, National Education Association, 
  Washington, DC.................................................     6
    Prepared statement...........................................     8
Weingarten, Randi, J.D., President, American Federation of 
  Teachers, AFL-CIO, Washington, DC..............................    10
    Prepared statement...........................................    12
Evers, Tony, Ph.D., State Superintendent of Public Instruction, 
  Wisconsin Department of Public Instruction, Madison, WI........    14
    Prepared statement...........................................    15
Ahart, Thomas, Ed.D, Superintendent, Des Moines Public Schools, 
  Des Moines, IA.................................................    17
    Prepared statement...........................................    19
Gordon, Nora, Ph.D., Associate Professor, McCourt School of 
  Public Policy, Georgetown University, Washington, DC...........    22
    Prepared statement...........................................    24
Marshall, Denise, Executive Director, Council of Parent Attorneys 
  and Advocates, Towson, MD......................................    30
    Prepared statement...........................................    32
Murguia, Janet, J.D., President and CEO, National Council of La 
  Raza, Washington, DC...........................................    37
    Prepared statement...........................................    39

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.
    Response by Lily Eskelsen Garcia to questions of:
        Senator Collins..........................................    63
        Senator Sanders..........................................    64
        Senator Whitehouse.......................................    69

                                 (iii)
  
    Response by Randy Weingarten, J.D., to questions of:
        Senator Burr.............................................    70
        Senator Collins..........................................    71
        Senator Sanders..........................................    72
        Senator Whitehouse.......................................    75
    Response by Tony Evers, Ph.D., to questions of:
        Senator Enzi.............................................    76
        Senator Collins..........................................    77
        Senator Sanders..........................................    78
        Senator Whitehouse.......................................    83
    Response by Thomas Ahart, Ed.D., to questions of:
        Chairman Alexander.......................................    84
        Senator Collins..........................................    85
        Senator Sanders..........................................    86
        Senator Whitehouse.......................................    90
    Response by Nora Gordon, Ph.D. to questions of:
        Chairman Alexander.......................................    92
        Senator Sanders..........................................    92
        Senator Whitehouse.......................................    93
    Response by Denise Marshall to questions of:
        Senator Collins..........................................    95
        Senator Sanders..........................................    95
        Senator Whitehouse.......................................   102
    Response by Janet Murguia, J.D., to questions of:
        Senator Collins..........................................   103
        Senator Sanders..........................................   104
        Senator Whitehouse.......................................   107



  


     ESSA IMPLEMENTATION: PERSPECTIVES FROM EDUCATION STAKEHOLDERS

                              ----------                              


                        WEDNESDAY, MAY 18, 2016

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Murray, Enzi, Burr, Isakson, 
Murkowski, Scott, Hatch, Cassidy, Casey, Franken, Bennet, 
Whitehouse, Murphy, and Warren.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order. Senator Murray 
and I will each have an opening statement. Then we'll introduce 
our witnesses, and Senators will have 5 minutes of questions 
each.
    I'm delighted to have the witnesses here. This is an 
extraordinary group of individuals with a broad perspective 
about children in elementary and secondary education, and we 
welcome your comments on how we implement the new 
reauthorization of the Elementary and Secondary Education Act.
    This is our third of six hearings to discuss the 
implementation of the Every Student Succeeds Act, which the 
President signed in December. It is the second opportunity for 
this committee to hear from the States, school districts, 
teachers, principals, and others that helped us pass this 
overwhelmingly bipartisan law and are today working together to 
implement it in a way that's consistent with congressional 
intent.
    I want to focus my remarks on the administration's proposed 
supplement not supplant regulation. This is the very first 
opportunity the administration has to write regulations on our 
new law. In my view, they earned an F. The reason for that is 
that the regulation violates the law as implemented since 1970 
and seeks to do it in a way that is specifically prohibited in 
the new law.
    In writing the new law last year, Congress debated and 
ultimately chose to leave unchanged a provision in the law 
referred to as comparability. That's section 1605. This 
provision says school districts have to provide at least 
comparable services with State and local funding to title I 
schools and non-title I schools. But the law plainly states 
that school districts shall not include teacher pay when they 
measure spending for purposes of comparability. That's been the 
law since 1970. We didn't change it last year.
    There is an entirely separate provision, known as 
supplement not supplant that's intended to keep local school 
districts from using Federal title I dollars as a replacement 
for State and local dollars in low-income schools. What the 
Department's proposed supplement not supplant regulation 
attempts to do is to change comparability by writing a new 
regulation governing supplement not supplant.
    In other words, their proposal would force school districts 
to include teacher salaries in how they measure their State and 
local spending, and would require that State and local spending 
in each title I school be at least equal to the average spent 
in non-title I schools. The effect of this would be to violate 
the law as implemented since 1970, section 1605. So the 
administration may get an A for cleverness, but an F for 
following the law, in my opinion.
    The negotiated rulemaking committee couldn't agree on the 
proposal, and at least one member, Tony Evers, a witness here 
today, said that, ``congressional intent isn't necessarily 
being followed here.'' Last week, the nonpartisan Congressional 
Research Service said the same thing.
    CRS issued a report that said, ``The Department's 
interpretation appears to go beyond what would be required 
under a plain language reading of the statute.'' CRS found that 
the proposed supplement not supplant regulations, ``appear to 
directly conflict,'' with statutory language that, ``seems to 
place clear limits on the Department's authority and thus 
raises significant doubts about the Department's legal basis 
for proposed regulations.''
    Today, I am looking forward to hearing from witnesses 
whether what I have been hearing from principals, teachers, and 
education leaders across the country is true. Here's what I've 
been hearing:

    No. 1, that the Department's proposed regulation could turn 
upside down the funding formulas of almost all the State and 
local school systems across the country.
    Most States and local districts allocate K through 12 
funding to schools based on staffing ratios. This often results 
in different amounts going to different schools in the same 
district because teacher salaries vary from school to school 
for reasons having nothing to do with a school's participation 
in title I. Instead, salaries vary because of teacher 
experience, merit pay, or the subject or grade level they 
teach.
    No. 2, I've been hearing that the proposed regulation could 
effectively require wholesale transfers of teachers and the 
breaking of collective bargaining agreements.
    No. 3, I've been hearing that school districts won't 
receive enough funds to comply with the proposed regulation.
    No. 4, that students could be forced to change schools.
    No. 5, that the proposed regulation could increase the 
segregation of low-income and high-income students.
    And, No. 6, that it could require States and local school 
districts to move back to the burdensome practice of detailing 
every individual cost on which they spend money to provide a 
basic educational program to all students, which is exactly 
what we were trying to free States and districts from when we 
passed the law.

    According to the Council of Great City Schools, the 
proposed regulation would cost $3.9 billion a year just for 
their 69 urban school systems to eliminate the differences in 
spending between schools. What the Department has done for the 
first time is try to put together the two major provisions of 
the law that have always been separate.
    On comparability, which is the first one, members of this 
committee discussed and debated changing this provision. We 
discussed it at great length over the past 6 years. Senator 
Bennet of Colorado, who has lots of experience with this, had 
one proposal. I had another. We ultimately decided not to make 
changes in comparability.
    Instead, we included more transparency in the form of 
public reporting, on the amount districts are spending on each 
student, including teacher salaries, so that parents and 
teachers know how much money is being spent and can make their 
own decisions about what to do, rather than the Federal 
Government mandating it be used in comparability calculations.
    Then on the second provision in the law, on supplement not 
supplant, we addressed this provision and made changes with an 
effort to simplify the law, not make it more complicated. By no 
stretch of the imagination did we intend--does any of the 
language in the law say that supplement not supplant may be 
used to modify the comparability provision. In fact, we 
specifically prohibited that.
    We prohibited, expressly, the Secretary from requiring 
local school districts to identify individual costs or services 
as supplemental. We prohibited the Secretary from prescribing 
any specific methodology that districts use to distribute State 
and local funds. And, most importantly, we prohibited the 
Secretary from requiring a State, local school district, or 
school to equalize spending.
    The proposed regulation is nothing less than a brazen 
effort to deliberately ignore a law that passed the Senate 85 
to 15, passed the House 359 to 64, and was signed by the 
President. No one has to guess what the law says. As the 
Congressional Research Service says, we can just read its plain 
language. And if the administration can't follow language on 
this, it raises grave questions about what we might expect from 
future regulations.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you, Chairman Alexander, for holding 
this hearing. I really appreciate all of our witnesses for 
taking the time to be here with us today.
    Last year, Chairman Alexander and I worked together on 
legislation to fix No Child Left Behind. We both agreed--in 
fact, nearly everyone across the country agreed--that the law 
had been badly broken. I'm proud that we were able to break 
through that partisan gridlock in Congress, find common ground, 
and pass the Every Student Succeeds Act with strong bipartisan 
support.
    At its heart, the Nation's primary elementary and secondary 
education law is a civil rights law. And it is in that spirit 
that I, along with my colleagues, worked to help make sure all 
students will have access to a quality education, regardless of 
where they live, how they learn, or how much money their 
parents make. Now that our law is on the books, I am committed 
to making sure it helps our students and our parents and our 
teachers and our schools in my home State and across the 
country.
    As a reminder, here's what our education law does. The 
Every Student Succeeds Act gives States more flexibility. But 
it also includes strong Federal guardrails for States as they 
design their accountability systems. It preserves the 
Department's role to implement and enforce the law's Federal 
requirements. It also reduces reliance on high-stakes testing. 
And it makes significant new investments to improve and expand 
access to preschool for our Nation's youngest learners, to name 
just a few provisions in the law.
    Right now, the Department of Education and States are 
taking this law from legislative text to action steps. While 
the Department goes through this process and as States develop 
new systems and policies, I will continue to closely monitor 
several issues to make sure our law lives up to its intent to 
provide all students with a high-quality education.
    I expect the Department to use its full authority under the 
Every Student Succeeds Act to hold schools and States 
accountable. While we were writing this law, we were deliberate 
in granting the Department the authority to regulate on the law 
and hold schools and States accountable for education. That 
includes things such as making sure States and districts take 
action every year to improve student achievement in any school 
that has groups of students who are struggling.
    I will be taking a close look at any guidance or 
regulations from the Department for school intervention and 
supports. Those things will be critical to helping low-
performing schools improve. One important part of holding 
schools and States accountable for educating every child is 
fiscal accountability.
    I hear from teachers and principals in my home State of 
Washington about how important Federal funding is to supporting 
their work. We need to make sure Federal investments in 
education support State and local resources and do not simply 
replace them. The regulation, known as supplement not supplant, 
is an important fiscal accountability measure, and it is 
important to get this right.
    Many stakeholders, including teachers, administrators, and 
civil rights groups have provided thoughts on how to regulate 
in this area. I hope that as the process moves forward, the 
Department will continue to work with these groups on this 
issue.
    Collaboration will be critical, not just for one particular 
regulation or another, but throughout the process to implement 
the Every Student Succeeds Act. Getting input from teachers, 
civil rights groups, parents, and many more will be essential 
in making sure the law works in the coming months and years.
    I've been frustrated to hear from many stakeholders that 
they don't feel like they have a seat at the table as their 
States work on implementation. That includes teachers who 
aren't receiving time off of work to be part of State planning 
sessions and parents who can't attend meetings held during the 
workday.
    I, along with Ranking Member Bobby Scott in the House, have 
asked the Department to help States and districts eliminate the 
systemic barriers that stakeholders face in getting involved in 
the implementation process. I'll continue to encourage 
stakeholders like all of those represented here today and many 
more to stay active and make their voices heard throughout the 
implementation process.
    It is up to all of us to uphold the legacy and promise of 
our Nation's primary education law so it works for all 
students. I look forward to hearing from everyone today on how 
we can make sure that this law helps provide a good education 
for every child.
    Thank you.
    The Chairman. Thank you, Senator Murray, and thanks to you 
and the other members of the committee for your hard work on 
this legislation.
    I am pleased to welcome seven witnesses to our hearing 
today. Thank you to each of you for coming and for all you've 
done to help improve the education of the Nation's children.
    Senator Hatch, a former chairman of this committee, will 
now introduce our first witness, who is Ms. Lily Eskelsen 
Garcia, President of the National Education Association.
    Senator Hatch.

                       Statement of Senator Hatch

    Senator Hatch. Thank you, Mr. Chairman. I appreciate this 
opportunity, and I'm pleased to be here today and grateful that 
we could be joined by a true leader in education policy, Lily 
Eskelsen Garcia. I consider myself lucky to know Lily and even 
luckier to call her a friend. It's truly an honor to introduce 
her to the committee today.
    Ms. Eskelsen Garcia has had a remarkable path in education. 
She began her career as a cafeteria worker and later became an 
aide to a special education teacher. And as a young mother, she 
worked her way through the University of Utah where she 
graduated magna cum laude with a bachelor's degree in 
elementary education and later earned a master's degree in 
instructional technology.
    Ms. Eskelsen Garcia eventually taught fourth, fifth, and 
sixth grades at Orchard Elementary in the Granite School 
District in Utah. While in Utah, she also worked with homeless 
children in a single classroom, mentored student teachers, and 
acted as a peer assistant team leader. After demonstrating her 
effectiveness in the classroom, Ms. Eskelsen Garcia was named 
Utah Teacher of the Year in 1989.
    Ms. Eskelsen Garcia's passion for education extended beyond 
the classroom and eventually led her to a career in 
policymaking. She served as president of the Utah Education 
Association before joining the National Education Association, 
where she has served as a leader since 1996.
    In 2014, she was elected to serve as the president of the 
NEA. She was instrumental in helping Congress pass the Every 
Student Succeeds Act, and I am sure she will be equally helpful 
as we work to implement this groundbreaking legislation.
    ESSA represents a momentous opportunity for students and 
teachers alike by removing many of the overbearing Federal 
policies that stifled classroom instruction in the past. This 
new law allows educators more room to innovate and tailor their 
teaching to the needs of individual students. We are grateful 
for the indispensable role Ms. Eskelsen Garcia played in 
helping this reform become a reality.
    Ms. Eskelsen Garcia, we really welcome you to today's 
hearing and look forward to your guidance on the questions at 
hand. And I just want to personally testify how much I 
appreciate what you've done with your life. Thank you so much.
    The Chairman. Thank you, Senator Hatch.
    I'll now introduce the other witnesses, and then beginning 
with Ms. Eskelsen Garcia, we'll ask you each to summarize your 
views, if you can, in about 5 minutes, and that will leave time 
for Senators to engage in a conversation and ask questions.
    Our second witness is Ms. Randi Weingarten. Ms. Weingarten 
is the current president of the American Federation of Teachers 
which represents 1.6 million members nationwide. Prior to that, 
she served for 12 years as president of the United Federation 
of Teachers, AFT Local 2.
    Our third witness is Dr. Tony Evers. We're getting 
accustomed to seeing him here. Welcome, Dr. Evers. He is the 
Wisconsin State Superintendent of Public Instruction. He serves 
as president of the Board of the Council of Chief State School 
Officers and served on the Department of Education's recent 
negotiated rulemaking panel for regulations on the Every 
Student Succeeds Act.
    Our fourth witness is Dr. Thomas Ahart. He is the 
superintendent of Des Moines Public Schools in Iowa. He also 
served on the Department of Education's recent negotiated 
rulemaking panel for regulations on the Every Student Succeeds 
Act.
    Our fifth witness, Dr. Nora Gordon, is associate professor 
in the McCourt School of Public Policy at Georgetown 
University. Her research focuses on the economics of education 
and fiscal federalism.
    Next we'll hear from Ms. Denise Marshall. Ms. Marshall 
serves as executive director for the Council of Parent 
Attorneys and Advocates. She has over 30 years of experience 
working and advocating in the field of disabilities.
    Our final witness is Ms. Janet Murguia. She is president 
and chief executive officer of the National Council of La Raza. 
She advocates for the Latino community in areas including 
education, workforce, and civic engagement.
    Thank you each for being here.
    Ms. Eskelsen Garcia.

    STATEMENT OF LILY ESKELSEN GARCIA, PRESIDENT, NATIONAL 
             EDUCATION ASSOCIATION, WASHINGTON, DC

    Ms. Eskelsen Garcia. Thank you so much.
    And thank you, Senator Hatch. I appreciate that 
introduction.
    I am president of the 3 million member National Education 
Association. But more important than that, I am a sixth grade 
teacher, and not only that. I'm a really, really good sixth 
grade teacher. I give myself goose bumps. I'm amazing.
    I have spent the last 13 years fighting against what I saw 
as a cloud of test and punish that was hanging over every 
public school in the United States of America, and I cried for 
joy the entire day that the President signed the new law, Every 
Student Succeeds. That day would not have come without the 
leadership of Senator Alexander and Senator Murray, and I just 
want to start by thanking you and thanking all of your 
colleagues for making that day possible.
    I have about 14 hours worth of really good advice to give 
you. They told me I have 5 minutes, so I will talk really, 
really fast.
    No. 1--and I cannot stress this enough--I am a really good 
teacher. You should really listen to me. I mention that because 
I remember I was in my classroom at the Salt Lake homeless 
shelter, in a one-room classroom, a K-6 classroom, in the 
shelter when Congress was debating the passage of this thing 
called No Child Left Behind. I just was beside myself thinking, 
``Wait a minute. One hundred percent of our kids are going to 
hit a cut score on a standardized test? That's not even 
possible.''
    I remember thinking, ``Did anyone stop to ask a working 
classroom teacher how we made out a report card, how we 
measured success? Did anyone stop to ask a working classroom 
teacher what might be the unintended consequences of high-
stakes testing on our most vulnerable students, like the 
students I was teaching?''
    For me, a huge part--and the first thing I want to talk 
about--is the fact that in this new law, States and districts 
must engage the people who know the names of the students. It 
says over and over again that you have to include the 
educator's voice in developing that dashboard of indicators and 
how we're going to be measuring student success.
    Some folks in States are going to respect that, and some 
folks aren't. We're already hearing back where someone--an 
educator is asked to sit on a committee, but they meet during 
the school day, and they don't provide a substitute teacher. Or 
you put an educator on a committee, and she has to drive 3 
hours to the meeting, and there's no reimbursement for her gas 
to get to the meeting.
    We know that it's possible to do it right. We're hearing 
good things from places like Oregon. The Oregon Education 
Association knocked at the door, and folks on the State level 
said come on in, and they're at the table, and they're making 
amazing things happen very collaboratively. Then you go to New 
Mexico, where our NEA New Mexico affiliate knocked on the door, 
and the door was slammed in their faces, and they said, ``We 
don't need you.''
    So we're going to have this implemented in very different 
ways across the country. We have so much hope that if our 
voices are in the room, we will get something really good out 
of this much better law, and we hope that you will continue to 
encourage those State leaders to abide by the law you passed 
and welcome the educators to the table.
    No. 2, you cannot possibly imagine how excited we are about 
better data, better information, aside from that one-size-fits-
all standardized test, to have that dashboard of indicators we 
believe is going to be the game changer for our students. The 
original 1965 ESEA did give school districts some important 
resources for title I schools and other programs to help fill 
that resource gap that was so obvious among schools that had so 
much and schools that had so little, depending on what zip code 
you were in. But it was never meant to take over the primary 
responsibility of State and local government for running our 
schools.
    The Federal Government's role in ESSA is still to assist. 
But what's new and what's completely appropriate for the 
Federal Government is to require that we have better data, more 
complete data, that transparency that the community deserves so 
everyone can see whether all students have that equal 
opportunity to learn, and where it is unequal, what the State 
and the local school district plan to do about it. That needs 
to be on the table.
    We're thrilled that everyone seems to be using the word, 
equity. That was what we feel like we got away from, looking at 
the equitable resources that are given our most vulnerable 
students. But, finally, I do want to say that even though we're 
all using that word, Governors, the Department of Education, 
the unions, and certainly Congress in putting it in the law, 
we're defining it sometimes in very different ways.
    We think you did a very good thing in spelling out in the 
law that school districts have flexibility in how they're going 
to report what services are being provided to our students. You 
rejected that continuation of a one-size-fits-all number; that 
there's only one way to judge this. We think it's very good, 
and so we're very worried at the proposals of the Department of 
Education that appear to take away that flexibility.
    I need to say this very clearly. We support the new 
reporting element that requires all public schools to report 
their actual per-pupil expenditures, local, State, and Federal, 
disaggregated by personnel and non-personnel. That's an 
improvement. That gives better transparency.
    But we also know that we're seeing popping up around the 
country some very creative programs in giving services to 
students. If all you're doing is counting those specific 
dollars spent by education departments, you're going to miss 
some services that are provided in a community school concept, 
maybe by social services. You might not count some of the 
services that are provided by a Boys and Girls Club.
    The Chairman. Excuse me for interrupting, but I want to 
make sure everyone has their 5 minutes. Go ahead and wind up.
    Ms. Eskelsen Garcia. Winding up right now. If you're just 
counting dollars that a district makes in teacher placement 
decisions based on the specific salary or benefits costs so 
that things look--you're going to worry about things looking 
equal instead of saying, ``Are we actually giving services to 
our students?'' All we're saying is why in the world would you 
want to cutoff reasonable flexibility that a district might 
have in giving something creative and meaningful to our 
students and discourage districts from finding those creative 
solutions. We hope that you will make your intent crystal 
clear.
    In closing, I would just say we are ready, willing, and 
able to find those creative solutions. We're excited about 
being at the table, and we appreciate you giving us the chance 
to show you what we can do.
    [The prepared statement of Ms. Eskelsen Garcia follows:]

               Prepared Statement of Lily Eskelsen Garcia

    Thank you Chairman Alexander, Senator Murray, and members of the 
committee for inviting me to join you today.
    My name is Lily Eskelsen Garcia and I am an elementary school 
teacher from the great State of Utah. I also have the honor and the 
privilege of representing 3 million educators as president of the 
National Education Association.
    Classroom educators, across the country, welcome the Every Students 
Succeeds Act (ESSA) as a critical juncture in education--a chance to 
reduce and eliminate opportunity gaps and inject the expertise of 
educators into decisions that impact teaching and learning in the 
classroom. Much as we were committed to the passage of this law and 
ending the era of test and punish, our members stand united on ensuring 
that we make the best decisions for students as States and districts 
move forward with the important work of implementation.
    ESSA has already reinvigorated the national conversation about 
equal opportunity for all our students, no matter what zip code they 
live in. But that is not enough. I will focus today on what we must do 
to fulfill ESSA's potential to be a game changer with regard to 
accountability, State and local flexibility, and doing right by the 
students most in need.
    ESSA is a civil rights law, so the renewed focus on equity and 
closing opportunity gaps is important. ESSA is also a major course 
correction from the stifling Federal overreach of No Child Left 
Behind--a critical opportunity for all stakeholders in education to 
participate meaningfully in making the decisions at the State and 
district level.
    While we welcome this approach--and believe it is necessary--the 
process of co-creating such plans through meaningful dialog will be 
demanding and complicated. Stakeholder engagement and planning will 
need to happen at the Federal, State, and district level 
simultaneously, and will require really listening to the concerns of 
different stakeholders. Everyone involved will need to stretch muscles 
that haven't been used in quite some time if we are to arrive at 
solutions that work for our students.
    The undertaking will be hard but more than justified by the result: 
advancing equity for all our students. For the first time, students' 
access to opportunities and resources will be systematically tracked. 
New State-developed accountability systems, which will be fully 
implemented in the 2017-18 school year, must include at least one 
indicator of school success or student support. Determining which 
indicators to measure and capturing that data will push States to 
identify and begin closing opportunity and resource gaps to the benefit 
of all students--especially those that have been historically 
underserved. Parents, teachers, and other stakeholders can use the 
indicators as an additional tool to advocate for change at the State 
and local level.
    ESSA also empowers educators and students to return their focus to 
teaching and learning in the classroom--it encourages States and 
districts to right-size the amount of testing and explore alternatives 
to standardized tests. As an educator, I believe that every student 
deserves access to a curriculum that is broad and rich in content--not 
just reading and math, but the arts, physical education, civics, hands-
on career and technical education, and more.
    Making that a reality is easier said than done, of course. That is 
where ESSA comes into play, and why implementing the new law as 
Congress intended is so important.
    Resources are key and there are only so many of them. Federal 
dollars are intended to ``supplement, not supplant'' the use of State 
and local dollars for the students most in need--the reason the Federal 
Government got involved in public education in the first place. 
However, we continue to have concerns with the proposal the U.S. 
Department of Education offered during the negotiated rulemaking 
process. Districts should have the flexibility to develop a methodology 
that shows Federal dollars are supplemental to their efforts. At the 
same time, we want to ensure that students are getting access to the 
services and programs they need, regardless of their zip code. 
Therefore we strongly support the new reporting element that will 
require all public schools to report actual per pupil expenditures of 
Federal, State and local funds (disaggregated by personnel and non-
personnel). This is a significant improvement that will provide the 
transparency that was lacking under NCLB.
    At this critical juncture, the devil is in the details. Those 
details are complex, as is our mission: developing new State 
accountability systems built around multiple measures, not just 
standardized test scores. For ESSA to fulfill its potential to be a 
game changer for students, the new accountability systems must be 
developed collaboratively, with the input of all stakeholders. That 
approach is the only way to ensure stakeholders' commitment and buy-in.
    Educators must have a seat at the table, along with parents and 
other stakeholders. Together, we will determine key elements of the new 
accountability systems--how much tests count, what tests could be 
eliminated, and which indicators of student or school support to use. 
Together, we will determine who conducts school needs assessments, what 
interventions look like, and more.
    Other concerns include some of the U.S. Department of Education's 
regulatory proposals--those we have already seen and what they imply 
for those to come. Attempts to circumvent congressional intent could 
create ripples that extend far beyond the regulations to which they 
pertain--specifically, a chilling effect that discourages States and 
districts from thinking creatively or being proactive. That, in turn, 
could undermine the promising new paradigm that ESSA represents.
    Settling these issues will take time and demand patience. That is 
to be expected, given the far-reaching nature of the changes we are 
making and the complexity of the issues we are addressing. In Oregon, 
for example, there has been a multi-year collaborative dialog on what 
testing should look like for students and how test results should be 
used. Several States are setting up task forces and listening sessions. 
The best conversations revolve around this central question: What type 
of schools do we want for our students?
    These experiences have taught us a lot about what it means to 
involve stakeholders in meaningful ways, the benefits as well as the 
barriers. We know that including educators at the decisionmaking table 
is critical--it is the voice of classroom practitioners that has been 
missing for the last 14 years. It is also critical for the educators at 
the table to get the respect and buy-in from other educators in the 
State. In addition, we need to make sure that States and districts are 
doing everything in their power to reduce barriers to educators' 
participation in the process--for example, ensuring that they are given 
release time and helping to cover their travel expenses. We want to 
express our appreciation for the letter that Senator Murray and 
Representative Scott sent last week to Secretary King raising these 
very issues.
    We also want to keep the pressure on the way-too-many States that 
are telling their educators nothing needs to change as a result of 
ESSA. This is not what anyone had in mind when ESSA was signed into 
law.
    Those who know our students best--their parents and their 
educators--must have a meaningful say in what schools, districts and 
States are held accountable. We need to learn from the past, not repeat 
mistakes such as No Child Left Behind's one-size-fits-all approach to 
accountability, the inequities of Race to the Top, or tying teacher 
evaluations to poorly designed tests that are neither valid nor 
reliable.
    ESSA has opened window to a new direction for students and schools. 
While that path is challenging, with challenge comes opportunity--and 
responsibility.
    For ESSA to become the game changer Congress intended it to be, the 
Department of Education, States, and school districts must live up to 
their end of the bargain. Educators and other stakeholders must stand 
up, speak out, and advocate for their students. And all of us must 
insist on keeping the focus where it belongs: on equity and opportunity 
for all students, no matter what zip code they live in.

    The Chairman. Thank you.
    Ms. Weingarten.

 STATEMENT OF RANDI WEINGARTEN, PRESIDENT, AMERICAN FEDERATION 
              OF TEACHERS, AFL-CIO, WASHINGTON, DC

    Ms. Weingarten. Thank you. My name is Randi Weingarten. I 
am President of the AFT, and it is my privilege to be here to 
talk about our views on the implementation of ESSA. But I do 
want to start where my colleague and friend, Lily Eskelsen 
Garcia, started with as well, which is I cannot thank this 
committee and, particularly, Senator Alexander and Senator 
Murray enough for listening to parents and practitioners and 
helping to navigate this bill to law and to break the gridlock 
in DC to enact ESSA. We need to thank you over and over again 
on that issue.
    What I wanted to discuss was the promise of ESSA, but I'll 
focus my comments on the regulatory process, particularly on 
what the U.S. Department of Education has released so far on 
ESSA's ``supplement, not supplant'' provisions and what we 
anticipate will be released on accountability systems.
    We at the AFT view these policy details through the lens of 
whether they both work in America's classrooms and reflect the 
voices of educators. I, particularly, today am speaking with 
two decades of experience in the largest school district in the 
United States where we actually had to deal and had to work 
through and make sure equity mattered in terms of some of these 
provisions. I am particularly pleased that Senator Murray and 
Representative Scott, as Senator Murray has already referred, 
reiterated the priority that getting the voices of 
practitioners and parents in this implementation is absolutely 
critical.
    Unfortunately, in its first regulatory action on the 
proposed supplement not supplant rules, the Education 
Department demonstrated that it was neither listening to 
stakeholders nor following the framework of the legislation. 
Instead, by conflating, as Senator Alexander has already said, 
the supplement not supplant and comparability policies, the 
Department seems to be pushing or pursuing an agenda that was 
rejected in the legislative process.
    The pursuit of both equity and excellence for our children 
is part of the AFT's DNA, and there are several ways to do 
this. One is through full funding of title I, something we will 
keep fighting for through this appropriations process. I would 
suspect that almost anyone involved in education would be 
fighting to level up spending rather than level down spending 
so that schools currently spending the least could be made 
whole.
    In addition, ESSA continues important equity safeguards so 
States cannot deny disadvantaged children the additional 
funding that the Federal Government has provided to level the 
playing field. That includes the maintenance of effort 
provisions as well as the SNS provisions as well as the way in 
which the title I formula is currently structured, all of which 
we fought very hard for, as all of you know.
    This is why I disagree with the Department's supplement, 
not supplant proposal. The Department essentially, as Lily 
said, wants to make dollar for dollar comparisons rather than 
what happens right now. This is what that means in practical 
terms. Right now, principals have a number of teachers they can 
hire based on positions rather than an exact dollar amount they 
can spend. If that changes, then a teacher's salary and 
benefits is what will determine whether the teacher gets hired, 
whether the teacher gets retained, or whether the teacher gets 
transferred, not anything else, not what the school needs to 
run a program, not what the school's particular programmatic 
focus is, not the needs of school children.
    What will happen is that some schools will face cuts that 
will compel them to make no-win choices about which teachers 
they keep or they hire. Dollar for dollar comparisons--I can 
talk about this for hours, because I've lived this. Dollar for 
dollar comparisons in a district can even be thrown off by 
something as simple as how many teachers in each school have 
individual health coverage as opposed to family coverage, the 
difference between $5,000 for coverage versus $20,000 for 
coverage.
    These types of unintended consequences are major 
disruptions that have nothing to do with equity or opportunity. 
When you force districts to count exact spending in a school, 
their goals get lost in translation. We cannot equalize 
spending that way.
    Finally, we are concerned that the Education Department 
will take the level of prescription it has proposed for 
supplement not supplant to the upcoming regulations on school 
and district accountability systems. This could strip the 
flexibility necessary to create accountability systems that 
envision new ways to define and measure learning, as opposed to 
the current and far too restrictive and counterproductive focus 
on test scores.
    The promise of ESSA lies in the opportunity for States, 
with broad stakeholder input, to create robust systems of 
accountability, that we define how we measure learning so that 
learning is really about learning, not simply math and English 
test scores.
    Thank you very much. I'm sorry I went over by 34 seconds.
    [The prepared statement of Ms. Weingarten follows:]

                 Prepared Statement of Randi Weingarten

    Good morning. My name is Randi Weingarten, and I am president of 
the American Federation of Teachers (AFT). On behalf of the AFT's 1.6 
million members, it is my privilege to be here today to represent our 
views on the implementation of the Every Student Succeeds Act (ESSA). I 
will focus my comments today on the regulatory process, particularly on 
what the U.S. Department of Education has released so far on ESSA's 
supplement-not-supplant provisions and what we anticipate will be 
released on accountability systems.
    As Washington policymakers wrangle with the details of this law, 
the AFT views these details--those sorted out in both last year's 
legislative process and this year's regulatory process--through the 
lens of whether they are workable in America's classrooms and reflect 
the voices of educators. Senator Patty Murray and Representative Bobby 
Scott recently reiterated this priority in a joint letter to the 
Administration. The regulatory process is the process through which 
ESSA enables States--informed by the collective wisdom of those who 
help kids every day--to shape their education systems to create great 
environments for teaching and learning, not testing, particularly for 
disadvantaged children.
    Unfortunately, in its first regulatory actions--on the proposed 
supplement-not-supplant rules offered during negotiated rulemaking--the 
Education Department did not demonstrate that it was either listening 
to stakeholders or following the framework of the legislation. Instead, 
by conflating supplement-not-supplant and comparability, the Department 
is pursuing policy in rulemaking that was either rejected or barred in 
the legislative process.
    The AFT believes in both equity and excellence, and there are 
several ways to accomplish this. One is through full funding of title 
I, something we will keep fighting for through the appropriations 
process. AFT members, and most people involved in the education of 
children, would love to have a discussion about ``leveling up'' 
spending (rather than ``leveling down''), so that those schools 
currently spending the least could be made whole.
    When it comes to equity, ESSA continues important safeguards--
something we fought hard for as we fought against the portability 
proposals. These include the existing supplement-not-supplant and the 
maintenance-of-effort provisions. These protections are in place so 
States cannot do a bait and switch to deny disadvantaged children the 
additional funding that the Federal Government has provided to level 
the playing field.
    The policy details of supplement-not-supplant seem complicated, but 
the basic ideas are simple: Federal education funding slated for needy 
students should be provided in addition to, not instead of, State and 
local dollars. We agree. In places like Detroit, for example, we would 
be in so much better shape than we are now if the Federal Government 
just stuck to ensuring that this basic provision was adhered to.
    What makes supplement-not-supplant complicated is that the 
Education Department is pursuing changes that it wanted, but didn't 
get, in the law itself. When Congress passed ESSA, it made no changes 
to the existing rules and regulations around comparability--a fiscal 
requirement similar to supplement-not-supplant, though focused on 
funding between schools. What the Department wants is a dollar-for-
dollar comparison between schools. It is trying to achieve in 
regulations the policy it failed to get in legislation.
    What would the draft regulations mean in practical terms? A lot. 
Right now, principals have a number of teachers they can hire based on 
positions, rather than a dollar amount they can spend. We don't want a 
teacher's salary and benefits to keep him or her from getting hired, 
just like we don't want a teacher's salary and benefits to force him or 
her to be transferred.
    Will schools have the latitude to make staffing decisions--like how 
many experienced teachers they retain or how many new teachers they 
hire--based on their own needs? Or will Federal policy force the 
leveling down of funding, so some schools face budget cuts that compel 
them to make no-win choices about which teachers to keep or hire?
    Here are a couple of examples of how this can play out at the 
district and school levels:

    <bullet> Sometimes schools expand, for example from K-5 to K-8. In 
such cases, they generally hire new teachers to cover the expansion. 
Other schools in the district shouldn't have their staffing cut so as 
to average out with the school that has expanded.
    <bullet> Sometimes districts create specialized programs in one 
school, such as a dual-immersion language program. By necessity, such 
programs hire staff with specialized backgrounds or credentials--for 
example, professionals who are new to teaching but whose backgrounds 
and skills are particularly appropriate for the new program. Again, 
schools with specialized programs should not have to ``level down'' the 
amount spent on their programs to ensure equal spending across a 
district.
    <bullet> Dollar-for-dollar comparisons in a district can even be 
thrown off by something as simple as how many teachers in each school 
have individual health insurance coverage rather than family coverage.

    These types of unintended consequences are major disruptions that 
have nothing to do with equity and opportunity. When you force 
districts to count exact spending in a school, the goals get lost in 
translation. We cannot equalize spending without creating winners and 
losers; it will result in some schools having to give up resources, 
services or staff in order for others to gain. That's neither equitable 
nor sensible.
    Comparable spending in schools has been a critical way to ensure 
equity in school spending over the years. It makes sense that you'd 
want districts to spend the same amount on all its kids--regardless of 
whether they go to school in a rich neighborhood or a poor one.
    But the goal is equitable, not equal, spending, and that's 
something unions have spent decades bargaining for. That's why, when 
the education law was being negotiated in Congress last year, the AFT 
fought to make sure this standard of comparability was preserved. And 
it's why we are so concerned about the attempt to legislate through the 
regulatory process.
    The legality of the proposed regulations is also in question. A 
recent legal analysis by the Congressional Research Service found that 
``a legal argument could be raised that ED exceeded its statutory 
authority if it promulgates the proposed SNS rules in their current 
form.''
    What is perhaps most concerning about the proposed regulations? It 
is that the Education Department will take the level of prescription it 
has proposed for supplement-not-supplant to the upcoming regulations on 
school accountability systems. This could strip the law of the 
flexibility necessary to create accountability systems that envision 
new ways to define and measure learning--ways that help the whole 
child, as opposed to the current and far too restrictive and 
counterproductive focus on test scores. The promise and opportunity of 
ESSA was in the opportunity for States, with broad stakeholder input, 
to create robust systems of accountability that measure school success 
beyond reading and math test scores.
    We are worried that the Department's actions on supplement-not-
supplant signal that it will try to restrict the weights that States 
can put on different measures in their accountability systems, that it 
will attempt to impose rules around the 95 percent participation 
requirement that go well beyond the letter of the law, or that it will 
very narrowly define terms such as ``significant'' or ``evidence-
based'' that were carefully negotiated by Congress to provide States 
latitude to decide what is best.
    It is apparent from ESSA's unprecedented prohibitions against the 
secretary of education overreaching on policy that parents, communities 
and educators are not interested in having highly prescribed rules and 
mandates for preK-12 education from the Federal Government. And, as 
evidenced by the persistence of the opt-out movement, this has not 
changed since ESSA was enacted.
    Frankly, this is not an auspicious beginning, and ESSA's 
unprecedented prohibitions against overreaching by the Education 
Department were intended to curb this type of action. Equally 
concerning, the Department's actions run the risk of squandering all 
the goodwill that ESSA created. Now is the time for the Department to 
help and enable, not restrict and prescribe.
    This is happening at the very time stakeholders are beginning the 
process of developing these new education systems. The Education 
Department's overreaching draft regulations, especially if they are a 
harbinger of what is to come in the way of accountability, will 
undermine the potential of ESSA before it ever has a chance to be 
implemented.
    I would like to thank Senator Alexander for remaining so vigilant 
on this issue and working to make sure that ESSA is appropriately 
implemented.

    The Chairman. But it was an enthusiastic 34 seconds. Thank 
you, Ms. Weingarten.
    Dr. Evers.

STATEMENT OF TONY EVERS, Ph.D., STATE SUPERINTENDENT OF PUBLIC 
   INSTRUCTION, WISCONSIN DEPARTMENT OF PUBLIC INSTRUCTION, 
                          MADISON, WI

    Mr. Evers. Thank you, Chairman Alexander and Ranking Member 
Murray and the members of the committee, for allowing me to 
testify today. It's good to be back. I'm back again.
    I highlighted in previous testimony before this committee, 
State and local leaders are committed to making sure that all 
kids achieve at the highest level. Under No Child Left Behind, 
overly prescriptive Federal mandates left States and local 
districts without the ability to tailor strategies to meet the 
needs of their kids.
    As a lifelong educator, I believe that we must learn from 
our mistakes. We have the Every Student Succeeds Act which 
gives us a chance to move our State and local education systems 
forward in ways that are impactful. But in doing so, we have to 
admit and recognize that ESSA is a landmark piece of civil 
rights law and one that presents us with the opportunity to see 
our challenges with new eyes in the hopes of finding solutions 
that make a difference for kids.
    Last week, I sent invitations to convene a primary advisory 
group, the Wisconsin Equity and ESSA Stakeholder Council. To 
identify members of this group, I reached out to national civil 
rights organizations and groups that have not traditionally 
focused exclusively on K through 12 issues. We have a joint 
education related organization, parents, legislators, teachers, 
and others, to advise on the State plan which will help 
districts increase the opportunities for all kids.
    I told prospective members of this council in their 
invitation, we need a diversity of experience and expertise if 
we are going to be successful in closing one of the Nation's 
largest achievement gaps, and that is in the State of 
Wisconsin. In addition to this council, Wisconsin's broader 
outreach plan consists of three in-person facilitated listening 
sessions and two virtual sessions. We will also use web-based 
feedback for anyone in the State who wants to provide us with 
information, and this information will be received and used to 
inform the Equity Council as they convene.
    I'm proud of the work we're doing in Wisconsin, and I 
believe the best solutions often come from places closest to 
the kids. To support States in doing that kind of local work, 
regulation and guidance, as has been said before, developed by 
ESSA should be limited to providing clarity on otherwise 
ambiguous or confusing areas, not implementing requirements 
that were not envisioned by Congress.
    Flexibility has been a central element of ESSA, because I 
believe there is recognition that the States have very 
different systems and supports for K through 12 education. The 
flexibility currently provided in the law allows States to 
focus on the most important and difficult work ahead in 
supporting each and every student in the United States.
    In contrast, the regulations the Department proposed during 
a negotiated rulemaking process on supplement not supplant--
they were well intended. I will grant them that. But it would 
have significant impacts on our students, drawing focus away 
from student learning and service to unwieldy fiscal balancing 
acts.
    It is the responsibility of school leaders to put the best 
teachers in front of the kids who need them the most. They 
weigh qualifications, diversity, and skill sets in service to 
kids. They contemplate optimal grade configurations, staffing 
patterns, and facility needs, all with an eye toward increased 
student achievement for all kids. I worry that the proposed 
supplement, not supplant rules reduce these complex decisions 
to an overly simplified financial calculation, which at the end 
of the day does not actually guarantee student access to high-
quality educators.
    As a member of the negotiated rulemaking committee, I 
understand the arguments on both sides of this issue. But I 
also believe--and it is clear--that the proposed regulations on 
supplement, not supplant exceed the Department's authority 
under the law.
    State and local schools absolutely have a responsibility to 
their kids to examine current Federal funding and how it's 
used. They owe it to parents and families that they support--
that they have discussions that are open and meaningful and 
transparent. And they need to be sure that they're reaching all 
the people that make up their school community. But that type 
of authentic discussion and problem solving simply cannot be 
achieved through a Federal mandate.
    I firmly believe that States should be held accountable for 
their students' results. When it comes to both funding and 
educational practice, the States are committed to using 
additional flexibility found in ESSA to improve education 
outcomes for all kids.
    Let us lead the way, and thank you so much, again, for 
allowing me to testify, and I look forward to your questions.
    [The prepared statement of Mr. Evers follows:]

                Prepared Statement of Tony Evers, Ph.D.

    Thank you Chairman Alexander, Ranking Member Murray, and members of 
the committee for the opportunity to testify today. I also want to 
thank you for your ongoing efforts to support the implementation of the 
Every Student Succeeds Act (ESSA). As States and local school districts 
across the country develop strategies to close achievement gaps and 
promote equity for our students under the new law, and the U.S. 
Department of Education (Department) moves forward with the regulatory 
and guidance process, it is important that States retain the renewed 
flexibility that is the central element of the ESSA. Flexibility is 
critical if we are to keep the focus on our students. This is the Every 
Student Succeeds Act and it is aptly named. To be successful in 
implementation, those of us closest to our students must be empowered 
to do the work that is needed to ensure that every one of them has the 
opportunity to graduate college- and career-ready.
    As I highlighted in previous testimony before this committee, State 
and local leaders are committed to achieving optimal results for all of 
their students. Under No Child Left Behind (NCLB), overly prescriptive 
Federal mandates on the overall design of statewide systems left States 
and local districts without the ability to tailor school improvement 
strategies to the unique needs of their schools and students. We should 
not repeat these mistakes.
    The ESSA is a landmark piece of civil rights legislation that 
provides States with the opportunity to engage their citizens about the 
importance of education. Part of that dialog needs to be how we measure 
success. I firmly believe that States should be held accountable for 
their student results. But as States begin to implement the law, we 
must take into consideration the very different systems and supports 
for K-12 education States across the Nation have in place. The 
regulations the Department proposed during the negotiated rulemaking 
process on supplement, not supplant, while well-intended, fail to 
recognize the importance of those differences and would have 
significant impacts on our students.
    I encourage you to think about what the proposed supplement, not 
supplant rule would mean for our kids. It is the job of school leaders 
to ensure that the best teachers are in front of the kids who need them 
the most. School leaders look at qualifications, diversity, and skill 
sets. They contemplate optimal grade configurations, staffing patterns 
and supports, and facility needs, all with an eye toward the best way 
to increase student achievement for all students. School leaders will 
not have the ability to make optimal decisions for kids with the 
supplement, not supplant rule in effect as proposed during negotiated 
rulemaking. Nor will kids be guaranteed access to a qualified educator 
who has the skills and life experience necessary to fulfill their 
needs. As it stands now, the proposed regulations would require States 
to fund individual schools on a per-pupil basis and require State 
education agencies to redirect existing staff in an attempt to build 
capacity to monitor and enforce per-pupil expenditures.
    School districts may be required to break contracts or force 
placement of teachers, without regard to educational outcomes. This is 
not good for kids and it will inhibit our ability to attract and retain 
teachers. Districts may be forced to eliminate specialized and more 
expensive programming in some schools such as career and technical 
education, engineering, music, and art. Students may be reassigned to 
different schools because of additional needs, special education 
status, or transportation requirements due to costs involved. School 
districts, in an effort to limit the disruption to students, may 
decrease the number of title I schools and concentrate low-income 
students in fewer schools, instead of economically integrating them, 
which research demonstrates results in better educational outcomes. 
None of these decisions will be based on educational factors that lead 
to the best outcomes for kids.
    Put simply, the proposed rule is not focused on educational 
results, but rather dollar for dollar spending. Hold us accountable for 
results, but do not make the same mistakes of NCLB by tying our hands 
so we are prohibited from considering or implementing certain school 
improvement strategies, assigning teachers, and providing requisite 
supports and other programming to improve outcomes for kids. We all 
know that there are better ways to determine whether someone is a high-
quality educator than looking only at how much they are compensated for 
their services.
    I believe everyone wants to get to the same result here: better 
educational opportunities and outcomes for all students and the closing 
of opportunity and achievement gaps. As I stated in the negotiated 
rulemaking sessions, I also believe the proposed regulations on 
supplement, not supplant, exceed the Department's authority under the 
law. In the pursuit of more equitable outcomes, we should ensure we are 
not eliminating options and undercutting systems States and school 
districts have put in place to address inequities. Those systems may 
have merit and should not be tossed aside without careful 
consideration.
    We need to work harder and smarter to address inequities in a way 
that will not cause harm to the educational experience of all students. 
To best facilitate that, regulation and guidance throughout ESSA should 
be limited to providing clarity on otherwise ambiguous or confusing 
issues; not implementing additional requirements that were not 
envisioned by Congress. Guidance is not regulation, but it does give 
States and school districts information as to how the Department both 
interprets and plans to address provisions in the law as it moves 
forward in its administration.
    An example of an area my colleagues are watching closely is the 
innovative assessment pilot. Innovation is not often associated with 
standardized and detailed rulemaking processes. In order to respect 
congressional intent and ensure a carefully designed study and valid 
assessment, it will be important for the Department to stick to the 
guardrail philosophy that is evidenced in ESSA. State and local 
decisionmakers have a critical role to play in identifying or 
developing strategies that will be effective for their schools and 
students and implementing these strategies with fidelity.
    This is especially true in areas where unique State-and district-
level strategies are critical to improving educational outcomes for all 
students. Accountability is a prime example of this. Wisconsin is 
committed to leveraging the new flexibility to examine the statewide 
accountability system to ensure it is responsive to stakeholder 
feedback about best practices and effective strategies. The end goal 
being that all students, including low-income students, minority 
students, English learners, and students with disabilities, have access 
to a high-quality education. We are asking our stakeholders to take a 
look at our State report cards, how they interface with Federal report 
cards, what value they discern from report cards, what improvements 
they would suggest, how accountability measures should relate to school 
improvement strategies, what those strategies look like, and when do we 
intervene as a State in a school or district. These important 
conversations will inform our school improvement efforts and help us 
ensure that all students have an equitable access to a high-quality 
education that results in graduation and career and college readiness.
    If we are going to take on these conversations in an authentic 
fashion, we have to bring everyone to the table. To that end, in 
Wisconsin, we have developed a comprehensive stakeholder engagement 
process to facilitate discussions around strategies that result in 
equitable access to educational opportunities and closing achievement 
gaps. This process starts with statewide listening sessions, which will 
be ongoing through the summer.
    Wisconsin's statewide listening sessions are focused on getting 
educators, representatives from parent groups, civil rights groups, 
community organizations, businesses, and others together to provide 
critical feedback on school accountability and school improvement. 
Furthermore, this week we will be deploying a web-based feedback form 
for anyone in the State to provide us with information. And in August, 
we will be having virtual sessions on school improvement and 
accountability for anyone in the State who wants to participate. These 
efforts represent the first round of feedback that we will use to 
inform the Equity Council I have established as my primary advisory 
group as we develop our State plan. I reached out to national civil 
rights organizations to help me build this council, and they will join 
education-related organizations, legislators, and others so we can work 
together on a comprehensive State plan.
    When it comes to both funding and educational practice, States are 
committed to using additional flexibility to improve educational 
outcomes for all students, addressing inequities, and closing 
achievement gaps. Over the course of the regulatory and guidance 
process, I hope the Department remains committed to the civil rights 
purpose of ESSA while allowing States to retain the flexibility to meet 
student needs and work with all stakeholders in a meaningful way. Thank 
you again for the opportunity to testify, and I look forward to your 
questions.

    The Chairman. Thank you, Dr. Evers.
    Dr. Ahart.

  STATEMENT OF THOMAS AHART, Ed.D, SUPERINTENDENT, DES MOINES 
                 PUBLIC SCHOOLS, DES MOINES, IA

    Mr. Ahart. Good morning, Chairman Alexander, Senator 
Murray, and the rest of the HELP Committee. Thank you for your 
leadership on finally achieving the reauthorization of ESEA, 
long overdue.
    I am Tom Ahart, superintendent of the Des Moines public 
schools. With my seven-member board of education, I am 
responsible for the education of the largest school district in 
the State of Iowa. We are committed to meeting the educational 
needs of each one of our students by recruiting and supporting 
a team of talented professionals in each of our 63 schools. Our 
33,000 students were born in 106 different countries, speak 
over 100 languages, qualify for free and reduced price meals at 
a rate of 75 percent, and are 58 percent minority.
    That commitment is reflected in a steady increase in our 
graduation rate and in reading, math, and science proficiency 
rates and considerable progress in closing achievement gaps. 
Des Moines continues to operate under the antiquated No Child 
Left Behind Act since Iowa is one of the few States without a 
NCLB waiver. We have more reasons than most to welcome the 
enactment of the Every Student Succeeds Act, and we are working 
closely with our State department of education on a statewide 
implementation process.
    Virtually all of the school-based representatives of the 
ESSA regulations negotiations committee expressed practical 
concerns regarding the impact and feasibility of a number of 
the proposed regulations. These operational concerns relate to 
regulatory barriers to effective instructional services for 
students; interference in school autonomy in staff recruitment, 
selection, and placement; unworkable criteria; unnecessary 
requirements; additional costs; and unrealistic 
administratively created obligations.
    While regulations are intended to clarify provisions of the 
statute and facilitate effective implementation, many of the 
regulatory provisions appear to restrict, condition, redefine, 
and even expand ESSA. I am hard pressed to identify any 
regulatory additions offered by the Education Department that 
are necessary for effective implementation at the local level.
    The most troubling regulatory proposal, as many others have 
mentioned, was the Department's draft regulation to impose per-
pupil expenditure comparability requirements under the 
supplement not supplant provision of the Act. Despite no 
changes in the current ESEA comparability provisions, the 
Department drafted supplement not supplant regulations that 
would require per-pupil expenditure comparability between title 
I schools and the average of non-title I schools.
    Operationally, this proposed regulation would effectively 
require salary equivalency between such schools. As Senator 
Alexander already mentioned, since the Nation's teacher salary 
system is primarily based on years of experience and advanced 
education, schools with older, higher paid staff compared to 
younger, less higher paid staff would necessarily trigger 
noncompliance on an unprecedented scale. Moreover, current 
Federal requirements already ensure that at least the same 
number of full-time equivalent teachers are deployed in title I 
as in non-title I schools.
    To comply, districts would have to spend additional State 
and local funds to cover salary differential between higher 
paid and lower paid teachers, or, in an alternative compliance 
scenario, districts potentially could shift their higher paid 
teachers to title I schools and their lower paid teachers to 
non-title I schools. Unfortunately, neither of these options 
correlate with improving student performance, because to state 
it simply, there is no relationship between salary level and 
teacher effectiveness.
    School districts clearly do not have the State and local 
funds to cover the salary differential costs of compliance, nor 
should districts disrupt instructional continuity and 
communities of practice in our schools by summarily 
transferring teachers. Moreover, the teacher transfer option 
would violate most collective bargaining agreements.
    Many districts literally would be faced with an 
impossibility of performance under these regulations which have 
no reasonable basis in the Act and appear to violate at least 
three separate statutory prohibitions in ESSA. I hasten to add 
that neither of these solutions, even if possible to implement, 
reflect best education practice.
    What often seems to be lost on the Department is that many 
high-poverty schools are not served with title I because, 
frankly, there is not enough to go around. While a 40 percent 
free and reduced price meal rate can qualify a school for title 
I services, just in Des Moines public schools, we have multiple 
schools with an over 70 percent free and reduced price lunch 
rate that we are not able to provide with title I services. 
Additionally, our ability to serve schools with concentrated 
poverty for which we do not have title I funds would be 
jeopardized under the proposed regulations.
    The ESSA was enacted with a broad base of support and good 
will at the national, State, and local levels. The tendency 
toward over-regulation, evident during the negotiated 
rulemaking process, could undermine that broad support. No 
Child Left Behind has demonstrated that the best intentions for 
improving achievement of at-risk students cannot be 
micromanaged from the Federal level. I would suggest that State 
and local officials be given the opportunity to get it right 
under ESSA.
    On the other hand, the Education Department could be 
helpful in issuing non-regulatory guidance that provides a non-
exclusive range of examples of implementation options for 
various provisions of ESSA. There is no such thing as one-size-
fits-all. Even in Iowa, the broad range of individual district 
characteristics vary widely. The only hope for successful 
results from ESSA rests in the State agencies' ability to craft 
a guidance that is meaningful to individual State and district 
contexts.
    Finally, I am proud of the progress that my district has 
made over the last 4 years, despite insufficient State funding 
and ever-increasing student needs. The current supplement, not 
supplant regulations focused on positions not funding have 
helped to make that possible. DMPS is becoming the model for 
urban education in the United States.
    The proposed ESSA regulations will force us to disrupt some 
of the most effective school reform efforts in the country and 
threaten the progress of some of our Nation's most 
disadvantaged students. We can do better if ESSA regulations 
align with the letter and the spirit of the statute itself.
    Thank you for the opportunity to discuss the new 
regulations with you.
    [The prepared statement of Mr. Ahart follows:]

               Prepared Statement of Thomas Ahart, Ed.D.

    Good morning Chairman Alexander, Senator Murray and members of the 
HELP Committee. I am Tom Ahart, superintendent of the Des Moines Public 
Schools (DMPS). With my seven member board of education, I am 
responsible for education in the largest school district in the State 
of Iowa, serving 33,000 students across our 63 schools.
    Like many school districts across the country, DMPS has undergone 
major demographic changes from barely qualifying for title I 
concentration grants at 15 percent census poverty two decades ago to 
now having 75 percent free and reduced priced lunch eligibility. Des 
Moines now enrolls 21 percent English learners, 25 percent Hispanic 
students, 18 percent African American students, 7 percent Asian and 
Pacific Islander students, 0.5 percent Native American students, and 15 
percent students with disabilities. The country of birth of our student 
body spans 106 nations and enter our schools speaking more than 100 
languages.
    We are committed to meeting the educational needs of each one of 
our 33,000 students by recruiting and supporting a team of talented 
professionals at the district level and in each one of our schools. 
DMPS has been the recipient of the ASBO Certificate of Excellence in 
Financial Reporting, the GFOA Certificate of Achievement. We are 
implementing one of six national Principal Supervision and Support 
Programs from the Wallace Foundation and a U.S. Department of Education 
School Climate Transformation grant. There is an expectation of 
providing a positive learning environment in every school and classroom 
across Des Moines. That commitment is reflected in a steady increase in 
our 4-year graduation rate and in reading, math and science proficiency 
rates on our State test. Additionally, we have dramatically decreased 
our days lost to out of school suspension, made considerable progress 
in closing achievement gaps, and have increased student enrollment and 
completion of advanced placement courses by more than 400 percent in 
the last 3 years. We were also one of the first districts in the 
country to sign onto and commit to The Males of Color Pledge, part of 
President Obama's My Brother's Keeper initiative.
    Des Moines continues to operate under the antiquated No Child Left 
Behind Act (NCLB), since Iowa is one of the few States without an NCLB 
waiver. We have more reasons than most school districts to welcome the 
enactment of the Every Students Succeeds Act (ESSA). I look forward to 
the development of a more thoughtful State accountability system under 
ESSA, and we are working closely with our State department of education 
on a statewide implementation process.
    As with most Iowa school officials, I have benefited in many ways 
from the tutelage of Chairman Tom Harkin over the years. In fact, my 
board of education president Rob Barron was a long-serving Harkin staff 
member. That background and ongoing interaction on Federal education 
policy with our Iowa delegation, however, did not prepare me for the 
ESSA negotiated rulemaking process.
    As a member of the Education Department's Negotiated Rulemaking 
Committee, representing local school district officials, I expressed 
serious concerns with proposals to expand Federal ESSA requirements 
beyond those specified in the Act, as well as the proposed regulations 
that directly ignored ESSA-legislated prohibitions.
    Virtually all the school-based representatives on the committee 
expressed practical concerns regarding the impact and feasibility of a 
number of the proposed regulations. These operational concerns relate 
to regulatory barriers to effective instructional services for 
students, interference in school autonomy in staff recruitment and 
selection, intrusion in the deployment of effective school leaders, 
unworkable criteria and unnecessary requirements, additional costs, and 
unrealistic administratively created obligations.
    While regulations are designed to clarify provisions of the statute 
and facilitate effective implementation, many of the regulatory 
provisions appear to restrict, condition, redefine, and even expand 
ESSA.
    A number of the regulatory proposals during negotiated rulemaking 
were rationalized as helping school districts understand their 
responsibilities and helping auditors better monitor program 
implementation. I am hard pressed, however, to identify any regulatory 
additions offered by the Education Department or members of the 
Rulemaking Committee that I would consider, from my perspective as 
superintendent of schools, to be necessary for the effective 
implementation of ESSA at the local level.
    The most troubling regulatory proposal during negotiated rulemaking 
was the Education Department's draft regulation to impose per-pupil 
expenditure comparability requirements under the supplement, not 
supplant provision of the Act.
    Proposals to revise the comparability of services provisions of the 
Elementary and Secondary Education Act (ESEA) had been circulating for 
more than a decade, but have never been enacted. Despite no changes in 
the current ESEA comparability provisions of the statute, the Education 
Department drafted proposed supplement, not supplant regulations that 
would require new per-pupil expenditure comparability, including 
teacher salary differentials between title I schools and the average of 
non-title I schools. Operationally, this proposed regulation would 
effectively require salary equivalency between such schools or require 
school districts to make up the difference with State and local funds. 
Since the Nation's teacher salary system is primarily based on 
increasing salary increments for years of experience (as well as for 
advanced educational attainment), schools with older, higher paid staff 
compared to younger, less highly paid staff would necessarily trigger 
noncompliance on an unprecedented scale. The school representatives on 
the Rulemaking Committee did not agree with the Department's draft 
regulations, and more flexible regulatory options were rejected by the 
Department as well.
    To comply with the Education Department's draft regulations school 
districts would have to spend additional State and local funds to cover 
the salary differentials between higher paid and lower paid teachers. 
The Center of American Progress (CAP) reported in 2012 that the cost of 
compliance with this type of per-pupil comparability requirement would 
be $6.8 billion based on national data at the time, and in 2015 CAP 
estimated the compliance cost at $8.5 billion nationally using the most 
recent OCR expenditure data. The Council of the Great City Schools 
estimated the compliance cost for their 69 member school districts 
could reach $3.9 billion, ranging from millions to hundreds of millions 
of dollars in individual districts.
    In an alternative compliance scenario, school districts potentially 
could shift their older, higher-paid teachers to title I schools and 
their younger, lower-salaried teachers to non-title I schools in order 
to comply.
    Unfortunately, neither of these options correlate with improving 
the academic performance of our students, since there is no 
relationship between salary level and teacher effectiveness. Moreover, 
the teacher transfer option would violate most collective bargaining 
agreements and result in unwarranted disruptions in instructional 
continuity and communities of practice in our schools.
    Higher paid teachers teach for the same 6 hours daily and 180 
school days annually as teachers with lower salaries and less time in 
the profession; students receive an equivalent level of service from 
their teachers regardless of salary or years of service. Moreover, 
current Federal requirements already ensure that at least the same 
number of full-time equivalent teachers are deployed in title I as in 
non-title I schools.
    School districts clearly do not have the State and local funds to 
cover the salary differential costs of compliance with these draft 
regulations, nor would districts want to summarily transfer higher paid 
staff in order to comply. Many districts literally would be faced with 
an impossibility of performance under these draft regulations--which 
have no reasonable basis in the Act and appear to violate at least 
three separate statutory prohibitions in ESSA.
    Title I is an important element of my district's efforts to 
effectively serve all of our students. What seems often to be lost on 
the Department is that many high poverty schools are not served with 
title I because, frankly, there is not enough to go around. While a 40 
percent free/reduced price meal rate can qualify a school for title I 
services, we have multiple schools with over 70 percent of students 
qualifying for free/reduced priced meals that do not qualify for title 
I in Des Moines. In addition to those challenges already mentioned, our 
ability to best serve schools with concentrated poverty without title I 
funds will also be jeopardized under the proposed regulations.
    Other regulatory additions from negotiated rulemaking also are of 
concern, including provisions that apparently would require: middle 
schools to offer advanced math coursework to any requesting student 
statewide, once the State opts to exercise the ESSA eighth grade 
advanced math assessment double-testing relief; a series of 
unauthorized regulatory conditions to be met before States could 
qualify for an alternate assessment waiver; and restrictions on the 
authorized use of nationally recognized high school assessments.
    Based on the negotiated rulemaking experience, I am also concerned 
about other Federal regulations that may be proposed and ultimately 
finalized on ESSA implementation. While there are clearly new 
flexibilities allowed under ESSA, there are numerous new State and 
local responsibilities, including additional performance indicators, 
more schools likely to be identified for improvement and intervention, 
additional reporting and data disaggregation, and new State and local 
plan requirements. We already have a lot of implementation challenges 
during the upcoming transition year.
    There is now an unprecedented level of collaboration in Iowa 
between our State education department and local school districts on 
implementation of our new responsibilities. We are jointly looking at 
defining our new performance indicators, differentiating schools for 
improvement measures, defining under-performance criteria, and 
establishing goals and benchmarks. I meet regularly with our State 
chief school officer, and several ESSA implementation planning teams 
are currently being organized by our State department of education with 
membership from school district staff, community members, and other 
organizations from around the State. In Des Moines Public Schools, our 
School Improvement Advisory Committee and our Equity Committee, both 
made up of a broad range of community members, will collaborate with my 
district staff to ensure sound implementation of ESSA at the local 
level.
    Federal regulatory expansions or restrictions, such as we 
experienced in negotiated rulemaking will complicate, if not impede the 
implementation process in Iowa. There are sufficient statutory 
parameters on the performance indicators and weighting priorities that 
States should be allowed to design their own benchmarks including 
``acceleration or catch-up'' objectives. The definitions and criteria 
for school differentiation need no further regulatory enhancements. 
Since the English learner subgroup composition has been delegated to 
the States, additional Federal requirements or further disaggregation 
is unwarranted.
    Even in areas of some ambiguity, such as Additional Targeted 
Support and Improvement criteria beyond school year 2017-18, I would 
encourage letting State and local officials work out the intricacies of 
the various components of the State accountability and school 
improvement system. After the draft comparability-based supplement, not 
supplant regulations, I have serious concerns regarding any additional 
Federal regulations on local resource allocations under the school 
improvement provisions of the Act. Further Federal regulatory action 
regarding the evidence-based activities referenced in numerous sections 
of the Act could result in the Federal Government restricting 
curriculum and intervention options, or even prohibiting instructional 
activities that have shown positive results but don't have experimental 
or quasi-experimental designs.
    The Every Student Succeeds Act was enacted with a broad base of 
support and good will at the national, State and local level. The 
tendency toward over-regulation that was evident during the negotiated 
rulemaking process could undermine that broad support. No Child Left 
Behind has demonstrated that the best intentions for improving 
achievement of at-risk students cannot be micromanaged effectively from 
the Federal level. Since the Federal Government did not get it right 
under NCLB, I would suggest that State and local officials should be 
given the opportunity to get it right under ESSA. On the other hand, 
the Education Department could be helpful in issuing non-regulatory 
guidance that provides a non-exclusive range of examples of 
implementation options for various provisions of ESSA that can be 
considered by State and local educators. One-size-fits-all is a 
misnomer. Clearly, even in Iowa, the broad range of individual district 
characteristics vary widely and the only hope for successful results 
from ESSA rests in the State agencies' ability to craft guidance that 
is meaningful to individual State and district contexts.
    Clearly, the committee and the Department have oversight 
responsibilities, and hopefully will identify those instances where 
State or local school officials may fall short in initial 
implementation. I am encouraged, however, by the cooperation and 
collaboration on ESSA between State and local education officials and 
other stakeholders that has begun in the field. I hope the Education 
Department ultimately takes a more collaborative approach to ESSA 
regulations and implementation than has occurred to date.
    Finally, I am proud of the progress my district has made over the 
last 4 years, despite insufficient State funding. We are becoming the 
model for urban education in the United States. The proposed ESSA 
regulations will force us to disrupt some of the most effective school 
reform efforts in the country and threaten the progress of some of the 
most disadvantaged students in the country. We can do better if ESSA 
regulations align with the letter and the spirit of the statute itself.
    Thank you for the opportunity to discuss ESSA implementation with 
you this morning.

    The Chairman. Thank you, Dr. Ahart.
    Dr. Gordon.

 STATEMENT OF NORA GORDON, Ph.D., ASSOCIATE PROFESSOR, MCCOURT 
 SCHOOL OF PUBLIC POLICY, GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Ms. Gordon. Thank you. Chairman Alexander, Ranking Member 
Murray, and members of the committee, thank you for the 
opportunity to testify today. I am Associate Professor at 
Georgetown University's McCourt School of Public Policy and a 
research associate at the National Bureau of Economic Research.
    I conduct research on U.S. education policy, school 
finance, and desegregation. In the course of my research on 
title I, I have analyzed finance data and have also interviewed 
many State and district title I directors. Today, I'll discuss 
how ESSA changes the definition of supplement, not supplant and 
how the Department of Education proposes to regulate it and 
discuss some of the unintended consequences that could come 
from this proposed regulation.
    The Department's proposed rule, as other witnesses have 
testified, is meant to support equity. This is a laudable goal, 
but when you look at the compliance incentives it generates and 
consider what districts might do in order to comply with the 
rule, you could see how it could actually wind up hurting 
disadvantaged students both in title I schools and in non-title 
I schools.
    Supplement not supplant is meant to ensure districts do not 
reduce the amount of State and local money they give to a title 
I school compared to what they would give that school if it did 
not participate in title I. This is an important mission, given 
the history of the law and past abuses.
    Under No Child Left Behind and earlier versions of ESEA, 
districts could comply with supplement, not supplant based on 
what they bought with title I dollars, even if they gave title 
I schools less State and local money and had title I funds make 
up the difference. ESSA fixes that, requiring districts to show 
how they distribute State and local funds to each of their 
schools and that their methodology does not reduce a school's 
State and local funding because of the school's participation 
in title I.
    Federal law still requires districts to spend funds in 
accordance with program goals and track their spending 
regardless of how supplement, not supplant is regulated. The 
Department of Education's proposed rule would require districts 
to use a methodology to allocate State and local funds that 
results in each title I school spending an equal or greater 
amount per pupil than the average amount it spends per pupil in 
its non-title I schools.
    Current data don't permit us to generate reliable evidence 
on how many districts would be in compliance with the proposed 
rule based on current resource allocations or how much they 
would need to spend in order to comply. Aside from these 
unknown costs, the rule could trigger consequences that are bad 
for equity as districts are forced to consider compliance first 
and what's best for kids second.
    For example, the rule could penalize districts working to 
increase economic or racial integration and could incentivize 
districts to concentrate disadvantaged students in title I 
schools. The rule could penalize district efforts to increase 
teacher diversity in title I schools, because increasing 
teacher diversity typically requires the recruitment of new 
and, therefore, typically less expensive teachers.
    The rule could penalize districts that allocate State and 
local funds through weighted per-pupil formulas that generate 
more money for low-income, special education, or English 
language learner students. Such districts could, nonetheless, 
fail under the proposed rule if higher weighted students attend 
non-title I schools.
    Importantly, the proposed rule only compares funding levels 
in title I schools to non-title I schools. This narrow focus 
penalizes other local approaches to equity and ignores the many 
low-income schools that do not receive title I funds, as we've 
just heard. This could punish districts that attempt to 
mitigate poverty effects in those poor but non-title I schools.
    Stakeholders are absolutely right to want to ensure that 
Federal funds aren't used as a substitute for State and local 
ones in title I schools. ESSA's new statutory language does 
this by requiring districts to have allocation methodologies 
that do not reduce a school's access to State and local funds 
because of its participation in title I.
    An alternative regulatory approach than the one that's been 
proposed would be to require districts to make their 
methodologies, like their spending data, publicly available. 
Then parents and voters would not only see how much is spent at 
each school, but they would also see district priorities as 
revealed through their funding mechanisms.
    Thank you for the opportunity to comment on this topic.
    [The prepared statement of Ms. Gordon follows:]

             Prepared Statement of Nora E. Gordon, Ph.D.\1\
---------------------------------------------------------------------------

    \1\ Note: the views expressed here are my own and do not 
necessarily reflect those of Georgetown University or the National 
Bureau of Economic Research.
---------------------------------------------------------------------------
    Chairman Alexander, Ranking Member Murray, and members of the 
committee, thank you for the opportunity to testify today. I am 
Associate Professor at Georgetown University's McCourt School of Public 
Policy where I conduct research on U.S. education policy with a focus 
on school finance redistribution and school desegregation. In the 
course of my research on title I over the past 15 years, I have 
analyzed finance data and interviewed State and district leaders and 
title I directors. My research on title I has been supported by the 
National Science Foundation and the Spencer Foundation, and published 
in peer-reviewed economics and policy journals.
    Today I will explain how ESSA changes the definition of supplement, 
not supplant, how the Department of Education proposes to regulate it, 
and the potential for that regulation to cause serious adverse 
consequences.

                    what is supplement not supplant?
    Supplement, not supplant is meant to ensure districts do not reduce 
the amount of State and local money a title I school would receive if 
it did not participate in title I--an important mission, given the 
history of the law and past abuses.
    Prior to ESSA, compliance was typically determined on a cost-by-
cost basis, evaluating whether each cost charged to title I was 
``extra.'' This compliance approach promoted inefficient title I 
spending on low-impact, unaligned ``add-ons.'' \2\
---------------------------------------------------------------------------
    \2\  Gordon, Nora and Sarah Reber. 2015. ``The Quest for a Targeted 
and Effective Title I: Challenges in Designing and Implementing Fiscal 
Compliance Rules.'' RSF: The Russell Sage Foundation Journal of the 
Social Sciences, 1(3), 129-147.
---------------------------------------------------------------------------
    The cost-by-cost approach was also bad for equity. Districts could 
comply based on what they bought with title I dollars, even if they 
were giving title I schools less State and local money because they 
knew those schools would be getting title I funds to make up the 
difference--exactly what the rule was always meant to prevent, and what 
ESSA's new requirements do prevent.
             how does essa change supplement not supplant?
    Under ESSA, to demonstrate compliance with supplement, not 
supplant, districts must show how they distribute State and local funds 
to each of their schools, and that their methodology does not reduce a 
school's State and local funding because of the school's participation 
in title I. Specifically, the law provides a test for compliance with 
supplement, not supplant in sec. 1118(b)(2):

          ``. . . a local educational agency shall demonstrate that the 
        methodology used to allocate State and local funds to each 
        school receiving assistance under this part ensures that such 
        school receives all of the State and local funds it would 
        otherwise receive were it not receiving assistance under this 
        part.''

    Last week teachers sent Secretary King a letter about their concern 
that ``some States could misunderstand the law's intent and use title I 
for other purposes, including using it to replace State and local 
funding.'' Though other provisions of ESSA are often described as 
``loosening things up,'' ESSA's supplement, not supplant change raises 
the bar on equity and explicitly prevents exactly this concern. The 
Department already has excellent guidance on this point, because ESSA 
takes what was already an option for how title I schoolwide programs 
could demonstrate how title I funds were supplemental, and turns it 
into law for how all title I schools must demonstrate title I funds are 
supplemental.\3\
---------------------------------------------------------------------------
    \3\ U.S. Department of Education. July 2015. ``Supporting School 
Reform by Leveraging Federal Funds in a Schoolwide Program.'' Accessed 
5/13/16 at: http://www2.ed.gov/policy/elsec/guid/
eseatitleiswguidance.pdf.
---------------------------------------------------------------------------
    To make this requirement even more powerful, the Department of 
Education should require districts to make these methodologies publicly 
available. Then parents and voters would not only see how much is spent 
at each school--as newly required elsewhere in ESSA--but they would 
also see district priorities, as revealed through their funding 
mechanisms.
how is the department of education proposing to regulate supplement not 
                               supplant?
    The Department has proposed regulatory language on supplement, not 
supplant that is quite different from the statute. It relates to a 
different part of the law, comparability, which aims to promote 
equitable spending across schools and which Congress did not change. 
ESSA's language on comparability, like earlier versions of ESEA, 
prohibits including ``staff salary differentials for years of 
employment'' in the determination of comparability. Sec. 1118(c)(2)(B).
    The Department wants to require districts to use a methodology that 
results in each title I school spending at least as much from State and 
local sources, in per-pupil dollars, as it does on average level in its 
non-title I schools.
    The remainder of my testimony focuses on the proposed rule, rather 
than the statutory language on supplement, not supplant.
     how much would the proposed rule cost districts to implement?
    We do not have reliable evidence on how much this is going to cost 
districts.
    Costs will be different for every district, largely based on what 
distributions of teacher experience across schools look like at the 
district level. To answer this question convincingly at a national 
level requires data that simply do not exist.
    To know if each title I school in a district spends at least as 
many State and local dollars per pupil as the average non-title I 
school in the district, you would need to know how much State and local 
money per pupil each school gets, and which schools participate in 
title I.
    This is less straightforward than it sounds, because most school 
districts allocate full-time equivalent staff positions, or FTEs, to 
their schools, rather than dollars. To know how many State and local 
dollars are spent, you need to use the actual salaries of those 
teachers in the school building, rather than district averages. But 
many districts have one data system linking teacher names to school 
buildings, and a separate data system with teacher names linked to 
teacher salaries. This is why the reporting requirement in ESSA will be 
so useful, and so challenging.
    Some districts have systems in place already that could produce 
these numbers. The Department has not provided any cost runs from such 
districts.
    Though most districts do not actually keep their records in a 
format amenable to producing these data, they have reported out such 
data to the Federal Government as required under the American Recovery 
and Reinvestment Act of 2009. The Department of Education conducted its 
first School-Level Expenditure Survey in 2009; in 2011, the relevant 
questions were asked again as part of the Civil Rights Data Collection. 
In each of the two available years of data, districts were asked to 
report expenditures, by whether or not they were related to personnel, 
at the school level. They were explicitly instructed to: ``report 
actual school finance data for this school. Do not report data based 
upon average teacher expenditures.'' They were also instructed to 
exclude Federal funds from the school-level expenditures.
    The Department's own analyses that come closest to assessing the 
costs of the proposed rule use the 2009 data. The study noted:

          ``Because school districts typically do not have accounting 
        systems that track expenditures at the school level and this 
        was the first time such data have ever been collected on a 
        large-scale basis, this effort faced challenges that may affect 
        the accuracy and consistency of the data reported. `` . . . the 
        data collected through this study are not consistently defined 
        across all States and districts, and are best used to examine 
        resource patterns within districts rather than across 
        districts.'' \4\
---------------------------------------------------------------------------
    \4\ Stullich, Stephanie. 2011. ``The Potential Impact of Revising 
the Title I Comparability Requirement to Focus on School-Level 
Expenditures.'' Policy Brief from the U.S. Department of Education, 
Policy and Program Studies Service. Accessed 5/13/16 at: https://
www2.ed.gov/rschstat/eval/title-i/comparability-requirement/
comparability-policy-brief.pdf.

    Therefore, the Department is proposing a rule at a point in time 
where the information needed to understand how it would actually affect 
districts and students is not reliable.
  how could the proposed rule worsen school quality for poor students?
    We can understand how the proposed rule changes incentives for 
district-level policy in a more general sense, even if we cannot 
reliably estimate how much it would cost districts nationally to 
comply. Districts seeking to comply with the new rule would take money 
out of their non-title I schools in order to bring average spending 
down there, and use it to raise State and local spending in some or all 
of their title I schools. How districts would do this would depend on 
local circumstances, particularly how teachers are spread across 
schools by experience. But many strategies districts are likely to turn 
to conflict with equity.

    <bullet> All parties involved at negotiated rulemaking did not want 
to make districts do ``forced transfers'' of teachers. But if you need 
to move a lot of money around across schools, and you spend most of 
your money on teachers, it's unclear how else to do it.
    <bullet> Forced transfers isn't just a union issue, it's a quality 
issue. title I schools could wind up with the teachers the non-title I 
schools choose not to retain. If principals choose which teachers they 
retain, non-title I principals will release their least preferred 
teachers into the pool for title I schools to hire. While teacher 
spending at title I schools would go up, average teacher quality at 
title I schools could go down.
    How else could districts get funds out of non-title I schools and 
into title I schools?
    <bullet> They could reduce existing efforts for economic or racial 
desegregation, or not take up new ones. For example, recent events in 
Loudoun County are an example of how proponents of integration 
sometimes must argue against proposals that segregating high-needs 
students is beneficial because it gives them access to more 
resources.\5\ This effort to segregate students failed, but the 
proposed rule would give ammunition to similar efforts to segregate 
children because under the proposed rule, establishing or maintaining a 
more integrated school system could result in non-compliance if it 
results in a higher per pupil average in non-title I schools.
---------------------------------------------------------------------------
    \5\ Balingit, Moriah. March 20, 2016. ``Separate but equal? Wealthy 
county's plan would concentrate low-income, Hispanic students.'' 
Washington Post. Accessed 5/13/16 at: https://www.washingtonpost.com/
local/education/separate-but-equal-loudoun-plan-would-concentrate-poor-
Hispanic-students/2016/03/20/db6f2cca-e7a8-11e5-b0fd-
073d5930a7b_story.html.
---------------------------------------------------------------------------
    Furthermore, because the proposed rule only judges equity and 
compliance based on title I vs. non-title I school status, districts 
might give pause to anything that could raise average per-pupil 
spending in non-title I schools. This could include, but is not limited 
to:

        <bullet> drawing more economically integrated school boundaries 
        and giving additional resources to support economically diverse 
        schools,
        <bullet> voluntary school desegregation efforts like magnet 
        schools which typically cost more money,
        <bullet> transfer options or school choice options that allow 
        low-income students to move from low-performing schools to 
        higher performing schools, when the money follows the student,
        <bullet> efforts by municipalities to integrate affordable 
        housing into neighborhood development through zoning 
        requirements and provide additional resources to receiving 
        schools.

    <bullet> Districts could cut back on efforts to increase teacher 
diversity in title I schools because increasing teacher diversity 
typically requires the recruitment of new, and therefore typically less 
expensive, teachers.
    <bullet> Districts could change which eligible schools receive 
title I funds, either no longer serving schools that currently receive 
title I, or distributing funds to additional eligible schools--not 
based on educational need, but based on compliance concerns.
    <bullet> Districts could remove or reduce specialized schools or 
programming if they raise the non-title I average, such as schools that 
focus on career technical education, performing arts, or science and 
technology, as well as within-school programs that address specific 
needs such as autism programs, dyslexia programs, or gifted and 
talented programs. These types of programs are often used to increase 
racial or economic diversity within a district.
    <bullet> Districts could choose to eliminate existing, or not 
implement, pay for performance initiatives if they result in increased 
spending in non-title I schools.

    The rule creates a compliance assumption that title I students are 
better off remaining in title I schools that receive more State and 
local money. District practices to intentionally dilute high 
concentrations of poverty at the school-level, such as those described 
above, may run afoul of the proposed rule.
    To understand the types of mechanisms listed above, one needs to 
consider how districts allocate resources.
  how the incentives work: hypothetical lincoln public schools example
    It seems counterintuitive that a rule requiring districts to spend 
the same or more dollars per pupil in each of their title I schools 
than the average in their non-title I schools could result in making 
poor students worse off. However, to show the mechanics of these 
incentives, I have constructed a simplified example with a hypothetical 
school district, Lincoln Public Schools (LPS). Its three elementary 
schools are described in Table 1. In practice, the exact incentives 
will vary by district, mainly depending on how its teachers are 
distributed across schools by experience.

                      Table 1: Baseline Enrollment
------------------------------------------------------------------------
                               Title I    Percent      Poor     Non-poor
           School               school      poor     students   students
------------------------------------------------------------------------
Adams ES....................        Yes         80        800        200
Main St. ES.................        Yes         75        750        250
Union ES....................         No         40        400        600
------------------------------------------------------------------------

    It shows each school has 1,000 students. Adams ES is 80 percent 
poor, Main St. ES is 75 percent poor, and Union ES is 40 percent poor. 
Though all three schools are eligible for title I funds under Federal 
law, the district has chosen to serve Adams and Main St. but not Union, 
with title I funds.
                          staffing methodology
    LPS weights poor students when determining how many teachers are 
assigned to each school--with the policy goal of having more FTEs in 
poor schools. The practice of using enrollment to assign teachers to 
schools is far more common than using enrollment to assign dollars to 
schools. In LPS's methodology, each non-poor student receives a weight 
of 1.0, and each poor student receives a weight of 1.2. Each school's 
weighted enrollment therefore is equal to its number of poor students 
multiplied by 1.2, plus its number of non-poor students (multiplied by 
1).
    LPS then assigns one full-time equivalent teacher (FTE) per 20 
weighted students. 20 poor students = 20*1.2 = 24 weighted students, so 
would generate 24/20 = 1.2 FTEs for their school. 20 non-poor students 
simply generate 20*1 = 20 weighted students and 1 FTE.
    Table 2 shows each school's weighted enrollment and the number of 
FTEs per school generated under this methodology.

                                 Table 2: Baseline Weighted Enrollment and FTEs
----------------------------------------------------------------------------------------------------------------
                                                Title I    Percent      Poor     Non-poor   Weighted    Formula
                    School                       school      poor     students   students  enrollment     FTEs
----------------------------------------------------------------------------------------------------------------
Adams ES.....................................        yes         80        800        200       1,160         58
Main St. ES..................................        yes         75        750        250       1,150       57.5
Union ES.....................................         no         40        400        600       1,080         54
----------------------------------------------------------------------------------------------------------------

    It is well-established that high-poverty schools are 
disproportionately staffed by less experienced teachers. Because 
teacher salaries rise with experience, this means that a school with 
fewer experienced teachers will spend less per student than another 
school with the same teacher:student ratio.
    In this simplified example, consider only two types of teachers, 
experienced (paid $75,000 per year) and inexperienced (paid $35,000 per 
year). Table 3 shows the distribution of teachers by experience over 
the schools in LPS: 45 percent of teachers in Adams ES are 
inexperienced and 50 percent of teachers in Main St. ES, while 30 
percent of teachers in Union ES are inexperienced.
    Applying the salaries for experienced and inexperienced teachers, 
we can see how much each school is spending in dollars. To calculate 
school spending per pupil, divide this amount by the school's 
enrollment (not the weighted enrollment).

                            Table 3: FTEs, Teacher Experience and Spending Per Pupil
----------------------------------------------------------------------------------------------------------------
                                                                                                         School
                        School                          Title I    Percent    Formula    Percent FTEs   spending
                                                         school      poor       FTEs    inexperienced      PP
----------------------------------------------------------------------------------------------------------------
Adams ES.............................................        yes         80         58            45   $3,306.00
Main St. ES..........................................        yes         75       57.5            50   $3,162.50
Union ES.............................................         no         40         54            30   $3,402.00
----------------------------------------------------------------------------------------------------------------

    Table 3 shows how even though LPS is choosing to allocate more 
teachers to higher poverty schools by weighting poverty in its staffing 
methodology, the distribution of teacher experience in LPS means it is 
spending less in dollars per pupil in its title I schools than its non-
title I schools.
    Because there is only one non-title I school in this example, Union 
ES, the average spending per pupil in LPS's non-title I schools is 
simply spending per pupil in Union ES, $3,402. Neither of the title I 
schools, Adams and Main St., spends as much per pupil. LPS would 
therefore not comply with the proposed rule.
    During negotiations, LEA and SEA representatives spoke about how 
they would have to move people around in order to comply. What does 
this look like in this example? There are several approaches.
          getting to compliance by concentrating poor students
    The proposed rule requires LPS to get money into its title I 
schools and out of its non-title I school. Because its staffing 
methodology means poor students bring additional FTEs to a school than 
non-poor students, taking poor students out of Union and putting them 
into title I schools will help LPS comply with the proposed rule. Table 
4 shows how this would work in LPS.
    Imagine LPS moves 250 poor students who previously attended (non-
title I) Union ES to (title I) Main St. ES, and 250 non-poor student 
who previously attended Main St. to Union. It could do so in any number 
of ways: redrawing attendance boundaries, eliminating an intradistrict 
choice plan, or stopping an existing busing plan.

                                               Table 4: Increasing Economic Segregation Yields Compliance
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                     Percent     School
                             School                               Title I    Percent      Poor     Non-poor   Weighted    Formula      FTEs     spending
                                                                   school      poor     students   students  enrollment     FTEs      inexp        PP
--------------------------------------------------------------------------------------------------------------------------------------------------------
Adams ES.......................................................        yes         80        800        200       1,160         58         45  $3,306.00
Main St. ES....................................................        yes        100      1,000          0       1,200         60         50  $3,300.00
Union ES.......................................................         No         15        150        850       1,030       51.5         30  $3,244.50
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Now, the average spending per pupil in non-title I schools (Union 
ES) is $3,244.50 and both Adams and Main St. exceed that, so LPS has 
achieved compliance with the rule. While increasing economic 
segregation across schools allows LPS to comply, there is strong 
research consensus that this is actively bad for economically 
disadvantaged students. This research base underlies the Department of 
Education's new Stronger Together initiative, offering grants to school 
districts for voluntary economic desegregation plans.
    In this simple example, I have not included any additional weights 
for students with disabilities or English learners, but such weights 
are common in practice and the same logic applies. The exact incentives 
facing a particular district will depend on its weights.
    What if LPS does not want to move its students around? What other 
options exist?
 getting to compliance by changing which title i-eligible schools are 
                                 served
    In the baseline scenario described in Tables 1-3 (that is, before 
LPS moved students as described in Table 4) LPS had the option to serve 
one, two, or three of its three elementary schools, because at least 40 
percent of students were poor in each school. LPS initially had been 
serving Adams and Main St., which were 80 percent and 75 percent poor, 
and choosing not to serve Union, that was only 40 percent poor. In 
practice, districts vary widely in how they choose which title I 
eligible schools, within the ranking and serving rules, and a policy 
like this one is not uncommon.
    If LPS chooses to serve all its title I eligible schools, the new 
rule would not apply so the district would not be in violation. It 
would, however, be reallocating Federal funds from its highest poverty 
schools to its lowest poverty school in order to gain this exception.
    LPS could also choose to no longer serve Main St. ES with title I, 
instead serving only Adams. In this case, the average spending per 
pupil in non-title I schools now would come from the average of Adams 
and Union rather than just high-spending Union alone (see Table 3). 
Low-spending Main St. now pulls down this average to $3,282.25 (the 
$3,402 PP at Union + 3,162.50 PP at Main St., divided by two), making 
Adams--which still would be spending the same amount as before, $3,306 
per pupil--now spending more than the average in the district's non-
title I schools. Adams therefore meets the rule. By not serving Main 
St., LPS is no longer required to meet any particular threshold 
spending per pupil at the school, though it remains a high-poverty 
school. Overall, this change makes LPS compliant.
      increasing weights on poor students in staffing methodology
    LPS may well want to keep title I funds in Adams and Main St. 
because these are its highest poverty schools, without spreading them 
to Union, or increasing economic segregation in its schools. If it is 
committed to having a consistent and transparent staffing methodology 
(that is, it doesn't want to use its formula and then take some 
fractional position out of Union in a post hoc manner to spread over 
Adams and Main St.) it might think increasing the weights on student 
poverty would help.
    In this example, even if LPS increase the weight on poor students 
from 1.2 to 1.4, it would fall short of meeting the proposed rule. 
Table 5 shows how this change in weighting would affect FTEs and 
spending per pupil across the schools, assuming that the fraction of 
inexperienced teachers remains constant at each school.

                                                   Table 5: Weighting Poor Students 1.4 instead of 1.2
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                     Percent     School
                             School                               Title I    Percent      Poor     Non-poor   Weighted    Formula      FTEs     spending
                                                                   school      poor     students   students  enrollment     FTEs      inexp        PP
--------------------------------------------------------------------------------------------------------------------------------------------------------
Adams ES.......................................................        Yes         80        800        200       1,320         66         45  $3,762.00
Main St. ES....................................................        Yes         75        750        250       1,300         65         50  $3,575.00
Union ES.......................................................         No         40        400        600       1,160         58         30  $3,654.00
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The average spending per pupil in the non-title I schools is still 
determined by Union ES, now $3,654. The additional weight brought Adams 
above that level but not Main St., so LPS would not be in compliance, 
even after adding 19.5 FTEs as dictated by the new staffing 
methodology.
                            forced transfers
    All parties involved in negotiations did not support the use of 
forced transfers of teachers and collectively bargained agreements 
prohibit them in many cases. However, LPS could solve its compliance 
problem by forcing teacher swaps: Adams and Main St. could each trade 
five inexperienced teachers to Union for five experienced teachers. 
Table 6 shows the allocation of teachers and dollars before and after 
that forced transfer.

                                  Table 6: Forced Transfers Achieve Compliance
----------------------------------------------------------------------------------------------------------------
                                             Before Forced Transfer
-----------------------------------------------------------------------------------------------------------------
                                                         Weighted    Formula     Inexp.      Exp.       School
                        School                          enrollment     FTEs       FTEs       FTEs    spending PP
----------------------------------------------------------------------------------------------------------------
Adams ES..............................................       1,160         58       26.1       31.9    $3,306.00
Main St. ES...........................................       1,150       57.5      28.75      28.75    $3,162.50
Union ES..............................................       1,080         54       16.2       37.8    $3,402.00
----------------------------------------------------------------------------------------------------------------
                                              After Forced Transfer
----------------------------------------------------------------------------------------------------------------
Adams ES..............................................       1,160         58       21.1       36.9    $3,506.00
Main St. ES...........................................       1,150       57.5      23.75      33.75    $3,362.50
Union ES..............................................       1,080         54       26.2       27.8    $3,002.00
----------------------------------------------------------------------------------------------------------------

    Table 6 shows what happens when 10 experienced teachers are moved 
out of Union. Five of these teachers are placed in Adams and five in 
Main St. They are replaced at Union with five inexperienced teachers 
from Adams and five inexperienced teachers from Union. Because of the 
salary differentials, the new spending per pupil in non-title I Union 
is now lowered to $3,002.00, and Adams and Main St. each spend more, 
complying with the proposed rule.
                            recommendations
    Given the history of title I, stakeholders are absolutely right to 
want to know how equity will be ensured. ESSA's statutory language does 
so by forcing districts to describe their resource allocation method 
and to show it does not penalize title I schools because of their 
participation in title I.
    The statutory language prevents districts from using Federal funds 
to replace State and local revenue in title I schools. At the same 
time, it allows local school districts to design programs specific to 
district needs. The Department's proposed rule either requires one 
specific methodology (a weighted student funding formula)--and the law 
prohibits a federally defined methodology--or a lot of post-hoc moving 
around of funds, actually forcing districts to move away from 
consistent and transparent funding allocations.
    The Department should work with States to make sure districts 
understand this rule now applies to all title I schools. And they 
should require districts to make these methodologies publicly available 
to improve transparency and make accountability local and meaningful.
    Thank you for the opportunity to comment on this important topic.

    The Chairman. Thank you, Dr. Gordon.
    Ms. Marshall.

 STATEMENT OF DENISE MARSHALL, EXECUTIVE DIRECTOR, COUNCIL OF 
           PARENT ATTORNEYS AND ADVOCATES, TOWSON, MD

    Ms. Marshall. Chairman Alexander, Ranking Member Murray, 
and members of the committee, I'm honored to be here today to 
represent COPAA, a national peer-to-peer network that works to 
protect the civil rights of students with disabilities and 
their families.
    We stand strong to say our kids count, they can achieve, 
and what they need and deserve is an equal opportunity to 
succeed. COPAA thanks you for your bipartisan leadership in 
passing our Nation's general education law, the Every Student 
Succeeds Act.
    We worked very closely throughout the reauthorization with 
our disability, civil rights, and business communities to 
ensure that ESSA included critical provisions that would, in 
fact, buoy up the students it is intended to support. This 
includes 7.7 million black students, 13.1 million Hispanic 
students, 25 million students from low-income families, 4.5 
million English language learners, and 6.4 million students 
with disabilities.
    ESSA gained COPAA's support precisely because, although it 
has that great focus on State flexibility, which is important, 
we were also able to ensure that it had accountability, key 
provisions that would protect all. It's harsh to recall and 
it's unbelievable to realize that students with disabilities 
only had access to education in my lifetime, but it took them 
40 years. Prior to the passage of No Child Left Behind, they 
were not counted. They were not included in the assessments in 
the State, local, or district accessibility systems, and as a 
result, they were all but invisible.
    Not including them in the count and not holding schools 
accountable for their learning limited access to the general 
education curriculum and created separate and often segregated 
instruction. Parents had no idea how their children were doing 
in school as compared to the State standards. Now, the 
requirements of ESSA give us clear information that can assist 
parents in assuring their child can access the regular 
classroom, access the regular curriculum, and have a real shot 
at a regular diploma.
    This is a civil rights law, and we have fought hard for 
equal access. Our kids want in, and our families deserve to 
have the same data about their child's achievement as every 
other child in the building. Through the eyes and ears of the 
COPAA network, we know the importance of this law and its 
regulations to keep expectations high.
    Coupled with the requirements of the IDEA and other Federal 
laws protecting the rights of students and their families, the 
provisions in ESSA can change the trajectory of a student's 
life. I want to share two stories. One is about Bruce, a 19-
year-old from South Carolina who struggled and suffered, 
bullied relentlessly, unable to keep up because of his 
dyslexia. But with the relentless efforts of his parents and 
his educators and the right services for his dyslexia, he is 
graduating high school, has a full-time job, and heading to 
college in the fall.
    And Blair, a young woman from Pennsylvania who with 
accommodations and the support of her service dog graduated 
high school and is currently a public relations major in 
college. We have a long way to go before we can support the 
success of all students. But we know the possibilities for each 
to succeed are substantial and real.
    Today, I focus on some important provisions for us: 
Creating that public transparency in the data, which I know we 
all share, and requiring school leaders to do something about 
it when the data shows there is reason to act. Accountability 
equals responsibility. ESSA no longer contains the mandates and 
consequences of its predecessor, and I think we were all 
dancing for that.
    But the responsibility lies squarely with the schools. ESSA 
includes core principles and important guardrails that we know 
can both guide educational decisionmaking and protect resources 
and students. Critical provisions are intended to assure, and 
strong regulations must support the requirement for action when 
outcomes or the lack thereof demand it.
    We have to have State-designed systems that have rigorous 
goals and interim measures of progress; that have statistically 
valid summative ratings on both academic and the additional 
quality indicators; clear requirements for identification and 
intervention in each of the three categories of the law; 
timely, evidence-based intervention focused on raising 
achievement. We simply cannot leave any child to languish with 
no intervention. They need to have the intervention and 
services in a timeframe that can have an impact in their 
educational lifetime.
    We also want title I regulations to provide for a range of 
statistically reliable and accepted N sizes, and we want to 
assure State support is provided to districts to reduce 
bullying, harassment, and discipline, and the use of restraint 
and seclusion, all of which are disproportionately used on 
students with disabilities and students of color and result not 
only in harm and trauma, but make it impossible for them to 
learn. We need safe school climates.
    You passed ESSA to advance the educational equity and serve 
the interests of all students. That is the test and the 
measurement that counts. State and district efforts to 
implement ESSA must target policies and resources on the urgent 
needs of students in what is arguably the most important 
journey of their formative lives, their K to 12 education.
    I want to just finally add that I urge us to get past the 
tug of war of control and figure out a way to invest equitably 
in students and find innovative ways to assure that greater 
numbers of students, including those of color, ELL, and with 
disabilities, are able to succeed.
    I thank you for this opportunity, and I look forward to 
your questions.
    [The prepared statement of Ms. Marshall follows:]

                 Prepared Statement of Denise Marshall

    Chairman Alexander, Ranking Member Murray and members of the 
committee thank you for inviting me to testify today on the 
implementation of the Every Student Succeeds Act (ESSA). I am Denise 
Marshall, executive director of the Council of Parent Attorneys and 
Advocates (COPAA). COPAA is a national non-profit peer-to-peer network 
of parents, attorneys, advocates, and related professionals who work to 
protect the civil rights and secure excellence in education on behalf 
of the 6.4 million children with disabilities \1\ attending public 
school across the United States. We are an important voice in our 
children's education and we stand strong and loud to say our kids 
count, they can achieve and they want an equal opportunity to succeed.
---------------------------------------------------------------------------
    \1\ IDEA eligible students ages 3-21, (2012). NCES, U.S. Department 
of Education.
---------------------------------------------------------------------------
    It is through your bipartisan partnership that the Nation's general 
education law has successfully been updated. COPAA appreciates your 
leadership to accomplish this. Throughout the reauthorization process, 
COPAA worked closely in coalitions with the disability, civil rights 
and business communities--across lines that often divide us on public 
policy issues--to assure that ESSA included provisions we all believed 
were critical to assuring students for which the law is intended to 
support--would in fact do so. And yes, in the process, none of the 
parties invested in ESSA's outcome secured everything they wanted, 
however, COPAA believes ESSA does include the essential components that 
protect and support our most disadvantaged students.
    These students are the: 7.7 million Black students; 13.1 million 
Hispanic students; 25 million students from low-income families; 6.4 
million students with disabilities; and 4.5 million English Language 
Learners \2\ who attend our Nation's public schools.
---------------------------------------------------------------------------
    \2\ National Center on Education Statistics at: http://nces.ed.gov/
fastfacts/#.
---------------------------------------------------------------------------
    ESSA gained COPAA's support because, while it provides new 
flexibility for decisions to be made by States and districts, it does 
include several provisions that we believe are key to providing 
continued accountability for all students, including students with 
disabilities who, as you know, prior to the passage of No Child Left 
Behind (NCLB) had never been included in State assessments and in 
school, district or State accountability systems. While hard to 
imagine, it's true and while the performance of all student groups, 
including students with disabilities, has risen dramatically between 
2000 and 2013,\3\ the achievement gap is still far too large between 
White students and students of color. And, students with disabilities 
continue to lag far behind on substantive outcomes that we know predict 
future success, especially on key outcomes such as: grade level 
proficiency in reading and math; graduation from high school; 
matriculation into college and, becoming employed. \4\ We do see 
improvement when districts and States take seriously the need to set 
high expectations for all students; to increase and sustain full access 
to the regular classroom staffed with trained and certified teachers; 
and, to provide the instructional support, interventions and 
accommodations that allow students with disabilities to succeed 
alongside their peers.
---------------------------------------------------------------------------
    \3\ National Center on Education Statistics, National Assessment of 
Educational Progress (NAEP), 2015, at http://nces.ed.gov/
nationsreportcard/pubs/main2013/2014451.aspx.
    \4\ 37 percent of 8th grade students with disabilities scored at or 
above basic in reading on the National Assessment of Education Progress 
(NAEP), compared with 81 percent of students without disabilities; 63 
percent of students with disabilities graduate from high school as 
compared to 82 percent of students without disabilities; and, 19.1 
percent of people with disabilities are participating in the U.S. Labor 
force as compared to 68.2 percent of people without disabilities. See: 
National Center on Education Statistics, National Assessment of 
Educational Progress (NAEP), 2015, at http://nces.ed.gov/
nationsreportcard/pubs/main2013/2014451.aspx. National Center on 
Education Statistics, 2013-2014, at http://nces.ed.gov/ccd/tables/
ACGR_RE_
and_characteristics_2013-14.asp; U.S. Department of Labor, 2015 at 
www.dol.gov.
---------------------------------------------------------------------------
    Through the eyes and ears of our network of members, we know the 
importance of the law and its accompanying regulations to keep 
expectations high and change the trajectory of student lives. I'd like 
to share a few COPAA stories to remind us all of what the real 
possibilities are for real students.
    Bruce, a 19 year-old from South Carolina struggled and suffered; 
bullied relentlessly, unable to keep up, suffered trauma and self-
esteem issues from low expectations due to his inability to read. The 
fact is that Bruce is incredibly bright, and with persistence, 
relentless efforts of his parents and educators, and the right services 
and supports for his dyslexia--he graduated high school and is off to 
college in the Fall.
    Mariano from California has an Individualized Education Program and 
is working hard in high school to fulfill his goal to play and conduct 
for the New York Philharmonic Orchestra--and to be a Music and History 
Professor.
    Blair, a young woman from Pennsylvania, who with accommodations and 
the support of her service dog, graduated high school and is currently 
a sophomore at York College. She is a Public Relations major with a 
minor in Nonprofit Management.
           accountability: why it matters & what it includes
    Today, I'd like to focus on the important components of ESSA that 
are inherently linked to both creating public transparency in the 
data--which is a goal I know we all share--and giving school leaders 
and the public the information and requirements necessary to actually 
do something when the data show there is reason to do so. I'd also like 
to reiterate what we've said throughout the reauthorization and as I've 
shared through several stories: real accountability for student 
subgroups matters and it matters to children right now. Real 
accountability is not an esoteric exercise in reporting test scores and 
it is not about gaming the numbers so it appears as if schools are 
doing better than they really are, nor, as history has shown, is it 
setting standards so low that the diploma students receive is virtually 
worthless when they try to enter the military, matriculate into college 
or access career training only to find they are ill-prepared for the 
next phase of their life. Accountability is responsibility--and now 
that important responsibility lies squarely with the school, the 
district and the State.
    ESSA assures that this shift in responsibility is still backed by 
core principles and important guardrails that we know can both guide 
educational decisionmaking and protect resources and students. While 
ESSA no longer contains the mandates and consequences of its 
predecessor, it does include critical provisions intended to assure the 
adults responsible for the children do something when outcomes demand 
it.
    A key function of a school accountability system is to communicate 
what is expected of schools both to the schools themselves and to the 
public. In order for school accountability systems to support 
improvement and gap closing, these expectations have to be both 
rigorous and focused on student outcomes. Schools and districts must be 
compelled by the important combination of data and accountability 
requirements to provide the instructional support, intervention and 
supports students need and in a timeframe that will actually impact 
struggling students. States must design systems that will strike this 
critical balance.
    Unfortunately, past history shows that when left to their own 
devices, States often set expectations for their schools far too low. 
They typically do this because pressure from special interest groups 
makes setting rigorous goals too daunting. In fact, States have set 
graduation goals as low as 60 percent and allowed as little 
as .1 percent of annual growth to count as progress against State 
goals. Recently, we've also seen how easily States can allow the focus 
of accountability to shift away from student learning. This is 
unacceptable.
    Sarah, a parent currently living in Maryland, whose husband is 
active military, knows firsthand from advocating across multiple States 
due to family moves, that academic expectations and allowed level of 
parent involvement vary greatly from State to State and from school to 
school. The fact is that one mile, whether it's a country mile or a 
city mile, can make a huge difference in educational opportunity and 
therefore in the life of a family and a child. While we respect State 
rights and autonomy, Sarah and so many other parents like her across 
our great country urge regulators to use all authority to put up 
guardrails in ESSA that ensure meaningful progress is realized toward 
closing the achievement gap for at risk children. We must have clear 
regulations for such areas as the definition of ``consistently 
underperforming'' and specifying timeframes for necessary intervention 
and action when subgroups of students are not achieving to ensure 
Sarah's children and all at-risk children do not slip through the 
cracks or experience multi-year delays in their educational progress.
    We must stay focused on the purpose of ESSA which as stated in the 
statute is: ``To provide all children significant opportunity to 
receive a fair, equitable, and high-quality education, and to close 
educational achievement gaps.'' COPAA and the entire civil rights 
community has long recognized equal educational opportunity as central 
to our struggle to achieve equality for all Americans. Full ESSA 
implementation must not delay nor promote retreat.
    Our children deserve better and require prompt action. So, we want 
an accountability system, designed by each State that will ensure:

    (1) the expectations for all student groups are rigorous;
    (2) the State-designed school ratings reflect the learning outcomes 
of all groups of students, and
    (3) meaningful action is taken whenever the school is 
underperforming for all students or for any student group.

    In order to achieve these three important components of State 
accountability systems, we have encouraged ED, through forthcoming ESSA 
regulations on accountability to assure that:

    <bullet> States explain their methodology for setting ambitious 
goals and interim performance targets that require significant progress 
toward closing achievement gaps.
    <bullet> States fully understand and provide the [types of] clear 
evidence needed to demonstrate that their goals meet their system's 
criteria including alignment with State standards and levels of 
achievement as applicable.
    <bullet> States provide a statistically valid summative rating 
based on their academic indicators and the additional school quality 
indicator(s) to annually provide meaningful differentiation between 
schools and determine how the school is doing in meeting the interim 
performance targets and ambitious goals.
    <bullet> All school quality indicators are disaggregated by student 
group within each school as required in ESSA in a statistically valid 
manner.
    <bullet> State systems maintain a strong focus on student 
achievement and attainment including that States have to demonstrate 
that the other indicator of school quality cannot be weighted such that 
it prevents a school from being identified for comprehensive support 
and improvement, targeted support and improvement, or additional 
targeted support and improvement if the school would have been 
identified as such based on the academic indicators.
    <bullet> States base the definition of ``consistently 
underperforming' on their statewide goals and interim performance 
targets for each group of students. The definition for consistently 
underperforming must not be based on the size of the achievement gaps 
within schools. States must publicly report their definition of 
``consistently underperforming,'' including both the level and duration 
of underperformance required. Because ESSA requires States to ensure 
that their accountability systems clearly identify and require action 
in any school that is consistently underperforming for any group of 
students. The fact that both school identification and action are 
triggered by ``consistent underperformance'' the way this term is 
defined will be critical to ensuring that schools are held accountable 
for the performance of all groups of students. A lax definition could 
allow some students to languish for years in schools that are not 
serving them well.
    <bullet> In alignment with the statute, States are prohibited from 
measuring the performance of a super-group of students in place of 
individual student groups. In recent years, as more and more States 
have been designing their own accountability systems, many have chosen 
to base their school ratings either solely on schoolwide average 
performance, or on schools' performance for students overall and for a 
super-group of students. As a result, in most States, school ratings 
tell parents and community members little about how schools are 
performing for individual groups of students. Schools that are doing 
fairly well on average, but are performing poorly for, for example, 
their poor students, or their students with disabilities, are allowed 
to ignore this underperformance.
    <bullet> School accountability [summative] ratings, or combination 
of ratings (be they letter grades, other labels, index values or 
rankings etc.) must reflect how each school is performing for each 
group of students that it serves, as well as whether the school is 
consistently underperforming for any student group. Ratings must be 
based on disaggregated results for each group of students, and 
differentiate schools that consistently underperform for any group.
    <bullet> States demonstrate how their exit criteria for schools 
identified for comprehensive support and improvement, as well as for 
those requiring additional targeted support and improvement (a) require 
meaningful, sustained improvement on the indicators in the system, and 
(b) are related to the State's long-term goals and interim progress 
targets. Exit criteria are public and States must describe how the 
school meet the criteria.
    <bullet> States specify what constitutes ``unsuccessful 
implementation'' of improvement plans in targeted support and 
improvement schools; timelines for escalated action in comprehensive 
support and improvement and additional targeted support and improvement 
schools; and, describe how they will ensure that their districts take 
action in targeted support and improvement schools within a reasonable 
timeframe. The law is not clear on what constitutes ``unsuccessful 
implementation''--a term that is important both for setting clear 
improvement expectations and for preventing students from languishing 
for an extended period of time in schools that are not serving them 
well. Also, States must intervene in schools receiving comprehensive 
support and improvement that do not meet exit criteria within a State-
determined number of years (not to exceed 4 years per ESSA).
    <bullet> States describe how they will determine the appropriate 
supports and interventions for comprehensive support and improvement 
schools and additional targeted support and intervention schools that 
do not meet State-determined exit criteria. In addition, States should 
be required to describe how they will ensure that their districts will 
take similarly meaningful action in targeted support and improvement 
schools that do not make necessary improvements.
    In addition to the specific accountability provisions articulated 
above, COPAA has also advocated for title I regulations that, in 
summary, support a strong accountability system and provide:

    <bullet> clear requirements for identification, intervention and 
exit criteria for schools in each of the three categories identified in 
the law--the bottom 5 percent, schools with graduation rates below 67 
percent and schools with consistently low performing groups of 
students; and assure evidence-based intervention systems focused on 
raising achievement are initiated whenever any school is 
underperforming for all students or for any student group so that 
students don't languish year after year without help;
    <bullet> definitions and/or parameters set for new statutory 
terms--specifically for new terms: ``meaningful differentiation,'' 
``substantial weight'' and ``much greater weight'';
    <bullet> specifications that the 95 percent participation 
requirement is included in the accountability system so the performance 
of students matters, provide Federal guidance on options for doing so 
and define consequences for failure to meet the requirement;
    <bullet> assurances for support to districts to reduce bullying, 
harassment, use of disciplinary practices (e.g. suspension and 
expulsion) and use of aversives (e.g. seclusion and restraint), all of 
which disproportionately impact students with disabilities and students 
of color;
    <bullet> universal access in all data reporting; cross-tabulated 
data and expansion on the availability of data disaggregated by Asian 
American and Pacific Islander categories;
    <bullet> clarity that supplement, not supplant provisions presume 
and ensure an equal base of actual per-pupil funding before any Federal 
funds are considered supplemental.
               accountability: calculation and reporting
    The basis of a good accountability system is a reliable cell size, 
or N size. The minimum subgroup size, or ``N'' size, established by 
many States under NCLB resulted in seriously limiting accountability 
for students with disabilities. A 2013 report of subgroup sizes used in 
States found that across 40 States with relevant data for the 2008-9 
school year, slightly more than a third (35 percent) of public schools 
were accountable for the performance of the students with disabilities 
subgroup, representing just over half (58) percent of tested students 
with disabilities in those States.\5\
---------------------------------------------------------------------------
    \5\ 2013 The Inclusion of Students with Disabilities in School 
Accountability Systems, Institute for Education Sciences, U.S. 
Department of Education at: http://ies.ed.gov/ncee/pubs/20134017/.
---------------------------------------------------------------------------
    States must assure the subgroup data used as the basis of their 
accountability determinations and reporting truly reflect the students 
attending school while still protecting privacy. COPAA has also 
advocated that in addition to ED providing regulations that provide a 
range for statistically reliable and acceptable N sizes to States so 
that as many students are included in school, district and State 
accountability metrics as possible and that ED must also clarify that 
while subgroup size must be the same for all subgroups, subgroup size 
may vary depending on the metric, i.e., proficiency, participation and 
graduation rate.) While subgroup size for proficiency involves 
statistical reliability (the degree of confidence associated with the 
decision of whether or not enough students in a subgroup performed 
above the cut point for proficiency to meet the annual objective), test 
participation and graduation rate calculations are only tempered by the 
requirement to not reveal personally identifiable information (the 
inability to determine from the subgroup values reported how an 
individual student performed on an indicator).
    Accountability for the outcome of each child's journey remains 
critically important and matters more than ever. We must not give into 
the belief and argument by some that all our struggling schools need is 
just more resources and more time. COPAA insists that accountability at 
the school and district level is often the only tool to assure action 
occurs when low income, minority, English learners and students with 
disabilities are in miserable need for more.
              rulemaking and moving toward implementation
    As we anticipate new regulations to be promulgated on ESSA's 
accountability provisions, COPAA supports ED's goal to assure such 
regulation provides clarity to States and districts as they strive to 
implement the new law. In previous testimony, COPAA said:

          COPAA and its civil rights and business coalition partners 
        are confident that the provisions [in ESSA] are specific and 
        limited enough as to not erode the regulatory authority of ED. 
        The statutory language acknowledges that regulations will be 
        promulgated. In so doing, the Secretary of Education will issue 
        regulations that clarify and interpret statutory provisions to 
        help schools and districts in implementing the law and to 
        protect the rights of all children--without exceeding the scope 
        of the statute and without being inconsistent with the statute. 
        This regulatory action is necessary and appropriate to fulfill 
        the requirements of the law. It is clear that ED has the 
        correct regulatory authority to develop regulations for 
        implementation, as noted in the beginning of section 
        1111(e)(1)(A). Prior to enactment of the ESSA, at no time has 
        the Secretary of Education had the authority to promulgate 
        regulations that are inconsistent with or outside the scope of 
        Federal law.
          We know from past history regarding civil rights laws that we 
        need regulations in order to ensure the law is implemented. The 
        effect of no regulations means that courts must adjudicate the 
        intent of the statute. An example is the turmoil that happened 
        when the section 504 statute of the Rehabilitation Act was 
        passed in 1973 and there were no regulations issued. In order 
        for this law to become effective, regulations had to be issued 
        defining who was a ``person with a disability'' what did 
        ``otherwise qualified'' mean, what constituted 
        ``discrimination'' and ``nondiscrimination'' in the context of 
        disability etc. Enforcement timelines had to be developed as 
        well as an administrative enforcement mechanism. The 
        regulations would provide a consistent, coherent interpretation 
        of 504s legal intent rather than leaving it up to any judge who 
        heard a 504 case to interpret what the law meant. There was 
        much delay; the disability community filed a lawsuit in Federal 
        court; the judge ruled that regulations must be issued but not 
        when. After much back and forth with the Carter administration, 
        regulations were finally issued in 1977. History has taught us 
        that the courts are not set up to be experts.
          We also know that States' provisions that restrict 
        entitlements established by Federal statutes are void under the 
        Supremacy Clause of the Constitution. The Supreme Court has 
        applied this principle in cases regarding benefit programs in 
        which the Federal Government provides funding to States on the 
        condition that they comply with the terms of the Federal 
        program, the same arrangement that exists for special education 
        under IDEA. The Court held that the State was not free to adopt 
        a definition that restricted benefits in a way the Federal 
        statute did not specifically authorize.
          In its simplest form, regulation allocates responsibility to 
        implement statutory law. Our Founding Fathers were insightful 
        in their separation of powers. The members of the Judicial 
        Branch are experts in judging the law, Congress maintains the 
        knowledge in making laws and the executive branch holds the 
        expertise in implementing the laws. Where we get in trouble is 
        where one branch tries to do the job of another.

    The test of regulations, guidance, technical assistance and other 
implementation activities for ESSA must be whether or not they advance 
educational equity and serve the interests of all students. Low-income 
students, students of color, students with disabilities, English 
learners, and Native students deserve no less than robust and thorough 
regulation to close opportunity and achievement gaps.
    COPAA is satisfied with the recent outcome of negotiated rulemaking 
on draft regulations focused on ESSA's assessment provisions. In our 
view, a delicate balance was struck to ensure that all students are 
fully included in State assessment systems and that students with 
disabilities in particular will have access to testing accommodations 
and assistive technology and be properly included in State guidelines 
as required when States develop alternate assessments on alternate 
academic achievement standards. We were also content with provisions 
included to guide ED in determining whether States can access annual 
waivers to exceed the cap on student participation at the State level 
on alternate assessments. Good statutory language helped support this 
thoughtful negotiation and we thank this committee for your leadership 
and support in protecting students with the most significant cognitive 
disabilities whose disabilities are often used as the sole reason to 
lower expectations and relegate such students to segregated settings 
thus limiting access to the regular classroom, to a regular diploma and 
to competitive employment.
    We were disappointed however, that agreement was not reached to 
ensure funding equity in the ``supplement, not supplant'' provisions 
because title I funding is critical to improving our most impoverished 
schools. Although students with disabilities are found in every school, 
the disability community is particularly concerned about the needs of 
students with disabilities in high-poverty schools and are likely to 
bear the brunt of weak instruction, insufficient supports and 
inadequate services which further stresses teaching staff who already 
have to do too much with too little and it perpetuates and widens the 
achievement gap for these students. Students of color who have 
disabilities are some of the most marginalized students in our schools 
today, they are more likely to be found in high-poverty schools than 
their White, nondisabled peers and are disproportionately impacted by 
harsh and exclusionary disciplinary practices. We cannot continue to 
deny these schools their fair share. Students with disabilities in 
high-poverty schools are the short-changed of the short-changed. These 
dollars mean more to them than just about anyone.
                               conclusion
    It is COPAA's hope that in State and district efforts to redesign 
and implement ESSA locally, that they will work with our families and 
others to use this as an opportunity to focus and target new policies 
and valuable resources on the serious and urgent needs of students. By 
doing so, COPAA believes ESSA implementation can support students in 
what is arguably the most important journey of their formative lives--
their K-12 education. This new responsibility taken on by States can 
assure that the success of more students like Bruce Blair and Mariano 
are the reality for all of America's children. Thank you for this 
opportunity and I look forward to your questions.

    The Chairman. Thank you, Ms. Marshall.
    Ms. Murguia.

 STATEMENT OF JANET MURGUIA, J.D., PRESIDENT AND CEO, NATIONAL 
               COUNCIL OF LA RAZA, WASHINGTON, DC

    Ms. Murguia. Thank you, Mr. Chairman. Chairman Alexander 
and Ranking Member Murray, I really want to thank you all and 
all members of the committee for the opportunity to appear 
before you here today and to discuss a subject that is so 
critically important to the civil rights community, this 
implementation of ESSA.
    For over a decade, I've served as President and CEO of the 
National Council of La Raza, NCLR. We're the largest civil 
rights and advocacy organization in the United States 
representing Hispanics, and we represent over 250 affiliates 
which are community, local-based organizations serving Latino 
and immigrant populations nationwide.
    I was very proud to stand with many of you behind the 
President when this important legislation was signed into law. 
Thank you for your leadership. We know it has the potential to 
benefit 13 million Latino students and 5 million English 
learners across the country. For the first time, English 
learner students will be included in States' accountability 
systems, and States must standardize entrance and exit criteria 
for these students. That is a big step.
    My remarks focus on Latino educational attainment. I will 
share ways that appropriate implementation of ESSA can improve 
outcomes for communities of color. Last year, American schools 
reached a significant demographic milestone. A majority of 
students in our classrooms were students of color. As schools 
across the country have become increasingly diverse, Latino 
students make up 25 percent of our K through 12 enrollments, 
the second largest group of students in schools after white 
students.
    In part as a result of comparable standardized assessments 
and college and career oriented curricula, Latino students are 
now graduating at higher rates than ever, and they are 
enrolling in postsecondary institutions in record numbers. 
However, despite improvements in key areas, inequalities in 
access and achievement among Latino and other students of color 
remain persistent, and still too many Latino students are not 
college ready.
    According to the 2015 National Assessment of Educational 
Progress, regrettably, nearly half of Latino fourth graders 
were reading at below basic levels compared to 21 percent of 
whites, a startling statistic given our changing workforce. As 
the Department of Education moves forward implementing ESSA, it 
is important to recognize the legacy of the original Elementary 
and Secondary Education Act in promoting equity for our 
Nation's most vulnerable children.
    It is imperative that Federal funds are used to supplement 
State and local resources for those most in need. Students in 
high poverty districts receive nearly 10 percent less in State 
and local funds per student than those in the lowest poverty 
districts, meaning students in districts most in need of extra 
services staff or educational supports, including English 
language instruction, are being shortchanged. The future 
success of students of color and English learner students in 
large part depends on addressing this resource gap.
    In addition to furthering equity, ESSA mandates that the 
Department of Education issue regulations to hold schools 
accountable if groups of students are not meeting challenging 
academic standards. While States and districts have flexibility 
in designing their accountability plans, the Federal Government 
must play a role to ensure progress for these students does not 
erode. To this end, the Department of Education should set 
clear parameters for State accountability systems and timely 
interventions for students falling behind.
    Finally, we know the Department of Education cannot fulfill 
its mandate alone. Stakeholders from the business and civil 
rights communities have a role to play to ensure States and 
districts faithfully implement the law's requirements. Already, 
Conexion Americas, a Nashville-based affiliate, has organized 
partner organizations to jointly engage the Tennessee 
Department of Education on the State's accountability and 
equity plans, making the case for needs of Latino and immigrant 
students.
    In the months ahead, these stakeholders will be closely 
monitoring the regulatory process to emphasize ESSA's potential 
to promote an educational system that is transparent, 
accountable, and equitable to further the achievement of all 
students.
    Thank you, and I look forward to working with all of you as 
we implement this important law.
    [The prepared statement of Ms. Murguia follows:]

               Prepared Statement of Janet Murguia, J.D.

                              introduction
    Chairman Alexander, Ranking Member Murray, and distinguished 
members of the committee, thank you for inviting me to appear this 
morning on behalf of the National Council of La Raza (NCLR), where for 
more than a decade I have served as the president and CEO. I thank you 
for your leadership to enact bipartisan, comprehensive education 
reforms and I appreciate the opportunity to provide expert testimony 
today on the implementation of landmark civil rights legislation, the 
newly reauthorized Elementary and Secondary Education Act. This law is 
a top priority for the Nation's 55 million Latinos and its successful 
implementation is vital to the Nation's future.
    NCLR is the largest national Hispanic civil rights and advocacy 
organization in the United States, an American institution recognized 
in the book Forces for Good as one of the leading nonprofits in the 
Nation. We have a network of more than 250 Affiliates--local, 
community-based organizations in 41 States and the District of Columbia 
that provide education, health, housing, workforce development, and 
other services to millions of Americans and immigrants annually.
    Many of these Affiliates operate as charter schools, provide early 
education, or offer after-school programming or family literacy 
services. The programmatic efforts of our Affiliates helps to inform 
NCLR's national policy agenda.
    NCLR was on the forefront of embracing standards-based education 
reforms and has a record of supporting policy grounded in student-based 
outcomes that will result in equality of opportunity for all children, 
regardless of circumstance. We applauded the passage of the Every 
Student Succeeds Act as a much-needed update to our Federal education 
law, but recognize that passage was just the first step. It is critical 
that ESSA be implemented in a manner consistent with the original 
Elementary and Secondary Education Act to ensure its promise for all 
students.
    My testimony today will focus on the importance of ESSA in closing 
the achievement gap for students of color, and the ways in which 
implementation can further this goal. I strongly believe that if 
implemented appropriately, ESSA has the opportunity to prepare a new 
generation of students, including English learners, for a changing and 
competitive U.S. workforce.
                      closing the achievement gap
    Last year, American schools reached a significant demographic 
milestone: a majority of students in our classrooms were students of 
color. As schools across the country have become increasingly diverse, 
much of the shift can be attributed to the Latino students who account 
for 25 percent of our K-12 enrollments and represent the second-largest 
group of students in schools after White students. In 2013, Hispanic 3- 
and 4-year-olds alone made up nearly 40 percent of our current pre-K 
enrollment.\1\ This fact has prompted the U.S. Department of Education 
to project that by 2024, Hispanic students will account for nearly one-
third of total enrollments, from early childhood through grade 12.\2\
---------------------------------------------------------------------------
    \1\ U.S. Department of Education, ``Digest of Education Statistics 
2014,'' Table 202.25, http://nces.ed.gov/programs/digest/d14/tables/
dt14_202.25.asp?current=yes (accessed May 15, 2016).
    \2\ U.S. Department of Education, ``Digest of Education Statistics 
2013,'' Table 203.60, http://nces.ed.gov/programs/digest/d13/tables/
dt13_203.60.asp (accessed May 15, 2016).
---------------------------------------------------------------------------
    In addition to overall population growth, the Latino population is 
no longer concentrated in a few States. In 2012, every region in the 
United States experienced growth in the share of Latino students in 
schools.\3\ In fact, according to a report from Pew Hispanic Center, in 
2012, Hispanics made up more than 20 percent of kindergarten classes in 
17 States. As a result, policymakers and other leaders in education 
must work to ensure that our educational system prepares all children, 
including the growing Latino population, for academic success.
---------------------------------------------------------------------------
    \3\ U.S. Department of Education, ``Digest of Education Statistics 
2014,'' Table 203.50, http://nces.ed.gov/programs/digest/d14/tables/
dt14_203.50.asp (accessed May 15, 2016).
---------------------------------------------------------------------------
    As the number of Latino students has increased in recent years, the 
number of English learner (EL) students has also grown. Currently, 
there are nearly 5 million ELs enrolled in schools across the 
country.\4\ Nearly 80 percent of EL students are from a Spanish-
speaking background.\5\ In the last decade, the EL population has 
increased by 7.1 percent,\6\ predominately in States in the Midwest and 
Southeast that traditionally have not had significant EL 
populations.\7\
---------------------------------------------------------------------------
    \4\ U.S. Department of Education, The Biennial Report to Congress 
On the Implementation of the Title III State Formula Grant Program. 
Washington, DC, 2012, http://www.ncela.us/files/uploads/3/
Biennial_Report_0810.pdf (accessed May 15, 2016).
    \5\ Ibid.
    \6\ Ibid.
    \7\ NCLR calculation using U.S. Department of Education, ``Digest 
of Education Statistics 2013,'' Table 203.50, http://nces.ed.gov/
programs/digest/d13/tables/dt13_203.50.asp (accessed May 15, 2016).
---------------------------------------------------------------------------
    In part as a result of comparable standardized assessments and 
college- and career-oriented curricula, Latino students are now 
graduating from high school at higher rates than ever,\8\ their high 
school dropout rate is the lowest it has ever been, and they are 
enrolling in postsecondary institutions in record numbers.\9\ However, 
despite improvements in key areas, inequities in access and achievement 
between Latinos and their peers remain.
---------------------------------------------------------------------------
    \8\ U.S. Department of Education, ``Digest of Education Statistics 
2013,'' Table 219.70, http://nces.ed.gov/programs/digest/d13/tables/
dt13_219.70.asp (accessed May 15, 2016).
    \9\ U.S. Department of Education, ``Digest of Education Statistics 
2013,'' Table 302.60, http://nces.ed.gov/programs/digest/d13/tables/
dt13_302.60.asp (accessed May 15, 2016).
---------------------------------------------------------------------------
    According to the 2015 National Assessment of Educational Progress 
(NAEP), nearly half of Latino fourth graders were reading at below 
basic levels compared to only 21 percent of Whites (Chart 1).\10\ These 
disparities are even starker for Black students: only 18 percent of 
students scored proficient in fourth-grade reading compared to 46 
percent of Whites in the same year.\11\ Scores for math show similar 
data in disparities among students of color and their White 
counterparts. Fewer than one-third of Black, Latino, and Native 
American students scored proficient in eighth-grade math,\12\ a 
startling statistic given the increased demand for high-skilled jobs in 
our Nation's workforce.
---------------------------------------------------------------------------
    \10\ Daria Hall, ``The Every Student Succeeds Act: Implications for 
State and Local Policymakers'' (presentation, The Education Trust, 
Washington, DC, March 2016).
    \11\ Ibid.
    \12\ Ibid.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Source: National Center for Education Statistics, NAEP Data 
---------------------------------------------------------------------------
Explorer, http://nces.ed.gov/nationsreportcard/nde/.

    As diversity increasingly becomes a fact of our Nation's education 
system, it is important that policymakers at all levels of government 
assess current supports and services to ensure that the instructional 
needs of Latino students and their families are met. Schools must be 
prepared to teach a changing population of students, including more 
ELs. To address this reality, schools need financial resources to 
provide essential professional development for personnel and 
educational supports to create an inclusive environment that attends to 
the cultural and linguistic needs of Latino and EL students. Teachers, 
administrators, and others must have the tools necessary to help these 
students achieve college- or career-readiness.
                     addressing resource inequities
    The Elementary and Secondary Education Act was enacted in 1965 to 
provide resources for our Nation's must vulnerable children--children 
living in poverty with few opportunities available. Consistent with 
this goal, it is imperative that Federal funds are used to supplement 
State and local resources for those most in need. Yet, a recent 
analysis from the Education Trust found that students in high-poverty 
districts receive nearly 10 percent less in State and local funds per 
student than those in the lowest-poverty districts (Chart 2).\13\ 
Students in districts most in need of supplemental funds are literally 
being short-changed.
---------------------------------------------------------------------------
    \13\ Natasha Ushomirsky and David Williams, ``Funding Gaps 2015: 
Too Many States Still Spend Less on Educating Students Who Need the 
Most,'' (Washington, DC, The Education Trust, 2015), http://
edtrust.org/wp-content/uploads/2014/09/FundingGaps2015_TheEduca- 
tionTrust1.pdf.

    Chart 2: Average State and Local Revenues Per Student, by Poverty 
Quartile

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: Education Trust. 2015, Funding Gaps 2015, http://
edtrust.org/wpcontent/uploads/2014/09/
FundingGaps2015_TheEducationTrust1.pdf.

    When the data is disaggregated by race, patterns emerge wherein 
school districts with high numbers of students of color receive less in 
local funding than districts serving few students of color. Nationally, 
districts serving the most students of color receive roughly $2,000 or 
15 percent less in State and local funding per student than districts 
serving the fewest.\14\
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
    As enacted, ESSA requires that Federal funds, including funds for 
titles I and III, supplement rather than supplant dedicated State and 
local funding. At its core, this provision is designed to provide 
eligible students in high-poverty districts with extra services, staff, 
or educational supports, including English language instruction, that 
would not otherwise be available to them.
    However, there is a pattern of unequal access to educational 
resources for students of color and ELs:

    <bullet> English learners represent 5 percent of high school 
students, but only 2 percent of Advanced Placement course 
enrollment.\15\
---------------------------------------------------------------------------
    \15\ Letter from Catherine E. Lhamon, Assistant Secretary for Civil 
Rights, U.S. Department of Education, Office for Civil Rights, ``Dear 
Colleague Letter: Resource Comparability,'' http://www2.ed.gov/about/
offices/list/ocr/letters/colleague-resourcecomp-201410.pdf.
---------------------------------------------------------------------------
    <bullet> Latino students represent 21 percent of high school 
enrollments, but only 12 percent of students enrolled in calculus.\16\
---------------------------------------------------------------------------
    \16\ Ibid.
---------------------------------------------------------------------------
    <bullet> Black and Latino students are 1.5 times more likely to be 
taught by novice teachers compared to schools with lower Black and 
Latino enrollments.\17\
---------------------------------------------------------------------------
    \17\ Ibid.

    Lack of access to rigorous coursework and effective teacher 
supports inhibit students from reaching their full potential. Unequal 
educational resources for students of color undermine the goals of our 
civil rights and K-12 law--to provide each student with a high-quality 
education regardless of race, ZIP code, or national origin.\18\ \19\
---------------------------------------------------------------------------
    \18\ Every Student Succeeds Act, Public Law 114-95, 114th Cong., 2d 
sess. (December 10, 2015).
    \19\ Civil Rights Act of 1964, Public Law 88-352, 78 Stat. 241 
(July 7, 1964), Title VI.
---------------------------------------------------------------------------
                       fulfilling essa's promise
    As a result of the leadership on this committee, Congress, and 
stakeholders in the civil rights community, ESSA includes landmark 
provisions for EL students. For the first time, States must include EL 
students in their accountability systems. Moving forward, advocates 
must solidify these hard-fought policy victories through extensive 
State-level engagement. State plans must include challenging goals for 
English language proficiency and find appropriate ways to include 
English language proficiency in school ratings systems. States must 
also report on ELs with disabilities and long-term ELs so parents and 
stakeholders can ensure these students receive needed supports. 
Additional resources authorized under the law should be appropriated to 
help improve outcomes for EL students. For too long, programs for EL 
students, especially in high-poverty districts, have not been 
adequately supported.
    ESSA provides the Federal Government with appropriate authority to 
pursue an education agenda strongly rooted in distributional equity to 
improve the educational outcomes for children. For example:

    <bullet> The law requires States to adopt high standards aligned 
with credit-bearing coursework at State systems of public higher 
education to ensure students are receiving a 21st century education.
    <bullet> States must annually assess students in reading and math 
in grades three through eight and once in high school and issue a 
science test at each grade span to ensure students are meeting 
challenging academic standards.
    <bullet> Critically, the law requires targeted supports and 
interventions, including additional resources, for schools if a 
subgroup of students is consistently underperforming. This hard-fought 
victory for the civil rights and business communities ensures that all 
students, regardless of income-level or race or ethnicity, will have 
the opportunity for success.

    The U.S. Department of Education has an obligation grounded in 
ESSA's legislative intent to promulgate robust regulations related to 
accountability. Likely, without strong Federal oversight, progress for 
students of color seen over the last decade will erode. While the law 
cedes significant discretion to States and districts in the design of 
their accountability plans, as a counter-measure it also mandates 
consultation with key stakeholders including the civil rights 
community, the business community, and community-based organizations, 
like NCLR Affiliates. For example, Conexion Americas, a Nashville-based 
Affiliate, has proactively engaged the Tennessee Department of 
Education on the State's accountability and equity plans, making the 
case for needs of Latino and immigrant students. Other States and 
districts may benefit from this type of stakeholder input.
    In addition, the U.S. Department of Education has ample authority 
to regulate elements of ESSA to promote the educational advancement of 
low-income students. Beyond resource-based rulemaking, the Department 
of Education should examine the following:

    <bullet> Making systems work for low-income kids through strong 
accountability guidance.
    <bullet> Providing timely interventions for students who are 
falling behind academically.
    <bullet> Addressing resource inequities for students in high-
poverty schools and ensuring that students who need additional 
supports, like English learners and students with disabilities, can 
reach their full potential.

    As the Department begins its regulatory process, the goal is always 
to ensure a thoughtful focus on educational equity and advancing the 
educational achievement for all kids, especially those in vulnerable 
situations.
                               conclusion
    Despite clear gains, barriers remain for students of color in 
achieving academic success. NCLR believes that poverty and other 
barriers to economic mobility will never be eradicated unless children 
from communities of color are thriving in our classrooms. Composing 
more than 50 percent of today's public school students,\20\ students of 
color are a significant presence in the K-12 system. The success of our 
Nation's workforce is intrinsically tied to the academic success of 
these students. As a result, it is in our Nation's interest to ensure 
that all children have the opportunity to obtain an excellent 
education, irrespective of the neighborhoods in which they live, their 
parents' education level, and their family's income. Targeted Federal 
intervention is necessary to set guardrails on State and district 
actions to achieve this. Our Nation's students deserve nothing less.
---------------------------------------------------------------------------
    \20\ Jens Manuel Krogstad and Richard Fry, ``Dept. of Ed. projects 
public schools will be `majority-minority' this fall,'' Pew Research 
Center, August 18, 2014, http://www.pewresearch.org/fact-tank/2014/08/
18/u-s-public-schools-expected-to-be-majority-minority-starting-this-
fall/ (accessed May 15, 2016).

    The Chairman. Thank you very much. We'll now move to a 
round of 5-minute questions by the Senators, and I'll begin.
    Dr. Gordon, you're a scholar of education, finance, and 
legislation. Let me ask you this. The language in the law on 
supplement and supplant has as its goal to say that a school 
district can't use title I money to replace State and local 
money, a fairly straightforward proposal. The language, we 
thought, was pretty plain and clear.
    Why is there a need for regulation of that law? Isn't it 
possible just to read the law and know what to do without the 
Department elaborating on it through regulation?
    Mr. Gordon. Thank you for your question, Senator. I'll read 
the law, because there's a lot of questions about the law, and 
it's actually----
    The Chairman. I only have 5 minutes here.
    Mr. Gordon. One sentence. ``The methodology used to 
allocate State and local funds to each school receiving 
assistance under this part ensures that such school receives 
all of the State and local funds it would otherwise receive 
were it not receiving assistance under this part,'' and this 
part is title I.
    To me, that sentence is clear. I have read that sentence 
more times than most people. I understand how clarification 
could be useful to some people. But, interestingly, this part 
of the law already applied to school-wide programs under No 
Child Left Behind, and the Department of Education issued 
extensive guidance in July 2015 clarifying how to interpret 
this with examples----
    The Chairman. Let me interrupt just because I have only 5 
minutes for questions. If the effect of the proposed 
regulation, because it would require title I schools to spend, 
on average, an amount that's at least as much or greater than 
non-title I schools, would you say that would be an attempt to 
equalize spending among schools in a school district? Wouldn't 
the effect of doing that attempt to equalize spending?
    Mr. Gordon. I'm not an attorney. I'm an economist. To me, 
yes.
    The Chairman. There's a provision in the law, 1605, that 
says, ``Nothing in this title shall be construed to mandate 
equalized spending per pupil for a State and local education 
agency or school.'' I agree that the proposed regulation 
specifically attempts to equalize spending, which could be a 
laudable goal. I think Wyoming may do that. It may be the only 
State that does that. But the Federal law says you may not do 
that.
    Let me move to Ms. Weingarten for a moment. You mentioned 
in your testimony that you are not only concerned about this 
regulation either contradicting or not following specific 
provisions of the law, but what that might mean for future 
regulations.
    My understanding was that the whole discussion, or most of 
the discussion, about fixing No Child Left Behind was--the 
consensus that we had was we'd keep the federally required 
tests, and we'd even expand the amount of data that was used to 
let people know what the results of the tests were, but then 
what to do about the results of the tests became the 
responsibility of those closest to the children, the classroom 
teachers, the school boards, the Governors, the legislatures, 
and the parents. That's called the accountability system.
    What about what the Department is doing with this proposed 
regulation worries you about what might happen with future 
regulations involving the so-called accountability system?
    Ms. Weingarten. Thank you for the question. I share Janet 
Murguia's concerns in terms of the accountability system. That 
is where most of the real thought needs to go into. What are 
the guardrails and what is the flexibility that States should 
have to actually think about what constitutes real student 
learning these days, and how do we actually help kids get 
there, particularly our most vulnerable kids?
    The fact that the Department seems to be doing same old, 
same old, in terms of trying to rewrite history regarding 
supplement, not supplant as opposed to really thinking about 
how do we ensure that there's flexibility that really looks at 
what kids need through the lens of the practitioners, is what 
is concerning all of us--issues like the weights, the 
definition of significant, the definition of evidence, what's 
going to happen in terms of the 95 percent participation rate. 
So it is whittling away the good will that all of us have to 
actually helping all kids succeed, particularly our most 
vulnerable kids.
    The Chairman. Thank you very much.
    Senator Murray.
    Senator Murray. As I said at the beginning of this hearing, 
ESEA is fundamentally a civil rights law to provide all 
children access to a fair and equitable high quality education. 
ESSA maintains that commitment by requiring States to annually 
classify each school where any subgroup of students is 
consistently underperforming and districts to take meaningful 
action in these schools to improve student achievement. I agree 
with the civil rights community, including those who advocate 
for the rights of students with disabilities, that without 
strong regulations, our Nation's most vulnerable students could 
be ignored or left behind.
    Ms. Marshall, I wanted to ask you if you can speak to why a 
regulation should focus on performance of individual groups of 
students rather than on comparing students to each other within 
the same school. And can you explain why that's particularly 
important for students with disabilities?
    Ms. Marshall. Thank you, Senator Murray, for your 
commitment to equality and protection of the civil rights of 
students with disabilities. Students with disabilities are 
general education students first. It's imperative that they be 
compared against the same State standards that every other 
student is compared against.
    We want to make sure that they have a fair and equitable 
opportunity to both access and to benefit from their education. 
In order to find out how they're doing in that regard as 
compared to peers at their grade level, we have to look at the 
subgroup or individual scores against the State standard.
    We want to make sure that we know how they're doing in 
regards to the possibility of getting a diploma. Research is 
very clear. High expectations equal being further in life. 
Having no diploma basically equals lack of outcomes, no jobs, 
sitting at home. So the stakes could not be higher for our 
students.
    Senator Murray. For Ms. Garcia and Ms. Weingarten, just 
yesterday was the 62d anniversary of the landmark Brown v. 
Board decision. GAO released a report detailing the 
relationship between resegregation and resource equity in our 
Nation's schools. In particular, GAO found that schools with 
high percentages of low-income and minority students are less 
likely to have access to advanced course work and more likely 
to experience high rates of exclusionary discipline.
    ESSA requires any school in which one or more subgroups is 
performing at the level of the bottom 5 percent to address 
resource inequities and includes significant new reporting 
requirements related to resource equity. I want to ask both of 
you: How critical is the issue of resource equity, particularly 
in light of how far we still have to go in terms of the promise 
of Brown v. Board?
    Ms. Eskelsen Garcia. For all educators, resource equity is 
the game changer here. It's what we haven't been measuring. 
It's why so many of the comments today were about let's not go 
back to a numbers game where we pretend that if we hit this 
number, it must mean that we have equitable opportunity to 
learn.
    You can be measuring things on that dashboard. The 
dashboard is absolutely crucial for us, because when you have 
that collaboration between the professional educator that knows 
the kids, the parents, the administrators, the elected school 
board members, saying, ``Here's what we believe will be the 
game changer''--how many of our students are graduating from 
high school having already earned college credit? You can 
measure that.
    That's an opportunity to learn. That's a program that could 
look very different if you're in a rural community or an urban 
community, if you have a community college, if you have AP 
classes, international baccalaureate programs. We want to 
actually have that dashboard measure the real services and 
supports that those kids have. We believe that that is how 
you're going to move the needle.
    Senator Murray. Ms. Weingarten, on the issue of resource 
equity?
    Ms. Weingarten. Resource equity is absolutely essential. I 
would actually go a step further, which is not covered by this 
law, which is resource adequacy. We need to actually level the 
playing field for kids, and there are many, many times that 
vulnerable kids actually need a lot more, and that is baked 
into some of the title I formulas. What happens is we have to 
make sure that there's not counterproductive efforts here.
    Adequacy and equity are essential to leveling the playing 
field. That includes a much broader view than just actual 
dollars. It includes--what are the programs? What do we need to 
do in terms of dual-immersion? What do we need to do in terms 
of AP? What do we need to do to ensure that kids that I taught 
at Clara Barton High School, which was a title I school, could 
actually compete in debates against kids in Scarsdale High 
School, which was a very well-funded school? That requires a 
lot of thinking about how do you actually contour schools to 
the needs of your students.
    Senator Murray. I'm out of time. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and I'd like to 
start by stating that the actions of the U.S. Department of 
Education that they've taken over the last few months on a 
number of issues is of grave concern to me and the people that 
I represent.
    I want to thank all of you that have testified. You have 
provided some great information both in the printed testimony 
and what you've said.
    I want to thank the Chairman and Ranking Member for the 
tremendous leadership that they've provided so that this 
committee could have an influence on changing the law in a way 
that the President signed and that we're now trying to get 
done. Now is not the time to implement the law differently. 
It's important that we implement it as it was written, and 
we're in charge of presiding over that, and this is a good 
start. It's not the time to bring up things that were not 
agreed to and change the outcome through executive action.
    When I first got here, I had a principal who wanted to see 
where all the reports went that he had to do. He got leave from 
his school district to come back and spend a semester here, and 
he spent his time over at the Department of Education. When he 
reported back to me, he said, ``You know, they take a look at 
every one of those forms. They make sure that every single 
blank has a logical answer. If it doesn't, they send it back. 
And then when it's completed, they file it and nobody looks at 
it.'' We've been in the process of eliminating some of those in 
the meantime.
    This particular supplement, not supplant sounds like a new 
opportunity to get new reports that will contain a lot of 
information that may not be used or could be used 
detrimentally. I do know that the devastating effects that 
could be in the proposed changes--that it could have on States 
such as Wyoming. Wyoming's Constitution, as the chairman 
mentioned, calls for a complete and uniform system of public 
instruction, one that mandates the equitable allocation of 
resources among all school districts in the State.
    Wyoming doesn't need the Federal Government telling it how 
to provide equalized education for all students. We've been 
doing it since 1889 and taking it to court regularly to make 
sure that that would happen. It's not just the dollars. It's 
the supplies, and it's even the school buildings that have to 
be equal.
    I'm hearing from my State that the proposed action by the 
Department of Education would cause the forced transfer of 
public school teachers across our county and maybe even the 
State. I'm the father of a public school teacher and the 
grandfather of public school students, and there's no reason 
that the Federal Government should be interfering with where my 
daughter chooses to teach or where my grandchildren get their 
instruction.
    Dr. Evers, can you tell me how this will impact frontier 
areas such as Wyoming? We're the least populated State in the 
Nation. I understand the forced transfer of teachers sounds OK 
to individuals in this administration that don't understand 
States like Wyoming or Wisconsin. It seems to me that rural and 
frontier States will be hit the hardest with such an outcome. 
As the superintendent of a rural State, can you tell me what 
kind of an impact this will have?
    Mr. Evers. Absolutely. As an aside, one of the major issues 
in rural Wisconsin--and I'm sure in rural Wyoming--is who's 
going to teach in those schools. We're having an 
extraordinarily severe teacher shortage, and it can be blamed 
on a whole number of issues. I have my own opinions on that.
    But when we take the ability for local school districts, 
rural or local, and confine the way they hire people in a way 
that isn't going to help kids necessarily, and we try to--and I 
get the idea that it's important to have some transparency 
around equitable distribution of money. This just doesn't get 
it. That's the main thing.
    Rural districts have a very difficult time to begin with in 
hiring staff members. It would amplify that concern, in that it 
would take away principals and superintendents and those that 
do the hiring to really conflate a number of different issues 
that really doesn't matter, and that's the equalness of the 
distribution.
    It's going to make their jobs more difficult to find high 
quality teachers. That's the bottom line. For rural Wisconsin 
and Wyoming, that's a huge issue. In rural areas, teachers are 
the main backbone of those communities, and we have to make 
sure that we get the best people in those positions.
    Senator Enzi. Thank you. I'll be providing you with some 
written questions regarding the negotiated rulemaking panel 
that you're on.
    I want to thank Dr. Gordon for the specificity of 
accounting consequences that you had in your testimony and in 
what you said, and I'll be providing some more questions 
regarding that. I know that those have a tendency to put the 
audience to sleep, but they're really important to what we're 
doing. Thank you.
    The Chairman. We have one accountant on the committee, 
which is Senator Enzi.
    Thank you, Senator Enzi.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman.
    Thank you to the panelists for being here today and for 
everything you do for our schools and for our kids. It's been 
said today that this Federal law is a civil rights law, and I 
believe that. What that means for me as we sit here is thinking 
about the millions of children that are marooned in public 
schools, rural and urban, in America today that are schools 
that nobody on this panel would ever send one of our own kids 
or grandkids to.
    It's the reason I worked so hard to try to close the 
comparability loophole. We didn't get there. We did get 
important reporting language on reporting actual salaries and 
other costs. I think that's important because it will equip 
teachers and parents with information they need to be able to 
make the case going forward about how to create a system of 
public education that actually will work in America for kids 
living in poverty. That won't be done by the people on this 
panel. It's going to be done by all of you and the people that 
you represent all across America.
    Let me start with one question. We are one of three 
countries in the OECD who spend more money on wealthy students 
than we do on poor students. Is there anybody on the panel who 
will defend that system in terms of closing the achievement gap 
in the United States? In other words, do you expect that if we 
continue to spend more money on wealthy kids than we do on poor 
kids that we will have any hope of closing America's 
achievement gap?
    [No verbal response.]
    Senator Bennet. It was said today--there was testimony 
today, Mr. Chairman--I think we spend $620 billion all in on 
education in America, and if you're running a decent school 
district, 80 percent of that ought to be spent on teachers, or 
more, in my view. Testimony from my fellow superintendent today 
was that, ``there is no relationship between salary level and 
teacher effectiveness.'' Does anybody want to defend that? 
There is no relationship between the expenditure of 80 percent 
of what we spend and effectiveness of teachers.
    Randi.
    Ms. Weingarten. Of course, there's a relationship. I won't 
speak for who is an amazing superintendent in Des Moines. But 
there is much evidence that there is a relationship between the 
experience of teachers and the stability of schools, and, 
frankly, part of what we're trying to do in schools that are 
struggling is how do we nurture and secure great teachers to 
stay at those schools. Both in a macro and a micro way, there 
are real correlations here.
    I think what my colleague was saying is that the dollar for 
dollar piece that the Department is proposing doesn't get you 
to the equity issues that you have spent your life, Senator----
    Senator Bennet. You as well. What I'm saying is whether the 
Department ends up with this rule or doesn't end up with this 
rule, the reality is the way we are spending resources in this 
country, I'm the first to say--maybe I'll be the second or 
third, because the two of you are here--the first to say we 
should pay teachers more in this country. It's a disgrace what 
we pay teachers in the United States.
    But how we pay them really is important. I don't think we 
should be having people come here 10 years from now and say, 
``There is no correlation between how we pay teachers and their 
effectiveness.'' I think we need to work together to make sure 
that's not the case, because then you can't make the case that 
we should have more resources.
    It worries me that we continue to come here and tinker 
around the edges, and the reality is that if we don't have a 
solution to the kids that are showing up to kindergarten having 
heard 30 million fewer words than their more affluent peers, if 
kids don't have a choice of a school that any of us would send 
our kid to, and if higher education continues to accelerate in 
its cost so that if you're in the bottom quartile of income 
earners, to go to college it costs you 85 percent of your net 
income, whereas if you're in the top income, it's 15 percent--
you add all that together, and our system of education is 
reinforcing the income inequality that we have and the 
opportunity gap that we have, rather than liberating people 
from it.
    That's an invitation from me to anybody on this panel to 
figure out how we go forward so that 10 years from now, we're 
not sitting here seeing these kinds of results. That's going to 
happen in America, not here.
    Ms. Murguia. Can I just comment on that, Senator?
    Senator Bennet. I have 7 seconds left, but please do.
    Ms. Murguia. It took an extraordinary amount of effort for 
us all to barely come together to get this law over the finish 
line. It required a lot of engagement of a lot of stakeholders. 
Honestly, as we look to implement this law, we're going to have 
to do the same thing, local district by local school district, 
State by State.
    For those of us who are very invested in seeing that equity 
outcome that we know is so important and consistent with our 
American values, we believe that that flexibility is there now 
that we've created this law. But it does not, in my view, 
undermine the importance of requiring appropriate rigorous 
Federal oversight. And striking that balance as we move forward 
is going to be the challenge and the charge for all of us.
    I feel in many ways our work has just begun as we look at 
how we're going to try to do this with that flexibility in 
mind. But I want a guarantee of strong, appropriate Federal 
oversight as we move forward.
    Senator Bennet. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bennet.
    Senator Isakson.
    Senator Murkowski, I made a mistake. Senator Murkowski is 
next. I've done that once before. I don't want to do it twice, 
Johnny. Excuse me.
    Senator Murkowski. Actually, Mr. Chairman, I will defer to 
Senator Isakson, as I just came back in and I'm just finding 
out what has already been discussed. I will defer to Senator 
Isakson.
    The Chairman. Thank you, Senator Murkowski.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    Thank you, Lisa. I appreciate that.
    Thank you to Ranking Member Murray.
    I want to commend the Chairman and the Ranking Member on 
their leadership on ESEA and the Every Student Succeeds and the 
point we're at today. I think it's going to be a great 
empowerment for local boards of education and for the State 
boards of education to carry out the educational mandate in 
their State.
    Throughout the debate--and I'm one of the last remaining 
people that wrote No Child Left Behind, so I will still readily 
admit that. It was a great act for 6 years, but it went through 
7 years where it wasn't reauthorized, and it became an 
impediment rather than an asset because it became harder and 
harder to make adequate yearly progress, and the ceiling got 
too low, and people ended up being put into non-performing 
schools that shouldn't have been put in that category.
    The thing I focused on the most were children with 
disabilities and the assessment of children with disabilities. 
I'm married to a special ed teacher. When I chaired the State 
Board of Education in Georgia, I worked hard on psycho-
education and our kids with disabilities, learning 
disabilities, to try and provide as much quality rules as we 
could and quality education.
    One of the things we had was a 1 percent exception, I guess 
you'd call it, for kids with that kind of disability to have an 
alternative assessment rather than the mandated test under No 
Child Left Behind. We rewrote in the Every Student Succeeds Act 
the 1 percent cap stayed for the State, but it was overruled by 
a regulation that said that the State board could not keep a 
local system from determining if a kid needed an alternative 
assessment based on the IEP or the Individuals with 
Disabilities in Education Act to ensure there was more 
flexibility.
    The 1 percent cap really doesn't apply because the State 
and the local education agencies--IDEA governs and the IEP is 
the governing document to determine whether the alternative 
assessment is necessary or not. As two superintendents, Mr. 
Ahart and Dr. Evers, would you tell me how that's working and 
how you intend to carry that out in your respective systems?
    Mr. Evers. That was an issue of lots of discussion, if the 
negotiated regulations work. And it is. ESSA has flipped the 
equation in that. Schools aren't held to the 1 percent. States 
are. I think it's an obligation as a State to make sure that we 
don't, as a State, exceed the 1 percent.
    Asking for a waiver for any particular district, we have to 
go through a relatively rigorous process to make sure it 
doesn't happen. It's going to be about providing technical 
assistance to those districts that exceed 1 percent, and we'll 
do that. It's our responsibility. In the past, it's been a 
local responsibility, but it's clear that this committee 
determined that the State needs to be accountable for that, 
which we will be. It's something that we take very seriously.
    Senator Isakson. Dr. Ahart.
    Mr. Ahart. Thank you, Senator. My district probably has a 
bigger challenge in meeting that 1 percent mark simply because 
of some of the specialized programming that we have for 
medically fragile and severely and profound disabled students. 
We always fall under that 1 percent mark.
    This is another example where it's very difficult at the 
Federal level to set benchmarks that translate into an 
equitable measure at the State and local level. One of the 
things that came up during regulations negotiations was just 
this issue, and there's certainly what seems to be a bit of a 
paradox there. The State can't go over 1 percent, but 
individual districts can.
    I would argue that a district could have a lower percentage 
of students with that alternative assessment than what I have 
in my district and be inappropriately testing more students 
than I am because of the nature of the programming that we 
offer. I think with good guidance from the State and the State 
offices working closely with the local education agencies, I 
don't see this as being particularly problematic.
    Senator Isakson. That's good to hear, because Chairman 
Alexander made a point of making sure that we got out of the 
national school board business and empowered the local and 
State school boards. And this is one of those areas where if 
the Federal agency decides to enforce its side of that 1 
percent, it would be negative for the local systems and the 
State. We want to empower you to be in control of education, 
and we appreciate what you do for our kids.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    We have spent a lot of time today talking about the 
financial accountability provisions in the new education law 
and about the Department of Education's plans for enforcing 
these provisions. Now, we've heard concerns from witnesses who 
represent the professionals on the front lines implementing 
ESSA, but I want to make sure we have an opportunity to clarify 
a few key points regarding these provisions and why they're in 
the law in the first place.
    Congress strengthened the financial accountability 
provisions in ESSA for a simple reason: to ensure that Federal 
money is used to meet the purpose of title I--and I don't have 
a poster, but I'll read it--to provide all children significant 
opportunity to receive a fair, equitable, and high quality 
education. And I underline all, not just children in wealthy 
districts.
    Ms. Weingarten, let me start there. Why do you believe that 
it is important for Federal law to require equity and adequacy 
in how education money is spent?
    Ms. Weingarten. ESSA is a civil rights law, and it is about 
trying to make sure that there's opportunity for all children. 
If that is the case, equity is absolutely essential in order to 
get to excellence.
    But as I was saying to Senator Murray earlier, what we're 
seeing locally is that we have to actually have a fight for 
adequacy, too, because it's not simply, what is equal. In order 
to level the playing field, we actually have to give our 
vulnerable kids more. As Senator Bennet said, we have to flip 
what's going on in this country. What the law does is it starts 
us on that path, but it's at the end of that path, and we need 
to be vigorous and rigorous in making sure that the kids who 
have had the least get the most.
    Senator Warren. All right. Thank you. I agree. And let me 
followup on that by asking do you believe that the Department 
has the authority to ensure that States and districts do not 
divert State and local funds away from public schools in low-
income neighborhoods?
    Ms. Weingarten. I am very glad, Senator Warren, you asked 
the question in that way, because the entire testimony, we've 
been talking about increasing as opposed to diverting. I 
believe that the Federal Government and the Department of 
Education has the authority to ensure that there is no 
diversion.
    They have that in three different ways. It's not just the 
title I funding formulas that focus on concentration of 
poverty--and I think Dr. Gordon is probably better at this than 
I would ever be--but it's the maintenance of effort issues and 
provisions, and it's the SNS provisions, as were clarified 
several months beforehand.
    They do have that authority. They need that authority. Part 
of what we're concerned about is making sure that it's not 
overreach so that they can actually do their job.
    Senator Warren. Good. Let me then turn to that part of it. 
They have the authority, but how can the Department enforce 
these provisions in a manner that doesn't result in the 
unintended consequences that you and others have discussed?
    Ms. Weingarten. That, frankly, should have been what 
consumed the time of the Neg Reg committee, with all due 
respect. As Janet said earlier, this is a very complicated law, 
and there is a lot of complicated factors, because it is very 
much a law that is about human behavior and about lots of 
different multiple parts, as many of the Senators and many of 
the witnesses have talked about.
    The law provides some very powerful new provisions, 
including transparency, and that transparency provision, as Dr. 
Gordon earlier said, can be over methodology, not just over 
resources. We need to actually see what the funding levels are. 
We need to see how those transparency provisions operate. That 
can be the first set of enforcement processes. Then, after 
that, one looks at what you do next.
    Right now, to move to some one-size-fits-all enforcement 
mechanism that's not even allowed by the law seems not right.
    Senator Warren. All right. Not in the right direction. 
Thank you. And I will ask more questions for the record.
    But financial accountability is about making sure that 
Federal dollars are used to make sure that the money goes to 
the children who need it most. There are legitimate 
disagreements over how the Department of Education can best 
enforce financial accountability provisions, but these are not 
disputes over whether those accountability provisions should be 
enforced or whether the Department of Education has the power 
to enforce those provisions.
    On that issue, I believe that the Democrats and the 
teachers are in very strong agreement. Republicans, on the 
other hand, seem to be arguing that financial accountability 
provisions of the law should simply be ignored. The Department 
needs to figure out how to enforce financial accountability in 
a way that doesn't have unintended consequences that disrupt 
schools. It is critical that the Department listen to our 
teachers and to our school leaders.
    But ignoring accountability provisions is not an option. 
Financial accountability is essential to ensure that States and 
districts actually give our teachers the resources they need to 
do their jobs and that the States and districts use Federal 
money to help our most vulnerable kids get a decent education. 
That is the law.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    I'd like to say to the witnesses that I have an unavoidable 
conflict at 11:40, and I will need to leave. But Senator 
Cassidy has agreed to chair the remainder of the hearing. I 
want to thank each of you for coming and for your excellent 
written testimony and for what you've said this morning.
    Senator Murkowski.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you all for the discussion this morning--very 
important on a lot of different levels. I come from a State 
where we spend a lot of money per pupil on our students, and 
yet the outcomes are not consistent throughout, most 
particularly in our rural areas.
    Back in 2007, a case was heard before our State supreme 
court brought by stakeholders in three rural districts, and 
this was based on the concern that these districts were low-
performing because of a lack of funding equity. There was 
considerable deliberation, long-term fact finding. But the 
judge came back and said that the problem wasn't money, because 
each rural district got about the same per pupil, but what they 
were seeing, again, were very different outcomes among them and 
among the individual schools.
    What the judge found was that the issue was the degree of 
State support and its effectiveness within different 
communities, or perhaps a lack thereof within the communities. 
So it was local support for schools. It was community-school 
relationships. It was effective and culturally relevant 
curriculum. It was teacher and principal effectiveness.
    The data really demonstrated that this was what mattered 
here, not that money doesn't matter. You have to have the money 
in order to do these things. But the judge, back in 2007, 
denied the move for more money and ruled that what the State 
needed to provide was more effective State support.
    Then back in 2012, there was a settlement, because there 
was still an argument about whether or not adequate financial 
funding was being provided. In 2012, we see a settlement where 
the Department of Education and the State agreed to create 
programs to support pre-K, targeted resources, grants, teacher 
retention grants, exit exam remediation. But it went 
specifically to the level of support that could be made 
available to these respective districts, rather than a dollar 
for dollar comparison.
    I guess I'd throw it out to anyone here on the panel. Ms. 
Eskelsen Garcia, I wasn't here when you made the comment, but 
you apparently made a comment that we want to measure actual 
service and supports, not just the dollars.
    Can you all comment on this situation in Alaska and what 
our State's courts found?
    Ms. Eskelsen Garcia. I want to begin by saying I was a Utah 
teacher, but I was a Fairbanks, AK, student at Ryan Junior 
High.
    Senator Murkowski. There you go. A great middle school 
there.
    Ms. Eskelsen Garcia. I know what it's like to go to school 
when the stars are still out in the middle of the day. I want 
to tell you that the best teaching assignment I ever had was 
the Salt Lake homeless shelter, because of the surrounding 
support that I had as the teacher that the district placed 
there. There were social workers that worked with the family. 
There was a health clinic. There was a dentist that came in 
every 2 weeks. There were nutrition programs that they had.
    I was never alone. I had the support I needed, a 
professional who could deal with sometimes mental health issues 
that that family had. I understand when you say you do need--
every school needs the technology, the textbooks, the facility. 
You need the stuff.
    You also need to deal with the reality of that child's 
life, and some children come to us with so many more needs that 
aren't met in their home, in their community. They come from 
homes where they don't have disposable income sometimes to take 
a child to the dentist. So that child walks into our classroom 
in pain, and we have to do something about it, whether we've 
been given the resources to do anything about it or not.
    For me, it is more than just counting the dollars. The 
dollars are important, but you also have to say, ``How creative 
can I be in seeing what kind of service and supports, what kind 
of community organizations are out there that can help me?''
    In Utah, we're the lowest per-pupil funded school district 
in the Nation. We can stretch a dollar until you can see 
through it. We are the most creative educators on the planet. 
Give us more money. That would be nice. But whatever we're 
given, then we try and leverage that into something more 
meaningful and supporting those children.
    That's why we want to say which services, which supports, 
which programs--it may cost a different number of dollars in 
this community than in this community. For instance, I keep 
using support as--how can we make sure our kids graduate from 
high school having already earned college credit? What would 
that look like? It might look like something very different if 
you're in Nome than if you're in Anchorage, where you have a 
university right there, and another might look like something 
online.
    But what we want is that power of professionals working in 
collaboration in each community to design something that makes 
sense for that community. If what you're measuring--do you have 
the ability; do these children have the opportunity to earn 
college credit before they graduate from high school; how many 
of them are doing that; how many of them used graduation day as 
a springboard into higher education? Describe what you're 
trying to accomplish and then be creative about designing 
something that meets the needs of that specific school 
community.
    Ms. Marshall. Senator Murkowski, may I respond briefly?
    Senator Murkowski. I'm over my time, but if the chairman 
allows it.
    Ms. Marshall. What jumped out at me that you said initially 
about the case was that the judge ruled that there was already 
a per-pupil equality in the expenditures. It sounded like 
that's what you said, that he said it wasn't the money that 
necessarily made the difference.
    For us, that equality is important, because I've been in a 
lot of schools on both ends of the spectrum. And when you walk 
in the front door, and the starkness of the resources hits you 
in the face, I cannot imagine how adding some extra dollars 
there actually equals supplement when the scale is so tipped.
    Ms. Murguia. I would just add a point. We know right now 
that black and Latino students are 1.5 times more likely to be 
taught by novice teachers. Is there a dollar for dollar 
solution that's going to directly address that in every part of 
the country and in every district and in every State? I'm not 
sure. But I do know that a zip code should not dictate the 
resources available to students.
    We need to make sure that there is an opportunity for the 
voices of those communities most affected and impacted by the 
plans that are going to be set forth at the State level to be 
represented. For us, having affiliates--and we have affiliates 
in Alaska--to have that voice heard so that they can be 
represented in those State plans is going to be an important 
part of getting to an outcome that, hopefully, achieves that 
equity that is at the heart of the original legislation and I 
believe is still embodied in this legislation.
    It's the strong Federal oversight role that is going to 
ultimately be the counterbalance to making sure that that is 
set forward in a manner that's consistent with what we've 
intended.
    Senator Cassidy [presiding]. Thank you. I didn't mean to 
cut you off, but----
    Senator Murkowski. Mr. Chairman, thank you, and I would 
like to add that within the Alaska court, the supreme court 
there, the funding may have been equally adequate, but the 
problem was that the results are not. Again, when you're trying 
to measure this dollar for dollar, this is where the discussion 
gets even more intriguing. I thank you for the additional 
allowance of time for others to answer and the opportunity to 
speak.
    Senator Cassidy. Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thanks very much. In the 
interest of time, let me first say thank you to the panel for 
being here and for your good work on this legislation. I'll 
submit a question for the record, which will focus on NEA, AFT, 
and La Raza. But I do, in my very limited time, want to direct 
a question to Ms. Marshall regarding the 1 percent cap on 
assessments for students with the most significant cognitive 
disabilities. I guess maybe two, if I can get to that.
    It's good that we have this win, that we codified an 
important policy and made it law. I just wanted to ask you how 
do you think--in terms of how it's going to work, how will this 
policy, which is a continuation of prior policy, help special 
education teams, help schools, help school districts making 
that very critical decision about which children should take 
which tests?
    Ms. Marshall. Thank you, Senator Casey, and I want to thank 
you for your leadership on this issue. It was a huge win for us 
to get this cap, and we are the students that are represented 
around the table at the IEPs whose teams are making these 
decisions, all too often for whom there is a lack of 
presumption of competence. Before there was such a cap, we saw 
untold numbers of students taken off access to the general 
education curriculum as early as second grade, and that's just 
unconscionable.
    We think this cap is important. As someone alluded to 
earlier or stated earlier, it's adequate. We have far more 
fights for students trying to stay on the regular assessment 
and graduate than we have who are not allowed to take an 
alternate assessment. That's critical.
    I think the Neg Reg process put up some important 
guardrails to make sure that States and teams are asking the 
right questions and that they're very careful not to put 
students on there on the basis of their disability or on the 
basis of their past test performance, but that they push harder 
to make sure those students have what they need to succeed.
    Senator Casey. I wanted to ask you because I know your work 
validates this principle, and I think the policy we were able 
to get done in this bill validates that students with 
disabilities have a lot of ability, and that's an important 
validation. I want to ask you how can we ensure that districts 
and States implement this guidance to ensure that all students 
are held to these very high expectations? What would you hope 
would happen?
    Ms. Marshall. In our experience, the clearer the 
guidelines, the brighter the lines, the easier it is for the 
families to enforce the law, and it falls on their shoulders. 
That's why we appreciate the Federal oversight. We have needed 
it repeatedly. We continue to need it to this day to make sure 
our kids have access to what they need.
    In response to what Senator Enzi was saying before about 
the Department of Ed and the check boxes, we rely on that data. 
We need it. That's how we can show how our kids are being 
shortchanged and what they need to be able to get equitable 
access to receive the benefit they deserve from an appropriate 
and excellent education, just like any other student.
    Senator Casey. Thanks very much. I appreciate it.
    Senator Cassidy. Thank you, Senator Casey.

                      Statement of Senator Cassidy

    Senator Cassidy. I may take a little contrarian viewpoint 
to some.
    Ms. Marshall, you mentioned the 1 percent cap. Let's go 
back to those dyslexic children. I don't think there's any 
school district in the Nation which screens for dyslexia at 
grade one. And if anyone knows of such a district, please let 
me know.
    We have 20 percent of the population dyslexic, and at some 
point, somewhere between third and fourth grade, children--a 
typical child begins to learn to read, whereas the dyslexic 
child is still learning to read. I think I got that right. 
We're going to have a standardized test in fourth grade which 
assumes fluency, and yet that child who is dyslexic is still 
learning to decode and is not a fluent reader. In a sense we 
have program failure.
    At fourth grade, we're going to test 20 percent of the 
children in a way which they are not yet ready to be tested by. 
I suppose if you have a 1 percent cap, let's imagine that in 
the future, some progressive school district would actually 
screen all the children and find that 20 percent. Would we 
still test them with the same standardized test, knowing by 
grade four that they will still not be reading adequately? For 
some reason, that doesn't make sense to me.
    Dr. Evers, do you have any thoughts on that?
    Mr. Evers. I can tell you in my home, we do screening for 
children entering school, and it's----
    Senator Cassidy. For dyslexia?
    Mr. Evers. It's a more general screening, but it has to do 
with understanding and decoding skills and skills relating to 
phonics and things like that. I'm sure some of those children 
are caught or captured by that screening. We have a State law 
that, at third grade, if students are requiring additional help 
because they're not at grade level in reading, that school 
districts have to develop a plan for them, whether it's special 
ed or not.
    I can answer the question generally. I believe our State is 
working hard to address the needs of dyslexic children. But if 
your question is do we do a screening specifically for 
dyslexia, the answer would be no.
    Senator Cassidy. I haven't found one that does, actually. 
Most rely upon, sort of, the child not doing well. But by grade 
three, the horse is out of the barn. If the child is not doing 
well by grade three, typically, that deficiency is going to 
persist. If we were able to screen these children, and knowing 
that they've not yet learned to read fluently, would we still 
give them the same standardized test at grade four that the 
other children are receiving, even if we know they have not yet 
learned to read fluently?
    Ms. Marshall, would you advocate doing so?
    Ms. Marshall. Yes, Senator Casey, I would actually----
    Senator Cassidy. I'm--Casey is the right----
    Ms. Marshall. Oh, Cassidy. I'm sorry.
    Senator Cassidy. That's OK. My mother-in-law gets the same 
mistake. So don't worry about it.
    Ms. Marshall. I don't have my glasses on, so without that 
accommodation, I'm in trouble, and that actually gets to my 
point.
    We absolutely agree that students with dyslexia are not 
being screened, are not being taught, and the teachers don't 
have the training they need. In fact, I will broaden that to 
say that all students with disabilities who this law protects, 
as well as every other student, have trouble reading and are 
not getting the services that they need to succeed.
    We often hear the argument that you have put forth around 
not taking the test. But it is our belief, again, that we need 
to know where students are against the standards. We should not 
throw them in there without the accommodations, and we should 
make sure----
    Senator Cassidy. Now, what would you say----
    Ms. Marshall [continuing]. If you could just let me 
finish----
    Senator Cassidy. But I have limited time. What would you 
say is an accommodation for the child who has not yet learned 
to read?
    Ms. Marshall. It differs for each child. But they need to 
be able to have the accommodations and the supports that they 
use in the classroom to learn when they take the test, and that 
is of grave concern to us right now. We find that students are 
not having that accessibility. They have to be tested on the 
content, not on their ability to take the test.
    Senator Cassidy. Let's get granular, not just conceptual, 
but granular. If the child has not learned to decode, and the 
child does not read fluently, taking a test which presumes 
fluency, that child is going to fail, period. Do we really want 
to make that child take that particular test, as opposed to 
another test which may--a different test which may, indeed, 
adjust for the fact that the child has not yet learned to read 
fluently?
    Ms. Marshall. I can't make those decisions. It's on an 
individual basis with each student. But as a general principle, 
we want our kids to count, and we want them to be part of the 
tests that all kids are taking to see where they are on grade 
level according to the State standards.
    Senator Cassidy. But we would know that these 20 percent of 
the kids, despite whatever their IQ is, they're going to read 
less--by definition, dyslexia is a disconnection between the 
two--those children are going to read less well.
    Ms. Marshall. But we've gotten rid of the punitive nature. 
The intention of the tests, the reason to take them, is to know 
where the students are and to give them the appropriate 
services and supports to move them forward.
    Senator Cassidy. I'm not sure that we came to a common 
mind, but I'm out of time.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to all the panelists for your time today. I have 
one general comment, and then one specific question for, our 
favorite target today, Ms. Marshall.
    Here's my general comment. I think Ms. Weingarten got it 
right when she made it clear that this law is a civil rights 
law, first and foremost. The Federal Government is in the 
business of education policy because we're in the business of 
civil rights. There's no reason for us to be writing Federal 
education policy if it's not, at the foundation, about equal 
opportunity for disabled kids and poor kids and minority kids, 
and I thought your answers to Senator Warren's questions were 
spot on.
    But that's a real uncomfortable thing for us to talk about, 
especially an uncomfortable thing for us to talk about when 
we're sitting in front of a bunch of educators and 
superintendents and State officials, because what we're saying 
is that without some Federal requirement that kids of color or 
poor kids or disabled kids be treated fairly, local political 
dynamics are going to accrue to the detriment of those kids, 
and that if you don't have a Federal requirement, ultimately, 
those kids are not going to get a fair shake.
    It becomes a very difficult thing for us to talk about 
here. But it's been at the foundation of our Federal commitment 
to civil rights and at the foundation of our Federal education 
law for decades.
    I do think it's important and I have since the beginning of 
the drafting process for this law to have some strong 
accountability requirements and some high expectations for 
schools and for kids. I don't think it ends at the text of the 
law. I think there's a very important and appropriate role for 
the Department of Education to play in setting the guardrails 
for the financial accountability, as Senator Warren was talking 
about, or this accountability system.
    I understand, Dr. Gordon, the ways in which a requirement 
to spend more money on poor kids may occasionally not work to 
their benefit. But I think in the aggregate, if you're spending 
more money on title I schools, that's going to help students in 
title I schools, even if maybe it provides some perverse 
disincentives here and there.
    On accountability, I think we've got a good accountability 
section in this bill. But we've got to make sure that the 
interventions that are being used to try to turn around schools 
are not just whitewash. If a school is failing, it's not enough 
just to paint the front of the school green. You've got to 
actually do something that's meaningful.
    It's uncomfortable, because I don't doubt the willingness 
of school districts and States to try to be partners in this. 
But the regulations are important to make sure that we've got 
some basic guardrails to make sure that what is happening to 
make these schools better for these populations is based on 
what we know works and what we know doesn't work.
    I appreciate the conversation here. But I'm interested in 
the Department of Education continuing to move forward on 
regulations that are in the spirit of the accountability 
sections of our bill, and I don't think there's a lot of 
disagreement on that.
    Here's my specific question to you, Ms. Marshall, and it's 
on a narrow issue that is a passion of mine, and that's the use 
of seclusion and restraints in our schools. According to the 
Department of Education's latest civil rights data collection 
in 2011 and 2012, 70,000 students across the country were 
physically restrained, and 37,000 of them were secluded, and I 
think that's the tip of the iceberg.
    I don't think we understand how deep and broad this problem 
is, and I'll take ownership of it in Connecticut. We've got a 
problem. Scream rooms being used to throw kids into so that 
they can scream out their problems so they're not a disruption 
to everybody else. We included language in this bill, 
bipartisan language, that would require State plans to address 
the use of what the bill calls aversive behavioral 
interventions, which really means seclusion and restraint.
    What do you want to see from the Department of Education 
when it comes to the guidance that they give to schools on how 
they attack this issue of the overuse of both seclusion and 
restraint?
    Ms. Marshall. Thank you very much, Senator Murphy, for 
asking me this question, because it's also a passion of mine, 
and also for your leadership in ensuring that that clause was 
added to the law. There were many tears and dances of joy when 
this portion of the law was included to make sure that there 
are positive school climates and that we need to take steps--
schools need to unequivocally stop this abuse of students in 
our schools.
    Secluding a student in a locked room from which they cannot 
escape is known to be one of the most torturous things you can 
do to another person. Why are we doing that to our kids?
    Restraint can only be used in emergency situations. The 
research is clear. It's used for power and control on little 
tiny kids. That must stop. I'd be happy to submit more comments 
for the record.
    I would like to say one more thing, which is I spent years 
as a positive behavior support specialist in the school dealing 
with the kids with the most challenging behaviors to keep them 
in school and keep them learning. If you're in a seclusion room 
or you've got four adults sitting on top of you, what are you 
or the other students who are watching this learning?
    The scream rooms in Connecticut were called that by the 
other students, because that's what they heard, kids in a room 
screaming. Imagine that effect on a little child when they're 
trying to learn. That's a life lesson no child in this country 
should be subjected to.
    What I know has made the difference is not money. It is 
about training. It is about the belief and the confidence of 
the teacher to keep all kids safe, the support of the 
principals and the other people in the building to make sure 
they have those services around the kids who challenge the 
most. But it can be done positively, and it can be done without 
those barbaric practices.
    Senator Murphy. No teacher ever wants to engage in that 
kind of practice.
    Ms. Marshall. Right.
    Senator Murphy. You are right. This is about supporting 
plans to create the climates and atmospheres in schools to make 
sure that those situations never arise.
    Mr. Chairman, one additional caveat to my initial comment. 
I want to make the point that this conversation about 
accountability is also uncomfortable because we often place the 
burden on accountability simply on the superintendents and the 
administrators and the teachers. When you look at the 
difference in educational outcomes that still persist among 
different groups, it often has to do with all sorts of factors 
that exist outside of schools.
    This conversation about accountability that, of course, I 
think is incredibly important is not a conversation just about 
what happens inside the school. It's a conversation about what 
is happening in systems at large that are controlled by, 
frankly, folks way above the pay grade of teachers and 
administrators and superintendents.
    Thank you, Mr. Chairman.
    Senator Cassidy. Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman Cassidy. I would 
like, first, to make the point that under title I, we said 
quite clearly that a school must get--if I quote the text 
correctly--the funds it would otherwise receive under title I. 
We did not say it should get the same funds as other schools 
receive. We could have said that, but there wouldn't have been 
agreement on it, and the law is fairly clear.
    What worries me is that if we get into a wrangle over this 
regulation re-reading the law as the latter statement rather 
than the former statement, which seems to me, as a lawyer, a 
reasonably clear statement, then we're going to start to get 
distracted from all of the areas that we baked into this law 
where there was common agreement that there is a great 
opportunity for reform and innovation.
    One of the keys was to open up curriculum. We had 
curriculum get slaughtered in title I schools, because 
everything that didn't teach to the test got thrown overboard 
for fear that the boat would sink if the testing came back 
poorly. That was a terrible disservice to the students in those 
schools. We set up innovative dashboard opportunities for 
people to report in much more effectively on how schools are 
doing so that there can be real accountability, not ersatz 
accountability.
    We have opened up the realm for interventions in failing 
and struggling schools so that there's a lot more opportunity 
to bring different perspectives and different opportunities to 
bear. We've opened up the opportunity for innovation schools to 
exist.
    There are bright green lights in this bill saying, ``Let's 
do this better.'' To insist on driving down a street that has a 
red light on it doesn't seem to me to be constructive, and I 
hope that it does not take us into a place where we're not 
taking advantage of all the green lights that this bill clearly 
lays out.
    Teachers, school administrators, pretty much everybody in 
Rhode Island is very excited about the new tools that this bill 
gives us. If we can avoid driving into this particular ditch 
and instead focus on the areas where there really is very, very 
significant bipartisan solid and legally founded opportunity 
for reform and innovation, boy, I'd like to encourage that.
    That said, it is absolutely clear and bipartisan and has 
always been the case that nobody wants to see Federal title I 
money come in and provide an excuse to school districts or 
States to quietly ease money out of those schools and out of 
those districts to the favored and wealthier districts knowing 
that title I was going to come in and make up the gap.
    If the equality of expenditure rule is not the one that we 
should be following, I would ask that each of the witnesses let 
us know what rule they would recommend that the Department of 
Education follow, because I don't want to end up in a situation 
in which no regulation ever--nobody would agree with any 
regulation of this because people are waiting to be against 
anything and everything, no matter what it is.
    I think it is important that there be some affirmative 
statement from folks who are here about what they think the 
regulation should look like, not just what it should not look 
like. I only have about a minute, but I do see at least one 
hand up.
    And let me make it, Mr. Chairman, a question for the record 
so that anybody can fill in if they'd like to in writing.
    Ms. Eskelsen Garcia. I know what my NEA members think is 
the standard. There's one thing about inter-district equality 
and equity. It's much more dramatic when you look across 
district lines within a State.
    If you were to ask anyone with two eyes to go into the best 
school, the best public school in that State, and everyone can 
think about what public school that would be--in Utah, you'd go 
to Park City--and you'd say, ``Let's do an inventory of the 
services, the school nurses, the professional librarians, the 
programs, the international baccalaureate programs, the art 
classes, the theater classes, the field trips--if you were to 
go in and take an inventory of the service supports and the 
programs in the best school in your State, make that your 
standard.
    Make that the dashboard. Why not? Then say, ``Now, we are 
going to compare every single school in our State by how well 
it measures up.'' Do you have a school nurse? Do you have a 
professional librarian? What's your counselor-to-student ratio? 
How are you serving your special ed kids? What's your ELL 
program? Do you have clubs after school?
    If you were to do that--and the Federal Government, by the 
way, is not saying if you don't have perfect equality, 
somebody's head rolls. You're saying that role of the Federal 
Government is to be transparent, to give good information to 
people like the advocates sitting at this table, to say put 
that information in our hands so we can go back, and we can 
fight for the students that are being shortchanged.
    There are ways that you can do this without micromanaging 
from the Federal level and making it one more level of 
bureaucracy.
    Senator Whitehouse. We've gone over my time. I appreciate 
it, Senator Cassidy, and I thank the panel very much for a very 
helpful conversation.
    Senator Cassidy. I also thank y'all, to put a little 
southern touch there--y'all. Thank you for being here.
    The hearing record will remain open for 10 business days. 
Members may submit additional information and questions to our 
witnesses for the record within the time if they would like.
    Thanks for being here today. The committee will stand 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

   Response by Lily Eskelsen Garcia to Questions of Senator Collins, 
                Senator Sanders, and Senator Whitehouse

                            senator collins
    Question 1. During the reauthorization process, I worked with the 
junior Senator from Vermont and others to develop and improve an 
innovative assessment pilot program. We sought to give States and 
school districts the opportunity to move away from standardized tests 
and toward assessments that measure learning competency and proficiency 
in innovative ways. The pilot program is one way to address concerns 
about over-testing. And it is a way of supporting Maine and other 
States that want to focus on what students are learning and how well 
they are applying what they learn--not just how well they take a test.
    How do you recommend the Department of Education go about 
implementing this program? What does the Department need to do to 
maintain the flexibility Congress intended to provide to help foster 
innovative assessments?
    Answer 1. Senator Collins, we are so grateful to you and Senator 
Sanders--we deeply appreciate your tireless, bipartisan work on the 
innovative assessment pilot program. It is a critical component of the 
new law for the many educators, students, and parents who found the 
test-and-punish approach of No Child Left Behind counterproductive to 
both teaching and learning. I want to be clear that teachers invented 
tests--we aren't opposed to assessment! But, in fact, we support 
assessment that is authentic and meaningful to both the student and the 
teacher. That means that it is linked to real standards and curriculum, 
and that results are available for teachers and parents in a timely 
way. Further, it means that results can help inform instruction 
immediately, rather than arrive deep into the summer, long after most 
students have moved on to the next grade. This is what we believe is 
authentic assessment, and something we strongly support. We believe 
that ESSA goes a long way to supporting movement to this ideal through 
a variety of mechanisms, including and especially through the 
innovative assessment pilot program.
    We strongly recommend having the Department take a ``less is more'' 
approach when it comes to regulating the innovative assessment pilot 
program. We hope that the Department follows congressional intent and 
allows each State to develop an assessment plan that works for its 
students, communities, and educators without dragging down a new 
program with onerous regulations that force ``innovation'' to look a 
specific predetermined way.
    As you said, those plans should include looking at competency and 
proficiency, as well as how students apply what they learn. It should 
also be possible to compare and disaggregate assessment results for 
different student subgroups. Disaggregation is really important. Above 
all, the new assessment systems should be meaningful, which means they 
must be relevant to students, parents, and educators.

    Question 2. During Secretary King's confirmation hearing, I asked 
for his assurance that the Department would engage rural communities in 
the ESSA implementation processes. I am not sure that is happening. For 
example, I was alarmed that the Department held its initial public 
listening sessions in Washington, DC and Los Angeles, CA--both major 
urban areas. Rural districts also seem to have been under-represented 
on the committee of negotiators selected for the negotiated rulemaking.
    It is vital for rural communities and rural educators to have a 
seat at the decisionmaking table. What should the Department be doing 
to ensure that rural communities are represented during the rulemaking 
process? What are you doing to ensure that rural voices are heard and 
contribute to State and local planning efforts?
    Answer 2. Senator Collins, thank you for that question. I share 
your concern about the engagement level the Department has shown in 
rural communities. There is definitely room for improvement. I agree 
that the selected negotiators during the rulemaking process could have 
been more representative of the broad range of types of schools across 
the country, particularly rural schools. As we know from NCLB, what 
works in Des Moines, IA, may not work in Southwest Harbor, ME, but in 
many cases some of those differences are not immediately obvious unless 
drawn out through meaningful engaged conversation and real listening on 
both sides. Negotiated rulemaking was a missed opportunity in this 
regard. We have to make sure these conversations are happening. Yet, 
ultimately, the same regulations must apply to all districts. This is 
why we argue that final regulations must provide States and communities 
the flexibility necessary to meet the unique needs of their 
communities.
    Many States are doing a better job engaging stakeholders. For 
example, in Oregon, the State is holding listening sessions across the 
State in geographically diverse communities. We applaud these efforts. 
In addition, we at NEA are doing our part to engage our members across 
the geographic spectrum. Across the country, in every NEA affiliate, we 
are working hand-in-hand with local leaders and stakeholders, striving 
to help them understand the critical role they play in the 
decisionmaking process under ESSA. In every State, we want 
representation of our full membership--urban and rural, teacher and 
education support professional--at the table when key decisions are 
being made. We are also encouraging our members to file comments with 
the Department on the proposed rules and share their individual 
perspectives, and we hope the breadth of those comments showing the 
diverse makeup of the education community will impress upon the 
Department our members' deep interest in the potential impacts of the 
proposed regulations.
    In addition, we have strongly advocated for the Department of 
Education to provide guidance to States about the importance of 
providing support--in both leave time and, if necessary, mileage--to 
make it possible for stakeholders to participate in the decisionmaking 
process. This is especially critical for rural educators who may have 
to travel long distances in order to take part in key conversations.
    In many States, one criticism we heard early on was that educators 
were not given a place at the decisionmaking table. Accordingly, we 
have focused on breaking down barriers to educators' participation in 
stakeholder conversations. We are working with our partners--both here 
in Washington, DC and at the State level--to make sure that all voices 
are heard at the decisionmaking table.
                            senator sanders
    Question 1. We must do everything that we can to ensure that every 
child--regardless of her or his circumstances--has access to a high-
quality education. We know that a high-quality education is a resource-
intensive endeavor. We also know that disadvantaged children need 
additional resources to combat the ravages of poverty and 
discrimination. The Elementary and Secondary Education Act (ESEA) of 
1965 marked the beginning of a strong role for the Federal Government 
in combating inequities on both fronts. Clearly, there is much more 
work that must be done.
    A key component of the Federal Government's role in education is 
ensuring that our schools have the additional resources needed to 
ensure that every child can reach her or his full potential. Today, 
over half of all public school children come from low-income families. 
Examining the most recent data available, there is clearly an increased 
need, as well as a lack of sufficient Federal resources, to meet this 
need (see figure 1, page 3). Between school year 2004-5 and school year 
2013-14, we have seen a 32 percent increase in children eligible for 
free or reduced lunch--an increase of over 6 million children.
    Yet not only has the main source of Federal funding for public 
schools serving low-income children--Title I-A of ESEA--failed to keep 
pace with the reality that our public schools are serving more low-
income children than a decade ago, it has not even kept up with 
inflation. Real title I-A funding is down 6 percent since fiscal year 
2005 while the percentage of low-income kids in public schools has 
increased by 32 percent over the same time period. If, at a bare 
minimum, title-I-A funding had kept pace with inflation since fiscal 
year 2005, appropriations for title-I-A would have been $15.2 billion 
in fiscal year 2014 instead of $14.4 billion--a difference of nearly a 
billion dollars. Furthermore, if title I-A funding had kept pace with 
both inflation and the growing number of children coming from low-
income families since fiscal year 2005, title-I-A funding would have 
hit $20.2 billion in fiscal year 2014--a gap of over $5.5 billion when 
considering reality versus actual funding (see figure 2, page 4).
    Ms. Eskelsen Garcia, can you please speak to the importance of 
Federal education funding meeting the increased needs of our public 
schools? Beyond a dramatic increase to title-I-A funding, what other 
funding streams within ESEA and in other Federal programs require an 
increase to meet the realities of today's public schools?
    Answer 1. Senator Sanders, we at the NEA could not agree with you 
more. Like you, we believe that ESSA is first and foremost a civil 
rights bill, and that preserving the historic Federal role in ensuring 
equal opportunity is critical.
    We are deeply concerned, as we know you are, that funding for 
formula-grant programs has not kept pace with either the growth in the 
student population or the rate of inflation. This is especially 
troubling with regard to programs serving the students most in need--
among them, title 1, IDEA, and Perkins grants for career and technical 
and education.
    To answer your question about what Federal funding streams need to 
be increased to address today's realities, I would argue all those that 
target the students most in need--the reason ESEA was passed in the 
first place. That includes not just K-12 education programs, but high-
quality child care, early childhood education, health care, school 
meals, safe and affordable housing, and on and on down the list.
    Over time, investments in these programs will more than pay for 
themselves. To give just one example: investments in high-quality early 
childhood education consistently generate benefit-to-cost ratios of at 
least 3-to-1--$3 or more for every single dollar spent, according to 
the Economic Policy Institute.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 2. I am very concerned that our schools and communities 
are dealing with a surge of students exposed to multiple adverse 
experiences, and that they are not equipped with the resources, 
training, and support to accommodate this crisis.
    According to the national Adverse Childhood Experience Study, over 
half of those surveyed reported at least one form of childhood 
adversity. Shockingly, two in three children in our Nation--46 million 
children--are exposed to violence, crime, abuse, or psychological 
trauma a year. In Vermont, over 20 percent of children have had two or 
more adverse experiences, which include traumatic events like living in 
chronic poverty, living with someone with a substance abuse problem, 
experiencing community or family violence, and more. Even more alarming 
is the fact that our youngest citizens and their parents are at the 
forefront of this crisis. Since 2014, the Department for Children and 
Families in Vermont has seen a 33 percent increase of children in State 
custody with children under the age of six making up more than two-
thirds of this increase. Further, similar to nationwide trends, in my 
home State over 40 percent of children come from low-income families--
and young children are the most likely of any age group to be poor.
    Ms. Eskelsen Garcia, what can the Department of Education do to 
help schools, educators, and communities be prepared to deliver trauma-
informed approaches to education when implementing the Every Student 
Succeeds Act (ESSA)? Additionally, what can the Department of Education 
do to ensure that educators teaching in environments where a large 
percentage of students have had adverse childhood experiences (ACEs) 
have the support and the self-care they need to succeed? Furthermore, 
what policies should Congress enact to help communities combat these 
challenges and attack the root causes--like poverty, exposure to 
violence and substance abuse--driving these adverse experiences? How 
would increased Federal investments in child care, preschool, maternal 
and child home visiting; before-school, after-school, and summer 
programming; nutritional supports; and wraparound services for schools 
help fight this crisis? Likewise, how would raising the Federal minimum 
wage, addressing under-employment and unemployment, implementing paid 
family leave, and enacting universal health care coverage help attack 
the root causes of these adverse experiences?
    As national education leaders, what plans are your organizations 
making to work with States to ensure that their schools and 
practitioners have trauma-informed approached to education? How will 
you make States and school districts aware of opportunities under ESSA 
to create trauma-informed environments?
    Answer 2. I agree with your assessment of the impact of trauma on 
our Nation's public schools. NEA provides a wealth of resources on a 
wide range of topics, including many of those you cited, to help 
educators provide trauma-informed support for their students. We also 
provide hands-on training to help educators create safe, supportive 
learning environments. And, increasingly, educators are using 
collective bargaining to advocate for more resources and support for 
their students.
    For example, earlier this year in St. Paul, MN--a joint NEA-AFT 
affiliate--teachers used contract negotiations to advocate for greater 
investments in safety and resources for their students. And they 
succeeded! The school district will be investing $4.5 million over the 
next 3 years in restorative practices to help lift up struggling 
students. Thirty additional, specialized staff--a combination of social 
workers, nurses, counselors, school psychologists, and teachers for 
English-language learners--will be hired to help ensure that all the 
students in that district receive the support they need and deserve.
    NEA is committed to translating our members' commitment to helping 
vulnerable students into action. Through a series of one-on-one 
conversations over the coming year, we aim to ensure that every single 
educator is aware of the opportunities created by ESSA. Then, we plan 
to mobilize them to work for change and equity for all students--to 
truly fulfill the promise of the original law, the Elementary and 
Secondary Act of 1965 that was a centerpiece of our Nation's War on 
Poverty. One major way that educators can work for more inclusive 
environments for trauma impacted students is by making sure that voices 
of educators are included in State and local plans and that entire 
communities are engaged and lifted up. Teachers understand what their 
students need to succeed. We should listen to their voices and include 
their expertise in planning and decisionmaking in order to best serve 
all children, but particularly those who are most vulnerable.

    Question 3. On the 62d anniversary of the Brown v. Board decision, 
the Government Accountability Office (GAO) released a report confirming 
what educators, families, students, and community stakeholders have 
been telling us anecdotally for some time--our public schools are 
becoming more segregated by both race and family income.
    The share of public schools that are doubly segregated by race and 
income--where 75 percent or more of the kids come from low-income 
families and are black or Hispanic--has risen from 9 percent in school 
year 2000-2001 to 16 percent in school year 2013-14. Today, one in five 
public school students attends a school that is doubly segregated, more 
than twice as many as 15 years ago. Hispanic children are often triply 
segregated--by race, family income, and native language. Shamefully, 75 
percent or more of the children are black and Hispanic at nearly two-
thirds--61 percent--of high-poverty schools.
    Segregation and isolation by race and income in our public schools 
is an alarming phenomenon on its own. Even more troubling, these doubly 
segregated schools are not offering students an education comparable to 
that offered by non-segregated schools or schools at the other end of 
the spectrum--those in wealthy districts where the student population 
is predominately white. The GAO report reveals that doubly segregated 
schools have fewer resources, do not offer the full range of core 
courses like math and science, offer less advanced coursework, and have 
disproportionately more disciplinary actions than other public schools.
    I'd like to ask this entire panel what the Federal Government can 
do to reverse the troubling trend of segregation by race and income, 
and ensure an equal and adequate education for all children? Please 
feel free to expound on reforms within education as well as system-wide 
changes in areas such as housing, transportation, jobs, and more. 
Additionally, through the implementation of the Every Student Succeeds 
Act (ESSA), what can the Department of Education do to make States and 
school districts aware of new opportunities to increase racial and 
socioeconomic diversity?
    I also invite Ms. Eskelsen Garcia, Ms. Marshall, Ms. Murguia, and 
Ms. Weingarten to address the related issue of increasing diversity in 
our schools. ESSA gives States and local school districts greater 
autonomy with regard to key educational decisions. How do your 
organizations plan to make States and districts aware of opportunities 
to increase diversity provided by the new law? Additionally, what tools 
or resources do States and communities need to tackle the difficult 
task of diversifying our schools to help ensure that they provide an 
equal and adequate education for all students?
    Answer 3. When discussing equity, we must be clear that it does not 
necessarily mean equality. In many under-served communities, the 
resource hole is so deep that providing funding equal to that in 
wealthier communities is not enough to compensate for the lack of 
opportunity. Instead, we must focus on parity--moving sufficient 
resources into under-served communities to achieve the same standards 
as better-served communities. We believe the promise of the additional 
indicator in accountability plans is just for this purpose. Holding 
schools accountable, even for just one additional indicator of school 
quality beyond a test score, can be a powerful tool to shed light on 
the critical gaps in opportunity for children that exist even within a 
single district. Further, we are also pleased by the extensive report 
card requirements around equity and opportunity that will offer parents 
and communities additional information about opportunity gaps in order 
to push for change.
    ESSA provides many tools that can be used to support the diversity 
of the student population. For example, we strongly support the use of 
magnet schools to provide challenging educational environments for 
children from all kinds of backgrounds. We also must take a clear look 
at the way in which charter schools enroll students to ensure that they 
do not resegregate communities, as some research has suggested.
    We also strongly support the use of community school strategies to 
support students. Community schools is a model of school support in 
which community organizations, parents, and educators all work together 
in creative ways to create supportive environments that support the 
whole child. Each community school is a little different. Community 
school models are as unique as the schools and communities they serve. 
Sustainable community schools try to ensure that every child has an 
opportunity to learn and succeed, which is a cornerstone of ESSA. As a 
union, we know how to organize, build connections between schools and 
the community, survey needs, and forge alliances. We are working across 
the country in diverse communities to build capacity around this 
incredibly promising model.
    We must also do more to increase diversity within the education 
professions. While growing numbers of children in public schools are 
members of minority groups, the majority of educators--especially 
teachers--continue to be white women. We must do more to put role 
models in our classrooms who reflect the cultural and ethnic diversity 
of America today, as well as to attract more men who can serve as role 
models. In addition, to support families and strengthen the social 
safety net, we must ensure high-quality child care, access to good 
nutrition and health care, and provide employment training.
    Finally, NEA has embarked on new work to deepen understanding of 
the role segregated housing policies--implicit or explicit--play in 
educational inequities and the many ways that growing up in segregated 
communities impacts students. This work is hard and requires each of 
us--as an organization and as individuals--to look deep within 
ourselves and confront ways in which we contribute to persistent 
inequality and then to dig even deeper to change our hearts, minds, and 
policies toward the path of justice.

    Question 4. The Every Student Succeeds Act (ESSA) rightly moves 
away from the blame and shame approach of the No Child Left Behind 
(NCLB) Act. In crafting the new law, Congress listened to educators, 
parents, students, stakeholders, and communities when they said, loudly 
and clearly, that schools and students are more than test scores. That 
is why ESSA requires the use of multiple measures to assess our schools 
and students.
    Ms. Eskelsen Garcia, as we move toward implementation of the new 
law, can you speak to the importance of using multiple measures and not 
just test scores in determining how well our schools and students are 
doing? Furthermore, as States begin to plan new accountability systems 
under ESSA, what recommendations do you have? What indicators of school 
quality and student success should States think about including in 
their accountability systems?
    Answer 4. NEA strongly advocated for accountability systems to 
include measures of the resources and opportunities available to 
students in different schools and districts. We also support holding 
States and school districts accountable for addressing any resource or 
opportunity gaps those measures reveal--specifically, for developing 
plans to address such gaps.
    ESSA requires the new State-developed accountability systems that 
take effect in the 2017-18 school year to be based on multiple 
measures, not test scores alone. Those systems must include at least 
one indicator of school success to student support--and we view that as 
the floor not the ceiling.
    Furthermore, the new law requires a needs assessment for most plans 
and programs--an examination of current resources such as funding, 
programs, policies, and performance. NEA's Guide to Educator-Led School 
Improvement and GPS Indicators Framework provide detailed information 
on the type of accountability systems we envision and support.
                           senator whitehouse
    Question 1. ESSA is a relief to many, especially in Rhode Island. 
Everyone who I've talked to is very excited about this bipartisan bill 
and the opportunities it presents.
    However, I am concerned about the ``supplement, not supplant'' 
issue. Many of you have said that the Department of Education's 
proposed regulations on supplement, not supplant are an overreach. At 
the same time, I am aware of many inequities in local and State funding 
for education.
    Absolutely no one wants to see Federal money provide an excuse for 
redirecting other funding to wealthy, well-connected school districts--
for title I to fill funding gaps in such districts.
    I've heard from many about the problems with the Department's draft 
proposal on supplement, not supplant. My question is not what are the 
problems, but what should the Department do instead? That is, what 
would you affirmatively propose to ensure that title I funds are 
supplemental and that they do not supplant State and local funds?
    Answer 1. The affirmative action the Department of Education should 
take is reissuing and updating--to reflect changes made by ESSA--the 
non-regulatory guidance provided in July 2015, Supporting School Reform 
by Leveraging Federal Funds in a Schoolwide Program (https://
www2.ed.gov/policy/elsec/guid/eseatitleisw
guidance.pdf).
    The Department's ``Dear Colleague'' letter discusses how to use 
Federal funds to supplement school reform in ways that are consistent 
with ESSA's supplement, not supplant provision. It also says that local 
educational agencies (LEAs) should be given flexibility while required 
to use Federal funds efficiently and effectively.

    Question 2. Under NCLB and the Obama administration's waivers, I 
consistently heard from Rhode Island teachers and principals that they 
could achieve better results if not for the layers of bureaucracy 
stifling innovation at multiple levels.
    I am very pleased that ESSA steps away from that one-size-fits-all, 
overly prescriptive posture. You have all heard me talk about the 
provisions I fought for in ESSA--requiring States to describe how they 
will encourage opportunities for more autonomy and flexibility.
    I am concerned because I do not want to see the Department of 
Education use the regulatory process to grab back the control that ESSA 
intended to push down to the State and local level. What could the 
Department do on the supplement, not supplant issue that would support 
greater innovation at the local level?
    Answer 2. My answer to this question is similar to my answer to the 
previous question. We believe that the Department of Education should 
reissue its non-regulatory guidance from July 2015 to reflect changes 
under ESSA. That guidance, not regulation, is consistent with ESSA's 
devolution of responsibility to the local level--and it stresses how 
local districts can use existing flexibility to implement title I 
programs efficiently and effectively.

   Response by Randi Weingarten, J.D., to Questions of Senator Burr, 
        Senator Collins, Senator Sanders, and Senator Whitehouse

                              senator burr
    Question 1. I noted with some interest during your unprepared 
remarks you spoke about title I's formula and its inadequacy in 
targeting poverty. I couldn't agree more, which is why I and Senator 
Michael Bennet of Colorado put forward a plan, the Funding Educational 
Opportunity Act, during last year's ESEA reauthorization debate. My 
understanding is you vocally opposed my amendment. Is that true?
    Answer 1. Senator Burr, you are 100 percent correct in 
characterizing my opposition to the inclusion of the Funding 
Educational Opportunity Act as part of the ESEA reauthorization 
proposal that moved through the Congress last year.
    We both share a commitment to targeting title I funding to 
districts serving the highest concentrations of poor students. The need 
to do this today is as important as it was 50 years ago when President 
Lyndon Johnson, a former schoolteacher, advocated for ESEA to level the 
playing field so disadvantaged students could have the same 
opportunities as their more-advantaged peers. Just like when ESEA was 
enacted into law in 1965, the need to invest resources to meet 
students' needs remains vitally important as today's poor students 
confront an ever-changing world and need extra assistance to help meet 
new and higher standards.
    However, I truly believe that your legislation would not achieve 
its intended goal. Your proposal would have a damaging effect on the 
distribution of title I funds to States and local educational agencies. 
Last year, it was estimated that your proposal would negatively affect 
nearly 10,000 LEAs (or more than 70 percent of all school districts), 
more than half of all eligible low-income children, and 1.9 million 
teachers working in districts receiving title I funds. This does not 
sound like better targeting to me.
    This would occur because your legislation seeks to turn on its face 
the value that a State's average per-pupil expenditure plays in their 
title I allocation. The use of an ``expenditure factor'' in the current 
formula recognizes that there are differences in the cost of operating 
schools in different parts of the Nation, and allows a higher 
allocation in high-cost areas. Your proposal eliminates the expenditure 
factor, which would result in a cut in services for students in high-
cost areas. States that invest significant resources in their education 
system are rewarded and incentivized to do so through the current 
Federal formula. Your legislation would negate that. In addition, 
another part of the title I formula is an ``effort factor'' that looks 
at how much a State spends relative to per capita income (PCI). States 
that spend a high percentage on education relative to PCI are rewarded 
by taking effort into account. Your bill would remove both the State 
average per-pupil expenditure and the effort factor in the title I 
formula. This means that it would hurt both States that spend a lot on 
education and States that have high effort relative to PCI.
    This amendment would have eliminated much of the formula funding 
structure, specifically the PCI provisions and the effort factor that 
still rewards poorer States for showing a willingness to invest in 
education. It would instead reward States that do not invest as much in 
education, in essence taking money from low-income students in one 
State and give it to low-income students in another State. This would 
amount to nothing more than robbing Peter to pay Paul and shows the 
need for additional investment rather than stripping it from some at-
risk children in States that have historically made more of an 
investment in their students. I am pleased that Congress recognized the 
flaws in this proposed methodology and decided not to include it in the 
final version of the Every Student Succeeds Act.
    However, I would note that your efforts to better target the 
distribution of title II funds was successful because it actually 
removed a long-standing hold-harmless provision that was not sensitive 
to the shifting populations and concentrations of poor students. Unlike 
the changes you sought in title I, this change will actually lead to 
the better targeting of Federal funds to disadvantaged students, and I 
congratulate you on this accomplishment.

    Question 2. You also noted that a targeted title I formula should 
fund low-income schools, such as Clara Barton High School, while 
lessening funding for wealthier schools, such as Scarsdale High School 
because, as you noted, Scarsdale is ``well-funded.'' As you might know, 
Scarsdale's school district receives about $95,000 in title I dollars, 
despite a $150 million annual operating budget. My amendment attempted 
to do something akin to the concept you articulated by redirecting 
funds from higher wealth districts to the most impoverished across our 
Nation. Ninety-five thousand title I dollars could go a lot further in 
high-poverty districts in other parts of the country, such as Charlotte 
Mecklenburg Schools.
    Given that we seem to share similar goals on this matter and that 
increasing title I's overall appropriation alone cannot fully address 
these inequities, can you share your plan for making title I's formula 
itself--not just more funding--more equitable through targeting 
poverty?
    Answer 2. Senator, we are in agreement that we should focus on the 
schools and districts that have high concentrations of poverty. The 
provision in your legislation that implemented a minimum poverty rate 
threshold for school districts that could benefit from higher weights 
based on their numbers of formula children was laudable. Unfortunately, 
there were other provisions in the legislation (as I discussed in my 
response to Question 1) that eliminated the targeting benefits that the 
current formula provides to school districts today.
                            senator collins
    Question 1. During the reauthorization process, I worked with the 
junior Senator from Vermont and others to develop and improve an 
innovative assessment pilot program to give States and school districts 
the opportunity to move away from standardized tests and toward 
assessments that can measure learning competency and proficiency in 
innovate ways. This pilot program is one way to address concerns about 
over testing and could support those States, like Maine and others, 
that want to focus on what students are learning and how well they are 
applying that knowledge, not just how well they can take a test.
    How do you recommend that the Department implement this program, so 
that it maintains the flexibility Congress intended to foster 
innovation around assessments?
    Answer 1. The AFT views the assessment pilot as a crucial component 
of ESSA and worked hard to have it included in the final bill 
eventually signed into law. As we've seen with the supplement-not-
supplant and accountability regulations proposed by the Department of 
Education, details and intent are crucial. The Department must respect 
the underlying goal of ESSA's assessment pilot language, which is to 
allow States the opportunity to develop alternatives to the ``drill-
and-kill'' testing regime NCLB has created. In practice, this means the 
Department should quickly establish the pilot program to allow States 
to get their innovative assessment systems up and running. It should 
also operate in the spirit of the law and exercise maximum flexibility 
in ensuring that a variety of innovative assessment systems be granted 
the waivers. In particular, the assessment system managed by the New 
York Performance Standards Consortium, with its decadeslong track 
record of effectively serving a diverse population, should be upheld as 
a model that can assist States in developing high-quality applications.

    Question 2. During Secretary King's confirmation hearing, I asked 
for his assurance that the Department would engage rural communities in 
its ESSA implementation processes. For example, I was alarmed that the 
Department held its initial public listening sessions in DC and Los 
Angeles. Rural districts also seem to have been underrepresented on the 
committee of negotiators selected for the negotiated rulemaking.
    It's vital that rural communities and rural educators have a seat 
at the table. What should the Department be doing to ensure rural 
communities are represented in its rulemaking?
    In your States, what are you doing, as stakeholders, to ensure 
rural voices are heard in your State and local planning efforts?
    Answer 2. Senator Collins, thank you for this question. The AFT is 
committed to making sure that all stakeholders have a voice in how ESSA 
is implemented, and that includes all educators working in urban, 
suburban or rural communities. One example of how the AFT has engaged 
with rural communities is our work in West Virginia.
    For more than 4 years, the AFT has guided the efforts of a public-
private partnership to bring much-needed resources and services to 
McDowell County, WV, a geographically isolated area in the heart of 
Appalachia whose educators are AFT members. Known as Reconnecting 
McDowell, the initiative has encouraged a renewed emphasis on improving 
the county's schools by focusing on mentoring students and establishing 
community schools.
    Some of the efforts that have begun to yield positive results in 
student achievement include providing thousands of books to replenish 
the book inventories at the seven literacy centers that were opened by 
Reconnecting McDowell throughout the county; establishing a new program 
starting in the fall that will put books on school buses so elementary 
school-age kids can read during their long rides to and from school; 
clearing the way for construction of Renaissance Village, an apartment 
building primarily intended as housing to help recruit and retain 
teachers; and creating community schools with healthcare, mental and 
oral health services, food programs and other wraparound services that 
the community determined were needed for students and their families.
    It's clear that rural educators may face unique challenges in 
helping their students succeed, and we support efforts to allow their 
voice to be heard during ESSA decisionmaking. Scheduling--time and 
location--of stakeholder meetings matters in order to make these 
meetings accessible to all educators, as does the appropriate use of 
technology. We also encourage the Department of Education to make use 
of the input of teacher unions, which are composed of the educators who 
will directly feel the impact of decisions relating to ESSA 
implementation.
                            senator sanders
    Question 1. We must do everything that we can to ensure that every 
child--regardless of her or his circumstances--has access to a high-
quality education. We know that a high-quality education is a resource-
intensive endeavor. We also know that disadvantaged children need 
additional resources to combat the ravages of poverty and 
discrimination. The Elementary and Secondary Education Act (ESEA) of 
1965 marked the beginning of a strong role for the Federal Government 
in combating inequities on both fronts. Clearly, there is much more 
work that must be done.
    A key component of the Federal Government's role in education is 
ensuring that our schools have the additional resources needed to 
ensure that every child can reach her or his full potential. Today, 
over half of all public school children come from low-income families. 
Examining the most recent data available, there is clearly an increased 
need, as well as a lack of sufficient Federal resources to meet this 
need (figure 1). Between school year 2004-5 and school year 2013-14 we 
have seen a 32 percent increase in children eligible for free or 
reduced lunch--an increase of over 6 million children.
    Yet the main source of Federal funding for public schools serving 
low-income children--Title I-A of ESEA--has not only not failed to keep 
pace with the reality that our public schools are serving more low-
income children than a decade ago, funding has not even kept up with 
inflation. Real title I-A funding is down 6 percent since fiscal year 
2005 while the percentage of low-income kids in public schools has 
increased by 32 percent over the same time period. If at a bare minimum 
title-I-A funding had kept pace with inflation since fiscal year 2005, 
appropriations for title-I-A would have been $15.2 billion in fiscal 
year 2014 instead of $14.4 billion--a difference of nearly a billion 
dollars. Furthermore, if title I-A funding had kept pace with both 
inflation and the growing number of children coming from low-income 
families since fiscal year 2005, title-I-A funding would have hit $20.2 
billion in fiscal year 2014, a gap of over $5.5 billion when 
considering reality versus actual funding (figure 2).
    Ms. Weingarten, can you please speak to the importance of Federal 
education funding meeting the increased needs of our public schools? 
Beyond a dramatic increase to title-I-A funding, what other funding 
streams within ESEA and in other Federal programs require an increase 
to meet the realities of today's public schools?
    Answer 1. Senator Sanders, I couldn't agree with you more about the 
need to provide adequate support for students, especially vulnerable 
populations. Funding for education is an investment in the future of 
our individual students and our Nation as a whole. As the country 
continues its recovery from lingering effects of the Great Recession, 
as our student body grows more diverse, and as we work to implement the 
new provisions of the Every Student Succeeds Act, the Federal role in 
supporting schools is extremely important.
    The NCLB system of test-and-punish offered neither the time nor the 
tools for educators to teach and provide the supports all students need 
to succeed. Title I funding is foundational to that effort and to 
supporting Congress' historic commitment to target Federal resources 
where there are concentrations of students in poverty. With half our 
kids in public schools coming from poverty, it's vital to increase 
title I funding so that resources are available to the students who 
need it most.
    But as you point out, there are many pieces of the Federal funding 
puzzle that affect our students. It is difficult for children to learn 
if they are hungry, or don't have adequate healthcare, or don't have 
clean, safe water to drink. Federal funds in these areas are necessary 
investments for our students to succeed. Congress has never provided 
the promised level of funding for the Individuals with Disabilities 
Education Act to help our special education students get the services 
they are entitled to and deserve. For our students, and our country, to 
succeed, it is imperative to ensure robust support for providing all 
children a strong start through early education such as Head Start and 
pre-K; for ESSA Title II to provide teachers the tools, time, and 
leadership opportunities they need to help our children succeed; for 
ESSA Title III to meet the needs of our country's growing English 
language learner population; and for ESSA Title IV, which supports a 
well-rounded education and supportive, holistic school intervention 
strategies such as community schools.

    Question 2. I am very concerned that our schools and communities 
are dealing with a surge of students exposed to multiple adverse 
experiences and are not equipped with the resources, training, and 
support to accommodate this crisis.
    According to the national Adverse Childhood Experience Study, over 
half of those surveyed reported at least one form of childhood 
adversity. Shockingly, two in three children in our Nation--46 million 
children--are exposed to violence, crime, abuse, or psychological 
trauma a year. In Vermont, over 20 percent of children have had two or 
more adverse experiences, which include traumatic events like living in 
chronic poverty, living with someone with a substance abuse problem, 
experiencing community or family violence, and more. Even more alarming 
is the fact that our youngest citizens and their parents are at the 
forefront of this crisis. Since 2014, the Department for Children and 
Families in Vermont has seen a 33 percent increase of children in State 
custody with children under the age of six making up more than two-
thirds of this increase. Further, similar to nationwide trends, over 40 
percent of children come from low-income families in my home State, 
with young children the most likely of any age group to be poor.
    Ms. Weingarten, what can the Department of Education do to help 
schools, educators, and communities be prepared to deliver trauma-
informed approaches to education when implementing the Every Student 
Succeeds Act (ESSA)? Additionally, what can the Department of Education 
do to ensure that educators teaching in environments where a large 
percentage of students have had adverse childhood experiences (ACEs) 
have the support and the self-care they need to succeed? Furthermore, 
what policies should Congress enact to help communities combat these 
challenges and attack the root causes--like poverty, exposure to 
violence and substance abuse--driving these adverse experiences? How 
would increased Federal investments in child care, preschool, maternal 
and child home visiting, before-school, afterschool, and summer 
programming, nutritional supports, wrap-around services for schools and 
more help to fight this crisis? Likewise, how would raising the Federal 
minimum wage, addressing under-employment and unemployment, 
implementing paid family leave, and enacting universal health care 
coverage help attack the root causes of these adverse experiences?
    As national education leaders, what plans are your organizations 
making to work with States to ensure that their schools and 
practitioners have trauma-informed approached to education? How will 
you make States and school districts aware of opportunities under ESSA 
to create trauma-informed environments?
    Answer 2. Research shows that two-thirds of what affects student 
achievement occurs outside of the classroom. When this fact is placed 
in the context of half of all public school students living in poverty, 
it is not surprising that schools have become much more than education 
institutions. Teachers, paraprofessionals, nurses, counselors and other 
members of the school team try to meet student needs that are caused by 
poverty. When poverty is combined with additional traumatic 
experiences, educators and schools are pushed over the brink and are 
often challenged to do anything beyond responding to immediate crises.
    While these challenges have long been known, the Federal Government 
has sought to maintain an educational accountability system that 
ignores the impact of ``adverse experiences.'' It is crucial to address 
poverty and trauma if the country wishes to have strong educational and 
economic outputs. This means increasing revenue so the Nation can 
provide services and supports to all who need them, including: free/
low-cost child care and preschool; maternal and child home visitation 
programs; high-quality before- and after-school programs; effective 
apprenticeship programs; access to affordable higher education; a 
livable minimum wage; investment in the Nation's infrastructure, 
schools and struggling communities to provide well-paying jobs; and 
ensuring that pharmaceutical and other healthcare costs do not bankrupt 
families.
    More specifically, the AFT has found that community schools are an 
effective strategy that can be used to address the ``multiple adverse 
experiences'' described in your question. The Department can work to 
ensure that it supports the community school model under Title IV of 
ESSA, highlight the ability of schools to use title I funds to provide 
wraparound services where they are absent, circulate the Department of 
Health and Human Services' 2014 letter stating that schools may seek 
reimbursement from Medicaid for the provision of health services, and 
develop regulations and guidance that encourage States to incorporate 
measures of student well-being into their accountability systems. 
Regarding the last point, the AFT is offering a framework of indicators 
beyond test scores for school quality and student success that 
stakeholders can consider in designing accountability systems. This 
framework includes academic outcomes such as measures of students 
participating in and completing advanced coursework or career and 
technical education courses, measures that gauge students' opportunity 
to learn such as access to safe and adequate facilities, and measures 
of students' engagement and support such as chronic absenteeism. This 
framework is available at: http://dbweb01.aft.org/sites/default/files/
essa_new-accountability032116.pdf.
    The AFT is working to make sure our affiliates are aware of the 
positive potential ESSA represents and is encouraging our locals to be 
involved in the implementation process. The AFT has also developed 
guides to help educators support students threatened by Immigration and 
Customs Enforcement raids, assisted educators in addressing gun 
violence across the country after the mass murder of elementary 
students and educators in Newtown, CT, and convened a task force to 
address issues of racial bias. The task force produced a report titled 
``Reclaiming the Promise of Racial Equity: In Education, Economics and 
Our Criminal Justice System,'' which provides a framework for the 
development of policy in national and State legislation, at the school 
board level and inside the AFT itself. The report can be found at: 
http://www.aft.org/news/aft-issues-groundbreaking-report-racial-
equity#sthash.qlsHHuOd.dpuf.

    Question 3. Yesterday, on the 62d anniversary of the Brown v. Board 
decision, the Government Accountability Office (GAO) released a report 
confirming what educators, families, students, and community 
stakeholders have been telling us anecdotally for some time--our public 
schools are becoming more segregated by both race and family income.
    The number of schools that are doubly segregated by both race and 
income--where 75 percent or more of the kids at these schools come from 
low-income families and are black or Hispanic--has increased from 9 
percent of all public schools in school year 2000-2001 to 16 percent of 
all public schools in school year 2013-14. Additionally, today, nearly 
one in five public students attend these doubly segregated public 
schools--more than double the amount of kids who attended these schools 
almost 15 years ago. Furthermore, Hispanic children are often triply 
segregated by race, family income, and native language. Shamefully, 
nearly two-thirds--61 percent--of all high-poverty schools are schools 
where over 75 percent or more of the children are black and Hispanic.
    Segregation and isolation by race and income in our public school 
is an alarming phenomenon on its own. Even more troubling is that the 
fact that these doubly segregated schools are not offering students a 
comparable education to non-segregated schools and schools at the other 
end of the spectrum that are wealthy and predominately white. The GAO 
report uncovers that these doubly segregated schools have fewer 
resources, do not offer the full range of core courses like math and 
science, offer less advanced coursework, and have disproportionately 
more disciplinary actions than other public schools.
    I'd like to ask this entire panel--what can the Federal Government 
do to reverse this troubling trend of segregation by race and income, 
and ensure an equal and adequate education for all children? Please 
feel free to expound on reforms within education and greater system 
wide changes including housing, transportation, jobs, and more. 
Additionally, through the implementation of the Every Student Succeeds 
Act (ESSA) what can the Department of Education do to make States and 
school districts aware of opportunities within this new law to increase 
racial and socioeconomic diversity in our schools?
    Relatedly, Ms. Eskelsen Garcia, Ms. Marshall, Ms. Murguia, and Ms. 
Weingarten, ESSA provides States and local school districts more 
autonomy to make key educational decisions. What are your 
organizations' plans to make States and local school districts aware of 
opportunities to increase diversity under this new law? Additionally, 
what other tools or resources do States and communities need to tackle 
the difficult task of diversify our schools are providing equal and 
adequate education for all students?
    Answer 3. The AFT will continue to be committed to informing its 
members, parents, students and the public of the scope and impact of 
segregation, desegregation and resegregation across the Nation and take 
the appropriate actions to publicize, promote and motivate the 
unfulfilled goal of the integration of our public schools.
    We recently commemorated the 62d anniversary of the Brown v. Board 
decision, and data show that America's schools are resegregating at an 
alarming rate. It is clear that, as a Nation, we have failed to carry 
out our moral and legal duty to ensure that educational opportunity is 
``available to all on equal terms.''
    The fight for all children to have access to an excellent education 
is the Brown decision's legacy. It requires a focus on equitable access 
and resources, evidence of effectiveness, and scaling and sustaining 
successful practices. One way that some school districts and States 
have addressed this in recent years--including my hometown district, 
New York City, led by Mayor de Blasio--is by providing high-quality 
early childhood education.
    Decades of research show that early childhood education can produce 
significant educational and economic benefits. Such programs help level 
the playing field for disadvantaged children, a particular concern in 
districts with concentrated poverty and deep segregation.
    Another way to overcome segregation and poverty is through 
community schools. In the Cincinnati Public Schools district, every 
public school is a community learning center offering supports ranging 
from healthcare, to legal and housing assistance, to mentoring. 
Cincinnati's successful community schools approach demonstrates that 
while poverty matters in education, its effects can be mitigated. Ten 
years ago, one of every two students in this high-poverty district did 
not complete high school. Today, the graduation rate has surged to 80 
percent. Achievement gaps between African American and white students 
are narrowing. Student mobility, which can be so disruptive to a 
child's education, is down. And discipline referrals have dropped 
sharply--keeping students in school, keeping them learning.
    Through ESSA, this Congress and the Department of Education can 
significantly invest in early childhood education and community 
schools, programs that fight poverty and enable economic and racial 
integration.
    Additionally, through greater investments in title I, the AFT 
believes that American students and schools will benefit. ESSA 
continues important equity safeguards so States cannot deny 
disadvantaged children the additional funding that the Federal 
Government has provided to level the playing field. Starting with ESSA 
and continuing with some of the efforts outlined above, the Federal 
Government can play a vital role in ensuring that all American students 
enjoy the benefits of diversity and experience the joy that comes from 
learning in an invigorating, inspiring and inclusive integrated 
environment.

    Question 4. The Every Student Succeeds Act (ESSA) rightly moves 
away from the blame and shame approach of the No Child Left Behind 
(NCLB) Act. In crafting this new law, Congress listened to educators, 
parents, students, stakeholders, and communities, who spoke out loudly 
and clearly that schools and students are more than a test score. That 
is why ESSA uses multiple measures to examine the success of our 
schools and students.
    Ms. Weingarten, as we move toward implementation of this new law, 
can you speak to the importance of using multiple measures and not just 
test scores in determining how well our schools and students are doing? 
Furthermore, as States begin to plan new accountability systems under 
ESSA, what recommendations do you have? What indicators of school 
quality and student success should States think about including in 
their accountability system?
    Answer 4. Under NCLB, our public schools were subject to a test-
and-punish accountability system that not only impeded learning but 
also led to unintended consequences. This system discouraged 
educational innovation, demoralized teachers, narrowed instruction and, 
most important, failed to address the needs of children, particularly 
the most disadvantaged. The passage of the Every Student Succeeds Act 
provides an opportunity for us to replace this faulty system with a new 
paradigm for accountability, one that supports deeper levels of 
learning for all students and one that incorporates measures beyond 
test scores.
    The AFT encourages States to meaningfully engage with their 
stakeholders--including educators, parents and community members--as to 
what they value in their children's school. The AFT is offering a 
framework of indicators beyond test scores for school quality and 
student success that stakeholders can consider in designing 
accountability systems. This framework includes academic outcomes, such 
as measures of students participating in and completing advanced 
coursework or career and technical education courses; measures that 
gauge students' opportunity to learn, such as access to safe and 
adequate facilities; and measures of students' engagement and support, 
such as chronic absenteeism. This framework is available at: http://
dbweb01.aft.org/sites/default/files/essa_new-accountability032116.pdf.
                           senator whitehouse
    Question 1. ESSA is a relief to many, especially in Rhode Island. 
Everyone who I've talked to is very excited about this bipartisan bill 
and the opportunities it presents.
    I am concerned about the supplement, not supplant issue. Many of 
you have said that ED's proposed regulations on ``supplement, not 
supplant'' are an overreach. But I am also aware of many inequities 
that exist in local and State funding for education.
    Absolutely no one wants to see Federal money come in and provide an 
excuse to send other funding into wealthier, well-connected school 
districts and have title I fill the gap.
    I've heard from many about the problems with ED's draft proposal. 
My question is not what are the problems, but what should ED do 
instead? That is, what would you affirmatively propose to ensure that 
title I funds are supplemental and not supplanting State and local 
funds?
    Answer 1. Thank you for this question. What is absolutely essential 
is that we do not put in place rules that exacerbate inequitable school 
funding or that disrupt schools that are stable places in their 
communities for students and their families. Unfortunately, having 
witnessed many school funding scenarios during my time in New York 
City, and having watched closely and participated in the recent debate 
over supplement-not-supplant regulations, I see few good ways of 
mandating supplement-not-supplant methodologies at the Federal level 
without leveling down funding for some schools, thus destabilizing such 
schools.
    I am very willing to consider supplement-not-supplant proposals 
that give school systems time to level up funding so that they can 
ensure that resources--including but not limited to wraparound 
services, staffing, facilities and supplies--are provided to schools 
that are currently receiving less than their fair share. But this must 
be done without taking away such funding from schools that are just 
getting enough to maintain the services, staffing and supports they are 
providing students. Such a proposal must also protect students from 
having the staff at their schools move from year to year so that 
districts can balance funding allotments between schools, because a 
stable workforce with familiar faces from year to year is exactly what 
many of our most vulnerable students desperately need.

    Question 2. Under NCLB and the Obama administration's waivers, I 
consistently heard from Rhode Island teachers and principals that they 
could achieve better results if not for the layers of bureaucracy 
stifling innovation at multiple levels.
    I am very pleased that ESSA is a step away from that one-size-fits-
all, overly prescriptive posture. You have all heard me talk about the 
provisions I fought for in ESSA--requiring States to describe how they 
will encourage opportunities for increased autonomy and flexibility.
    I am concerned because I do not want to see ED use the regulatory 
process to grab back the control that ESSA intended to push down to the 
State and local level. What could ED do on the supplement, not supplant 
issue that would support greater innovation at the local level?
    Answer 2. ESSA's predecessor, the No Child Left Behind Act, was in 
place for more than 14 years. One lesson this Congress and this 
administration can take from that is that it should not put in place 
overly prescriptive rules that stifle innovation now and in the future. 
We don't know what schooling in 2026 or 2030 is going to look like, so 
this administration has a responsibility to not require box checking 
and dollar-for-dollar comparisons that can't take into account how 
education will evolve over the next decade-plus.
    Affirmatively, one thing that the Education Department can do is 
encourage States and districts to fund initiatives like early childhood 
education, community schools and wraparound services at schools serving 
students in poverty. Such programs are rarely inexpensive, but research 
shows that they are exactly the investments needed to combat the 
effects of poverty, increase student learning and address the needs of 
the whole child.

  Response by Tony Evers, Ph.D. to Questions of Senator Enzi, Senator 
            Collins, Senator Sanders, and Senator Whitehouse

                              senator enzi
    Question 1. Dr. Evers, as a State Education Chief, what has been 
the response of your rural districts as to the ``supplement, not 
supplant'' proposal you saw during the negotiated rulemaking session 
and how it will affect them, especially with the knowledge that it 
could cause the forced transfer of teachers?
    Answer 1. All school districts are wondering what direction the 
supplement, not supplant (SnS) rules will take when they are put out 
for public comment. There is great concern from both rural and urban 
school districts with the proposal the Department of Education (ED) 
presented in the negotiated rulemaking session earlier this year. 
Concerns range from the amount of administrative reporting that would 
be created, and add onto already full plates, to the impact this could 
have on teacher assignments, teacher pay, and programs offered to 
students. The initial proposal seems predicated on a premise that 
school districts will be able to spend more to ensure compliance, when 
in reality our school districts are stretched thin in terms of 
resources and reallocation of those resources is the most likely 
response to come into compliance.

    Question 2. Dr. Evers, I'm an accountant by trade. I know that 
reporting school level expenditures by specific funding source is not 
supported by the fiscal data systems used by schools in Wyoming and 
would cause significant changes in order to comply. Can you talk about 
what feedback you received, after viewing the ``supplement, not 
supplant'' proposal during the negotiated rulemaking panel, from your 
data team as to the size of the changes that would be necessary if such 
a change were to be put into place?
    Answer 2. For many school districts across the country, ED's 
supplement, not supplant proposal would require fundamental change from 
current practice. For example, under ED's negotiated rulemaking 
proposal, school districts would be required to account for district-
wide costs and services on a per-school basis. In general, these type 
of services are provided on a district-wide basis and aren't presently 
accounted for on a school-by-school basis. For example, if a district 
provides district-wide professional development opportunities for its 
teachers, systems presently treat this as a district-wide expenditure, 
and not a school-by-school expenditure. In addition, districts often 
fund schools on a position-by-position (rather than per-pupil) basis, 
and the proposal would force them to create accounting systems that 
measure costs on a per-pupil basis.
    In terms of the size of the change needed to implement this 
different type of accounting system, it would largely depend on what 
services a given district might provide district-wide and the structure 
of their existing accounting systems along with State-level reporting 
and data collection requirements. In Wisconsin, this would involve 
significant new data collections at the State level that we would have 
to build into our existing school finance system. At the State level 
Wisconsin does not collect school building-level finance data. We do 
not know all that would be required of us at the moment to do so, but 
given the timelines involved, it will be difficult to impossible for us 
to build these systems and have them up and running for the next school 
year so they can be reported out in 2017-18.
                            senator collins
    Question. During Secretary King's confirmation hearing, I asked for 
his assurance that the Department would engage rural communities in its 
ESSA implementation processes. For example, I was alarmed that the 
Department held its initial public listening sessions in DC and Los 
Angeles. Rural districts also seem to have been underrepresented on the 
committee of negotiators selected for the negotiated rulemaking.
    It's vital that rural communities and rural educators have a seat 
at the table. What should the Department be doing to ensure rural 
communities are represented in its rulemaking?
    In your States, what are you doing, as stakeholders, to ensure 
rural voices are heard in your State and local planning efforts?
    Answer. As States, we work hard to represent all of our 
constituencies. As State Superintendent, CCSSO President, and a member 
of the negotiated rulemaking committee, I worked to represent the 
interests of my State, which includes many rural schools, as well as 
those of other chief State school officers who share both rural and 
urban concerns.
    In Wisconsin a quarter of our 424 school districts have fewer than 
500 students and we have set up a significant process to solicit 
feedback on ESSA from across our State, including rural schools and 
communities.
    As we begin our planning efforts around ESSA, we are ensuring that 
at least one of our three school improvement and accountability 
listening sessions is located in northern Wisconsin to reach more rural 
communities. We sent special invitations to rural groups and school 
districts to participate in listening sessions. Wisconsin is also 
hosting a virtual listening session and an online feedback form to 
ensure that distance is not a barrier to providing input. Additionally, 
we will be soliciting feedback from the State Superintendent's Rural 
Advisory Council and the Wisconsin Rural Schools Alliance.
                            senator sanders
    Question 1. We must do everything that we can to ensure that every 
child--regardless of her or his circumstances--has access to a high-
quality education. We know that a high-quality education is a resource-
intensive endeavor. We also know that disadvantaged children need 
additional resources to combat the ravages of poverty and 
discrimination. The Elementary and Secondary Education Act (ESEA) of 
1965 marked the beginning of a strong role for the Federal Government 
in combating inequities on both fronts. Clearly, there is much more 
work that must be done.
    A key component of the Federal Government's role in education is 
ensuring that our schools have the additional resources needed to 
ensure that every child can reach her or his full potential. Today, 
over half of all public school children come from low-income families. 
Examining the most recent data available, there is clearly an increased 
need, as well as a lack of sufficient Federal resources to meet this 
need (figure 1). Between school year 2004-5 and school year 2013-14 we 
have seen a 32 percent increase in children eligible for free or 
reduced lunch--an increase of over 6 million children.
    Yet the main source of Federal funding for public schools serving 
low-income children--Title I-A of ESEA--has not only not failed to keep 
pace with the reality that our public schools are serving more low-
income children than a decade ago, funding has not even kept up with 
inflation. Real title I-A funding is down 6 percent since fiscal year 
2005 while the percentage of low-income kids in public schools has 
increased by 32 percent over the same time period. If at a bare minimum 
title-I-A funding had kept pace with inflation since fiscal year 2005, 
appropriations for title-I-A would have been $15.2 billion in fiscal 
year 2014 instead of $14.4 billion--a difference of nearly a billion 
dollars. Furthermore, if title I-A funding had kept pace with both 
inflation and the growing number of children coming from low-income 
families since fiscal year 2005, title-I-A funding would have hit $20.2 
billion in fiscal year 2014, a gap of over $5.5 billion when 
considering reality versus actual funding (figure 2).
    Dr. Evers, can you please speak to the importance of Federal 
education funding meeting the increased needs of our public schools? 
Beyond a dramatic increase to title-I-A funding, what other funding 
streams within ESEA and in other Federal programs require an increase 
to meet the realities of today's public schools?
    Answer 1. Funding matters at both the State and Federal level. In 
Wisconsin, this is enshrined in our State constitution which states in 
Article X, Section 3 that ``The legislature shall provide by law for 
the establishment of district schools, which shall be as nearly uniform 
as practicable . . .'' It is our responsibility to ensure that all 
children graduate college and career ready. Yet, all children do not 
come to us with equal needs or equally prepared. In this regard, 
Federal support for public education is critical to State and local 
efforts to provide all children--regardless of socioeconomic 
background--with a high quality education.
    The Every Student Succeeds Act (ESSA), which reauthorizes the 
Elementary and Secondary Education Act (ESEA), authorizes essential 
funding that will allow States to support school improvement, help 
recruit and train high-quality teachers, principals, and other school 
leaders, address the needs of students who face specific barriers to 
learning, and pursue innovations to improve the delivery of 
programming; together, these efforts should expand educational 
opportunity for all students, including those from low-income 
backgrounds.
    Yet ESSA is part, but not the whole picture when it comes to 
important Federal supports. For instance, I would point out that the 
Individuals with Disabilities Education Act (IDEA) is critically 
underfunded; we need fewer children coming to school hungry so 
reimbursements for school breakfast, lunch, and community nutrition 
programs are important; we need more dollars for mental health services 
in schools; and we need universal quality pre-kindergarten programs.
    While adequate funding is, obviously, tremendously important, it is 
equally important that Federal administrators maintain the flexibility 
embodied in ESSA--empowering States and local districts to use 
available funding effectively and efficiently to address the needs of 
their unique student populations. When it comes to deciding how to 
leverage Federal funding, State and local officials and educators have 
a critical role to play in identifying or developing strategies that 
will be effective for their schools and students.
    Finally, I should note that there is a wide variance among 
Wisconsin school districts in the share of their budgets that are from 
Federal sources. In the 2014-15 school year, while Federal revenues 
represented 7.5 percent of all revenues received by school districts on 
a statewide basis in Wisconsin, they were 41 percent of all revenues 
(Federal, State, property taxes, and other local receipts) received by 
the Lac du Flambeau School District and only 1.3 percent of the total 
revenues received by the Central Westosha School District. In short, 
Federal funding issues and requirements related to their receipt affect 
different school districts differently.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 2. I am very concerned that our schools and communities 
are dealing with a surge of students exposed to multiple adverse 
experiences and are not equipped with the resources, training, and 
support to accommodate this crisis.
    According to the national Adverse Childhood Experience Study, over 
half of those surveyed reported at least one form of childhood 
adversity. Shockingly, two in three children in our Nation--46 million 
children--are exposed to violence, crime, abuse, or psychological 
trauma a year. In Vermont, over 20 percent of children have had two or 
more adverse experiences, which include traumatic events like living in 
chronic poverty, living with someone with a substance abuse problem, 
experiencing community or family violence, and more. Even more alarming 
is the fact that our youngest citizens and their parents are at the 
forefront of this crisis. Since 2014, the Department for Children and 
Families in Vermont has seen a 33 percent increase of children in State 
custody with children under the age of six making up more than two-
thirds of this increase. Further, similar to nationwide trends, over 40 
percent of children come from low-income families in my home State, 
with young children the most likely of any age group to be poor.
    Dr. Evers, what can the Department of Education do to help schools, 
educators, and communities be prepared to deliver trauma-informed 
approaches to education when implementing the Every Student Succeeds 
Act (ESSA)? Additionally, what can the Department of Education do to 
ensure that educators teaching in environments where a large percentage 
of students have had adverse childhood experiences (ACEs) have the 
support and the self-care they need to succeed? Furthermore, what 
policies should Congress enact to help communities combat these 
challenges and attack the root causes--like poverty, exposure to 
violence and substance abuse--driving these adverse experiences? How 
would increased Federal investments in child care, preschool, maternal 
and child home visiting, before-school, afterschool, and summer 
programming, nutritional supports, wrap-around services for schools and 
more help to fight this crisis? Likewise, how would raising the Federal 
minimum wage, addressing under-employment and unemployment, 
implementing paid family leave, and enacting universal health care 
coverage help attack the root causes of these adverse experiences?
    As national education leaders, what plans are your organizations 
making to work with States to ensure that their schools and 
practitioners have trauma-informed approaches to education? How will 
you make States and school districts aware of opportunities under ESSA 
to create trauma-informed environments?
    Answer 2. Far too many children face challenges--including poverty, 
hunger, exposure to violence, lack of reliable healthcare, and other 
sources of trauma--that make it extremely difficult for them to learn 
when they come to school. In this context, our education system cannot 
exist in isolation. States understand the importance of being 
intentional and strategic to ensure that our education system works in 
close coordination with other systems that help address the day-to-day 
challenges faced by children and families.
    While States would welcome increased Federal funding for programs 
that address the needs of students living in poverty and other students 
exposed to adverse experiences, ensuring flexibility for States, 
districts, and schools in the use of Federal education funding is also 
important to supporting the development of a more integrated system 
that puts students in the best position to learn when they come to 
school. It is essential the Federal rules allow States and districts 
the discretion to allocate funding in ways that effectively address the 
unique challenges faced by their students, including, but not limited 
to, providing professional development on trauma-informed responses to 
educators.
    ESSA emphasizes the need for comprehensive supports for students, 
and States are prepared to tackle this challenge. Now, it is important 
that States and districts are empowered to utilize Federal funding to 
create responsive, effective systems. It is also important that we work 
with our national organizations and the Department of Education to 
ensure that we are sharing best practices as to what is working in our 
States and why.
    In Wisconsin, we have undertaken a number of steps to help school 
districts and provide an integrated approach to care.

    <bullet> Wisconsin provides access to training and supports around 
Trauma Sensitive Schools/Practices (TSS)--Wisconsin's TSS resources and 
online learning modules are examples, as are our professional 
development resources for training and technical assistance.
    <bullet> Wisconsin has developed a school mental health framework 
that provides guidance to build and strengthen a comprehensive school 
mental health system.
    <bullet> We have made investments in resources, training, and 
implementation supports for Social Emotional Learning (SEL) 
competencies, especially at the early childhood and preschool levels. 
SEL programs implemented by school staff members (e.g., teachers, 
student support personnel) improve children's behavior, attitudes 
toward school, and levels of academic achievement (CASEL, 2008).
    <bullet> We have developed statewide Response to Intervention and 
Positive Behavioral Intervention and Supports centers to help increase 
academic performance, improve safety and establish a positive school 
culture.

    Question 3. Yesterday, on the 62d anniversary of the Brown v. Board 
decision, the Government Accountability Office (GAO) released a report 
confirming what educators, families, students, and community 
stakeholders have been telling us anecdotally for some time--our public 
schools are becoming more segregated by both race and family income.
    The number of schools that are doubly segregated by both race and 
income--where 75 percent or more of the kids at these schools come from 
low-income families and are black or Hispanic--has increased from 9 
percent of all public schools in school year 2000-2001 to 16 percent of 
all public schools in school year 2013-14. Additionally, today, nearly 
one in five public students attend these doubly segregated public 
schools--more than double the amount of kids who attended these schools 
almost 15 years ago. Furthermore, Hispanic children are often triply 
segregated by race, family income, and native language. Shamefully, 
nearly two-thirds--61 percent--of all high-poverty schools are schools 
where over 75 percent or more of the children are black and Hispanic.
    Segregation and isolation by race and income in our public school 
is an alarming phenomenon on its own. Even more troubling is the fact 
that these doubly segregated schools are not offering students a 
comparable education to non-segregated schools and schools at the other 
end of the spectrum that are wealthy and predominately white. The GAO 
report uncovers that these doubly segregated schools have fewer 
resources, do not offer the full range of core courses like math and 
science, offer less advanced coursework, and have disproportionately 
more disciplinary actions than other public schools.
    I'd like to ask this entire panel--what can the Federal Government 
do to reverse this troubling trend of segregation by race and income, 
and ensure an equal and adequate education for all children? Please 
feel free to expound on reforms within education and greater system 
wide changes including housing, transportation, jobs, and more. 
Additionally, through the implementation of the Every Student Succeeds 
Act (ESSA) what can the Department of Education do to make States and 
school districts aware of opportunities within this new law to increase 
racial and socioeconomic diversity in our schools?
    Answer 3. ESEA is, fundamentally, a civil rights law; one of its 
core tenets is ensuring that every child--regardless of race or 
income--has the opportunity to get a high-quality education.
    It was introduced as part of President Lyndon B. Johnson's War on 
Poverty and on the occasion of its signing, President Johnson stated, 
``By passing this bill, we bridge the gap between helplessness and hope 
for more than five million educationally deprived children.''
    President Johnson's words cannot be just an aspirational statement. 
Ensuring a quality education where every student graduates college- and 
career-ready is critical to fulfilling the original promise of ESEA. I 
am not proud of the fact that Wisconsin has one of the largest 
achievement gaps between African American students and their peers. I 
have taken active steps to address our gaps by providing intensive 
supports to school districts, identifying key issues through our State 
educator equity plan regarding the qualifications of educators teaching 
our students, and convened a task force to provide best practices that 
can be used in the classroom to address achievement gaps. I have also 
made closing gaps and equity my priority as President of the Chief 
Council of State School Officers.
    I know I am not alone in working to address this issue. All States 
have significant work to do. It is work that transcends education and 
calls for an examination of other policies surrounding housing, 
transportation, and economic development that result in concentrations 
of poverty that are reflected in our local schools.
    ESSA helps us address this concentration in the law's pointed 
references to the importance of ensuring that low-income and minority 
students are afforded the same educational opportunities as their peers 
and requirements for stakeholder consultation. A good example of how 
concrete policy solutions must be offered at the State and local level 
can be found in ESSA's requirement for States to describe, as part of 
their title I State plans, ``how low-income and minority children . . . 
are not served at disproportionate rates by ineffective, out-of-field, 
or inexperienced teachers.'' Local school districts are also required 
to address the findings. States take the responsibility for ensuring 
equitable educational opportunity seriously and will work with school 
districts and other stakeholders to that end.
    At the same time, the Department of Education has an important role 
to play in ensuring that States and districts remain within the strong 
Federal guardrails included in ESSA, while still maintaining State and 
local flexibility to innovate and share effective and evidence-based 
practices. As I noted in earlier testimony before this committee, in 
States like Wisconsin we welcome Federal oversight of the progress we 
are making, but it is important that States and local districts have 
the flexibility to identify measures and design interventions that 
reflect the realities facing their unique student populations, because 
we have seen that No Child Left Behind's one-size-fits-all approach is 
ineffective.

    Question 4. Dr. Evers, in the United States, over 1.7 million 
students attend about 18,000 schools with student bodies that are less 
than 200 hundred students. In Vermont nearly 14,500 students attend 130 
schools that have less than 200 students.
    The Every Child Achieves Act (ESSA) maintains important 
accountability and transparency requirements to help us ensure that 
each child can reach their full potential. States must choose their own 
``n-size'' or the minimum number of students necessary to comprise the 
student subgroup categories of low-income students, students from major 
racial and ethnic groups, children with disabilities, and English 
Language Learners. As you know, accountability under this law is 
conducted at the school level.
    States with many small schools struggle with finding an n-size that 
accurately captures the performance of all students and student 
subgroups. In Vermont for example, setting an n-size of 11, and using 
school-based accountability would still suppress the outcomes of 25 
percent of all elementary schools and nearly 70 percent of all low-
income students. Setting a higher n-size of 40, and using school-based 
accountability, would suppress student outcome data of almost 80 
percent of all elementary schools.
    As the chief State school officer of a State with many rural areas 
and small schools, how do you negotiate the tension of setting an 
appropriate n-size with the reality of small schools and the fact that 
some children may not be identified using school-level accountability? 
What recommendations do you have for the U.S. Department of Education 
and other States where school-level accountability creates a challenge 
to setting an n-size that will appropriately capture the educational 
outcomes of students? Is school-district wide accountability an 
appropriate substitute for the resource intensive small school 
verification process or an additional layer of accountability for 
States to use when the size of schools obfuscates the reporting on 
outcomes of student achievement?
    Answer 4. How to ensure reliable and valid data is not simple in a 
State like Wisconsin given the variance in the size of our school 
districts. In Wisconsin, we have 424 school districts, 24 independent 
charter schools who are their own local educational agency, and an 
additional 218 charter schools authorized by school districts. We have 
over 867,000 students. Our largest school district serves over 75,000 
students and our smallest under 100. Moreover a quarter of our school 
districts have less than 500 students.
    As a result, we feel the need to strike a balance between valid and 
reliable accountability measures, which nod toward higher cell sizes, 
and including as many students in the accountability system as 
possible. I think we have made significant progress in crafting an 
accountability system that is reliable and valid. To that end, I've 
provided below a description of how Wisconsin has approached cell 
sizes.

    <bullet> When we applied for a waiver in ESEA, we changed our cell 
size from 40 to 20. My staff ran analyses to identify a new smaller 
cell size and the impact of the change.

        <bullet> At the time, 35.3 percent more students with 
        disabilities were included with a cell size of 20 instead of 
        40.
        <bullet> 18.2 percent more English learners were included.
        <bullet> 412 or 19.5 percent more schools were included.

    <bullet> The cell size change admittedly decreased initial 
reliability of some measures, so we've looked to address those 
challenges by using multiple years of data and, in some cases, pooling 
small groups of students together in order to include them in the 
system.

    <bullet> Almost every measure of our accountability report card 
uses at least 2 years of data in the calculation, in order to buffer 
the group size and stabilize the measure. Trend calculations are 
weighted so that the current year has the highest weight in order to 
ensure that using more years doesn't obscure progress or challenges.
    <bullet> We use a supplemental supergroup in cases in which 
economically disadvantaged students, English learners, and students 
with disabilities groups do not meet cell size on their own. This 
includes more students in the accountability system. We consider this a 
supplemental group because it does not replace any existing subgroups; 
we only use this group if the individual subgroups do not alone meet 
minimum cell size.

        <bullet> At the time of initial implementation (for 2011-12 
        reports), we were able to provide gap closure scores for over 
        100 more schools than without supergroups.

    <bullet> Even with all this, we still have students not included in 
school-level accountability. One way we've made some progress on this 
is by creating district accountability report cards. In some cases, a 
student group at a school level may not be large enough to meet a 
school-level cell size of 20, but when students in that group are 
pooled together across a district, there is a greater chance they will 
be included in that level of reporting.
                           senator whitehouse
    Question 1. ESSA is a relief to many, especially in Rhode Island. 
Everyone who I've talked to is very excited about this bipartisan bill 
and the opportunities it presents.
    I am concerned about the supplement, not supplant issue. Many of 
you have said that ED's proposed regulations on ``supplement, not 
supplant'' are an overreach. But I am also aware of many inequities 
that exist in local and State funding for education.
    Absolutely no one wants to see Federal money come in and provide an 
excuse to send other funding into wealthier, well-connected school 
districts and have title I fill the gap.
    I've heard from many about the problems with ED's draft proposal. 
My question is not what are the problems, but what should ED do 
instead? That is, what would you affirmatively propose to ensure that 
title I funds are supplemental and not supplanting State and local 
funds?
    Answer 1. I'm not sure I have a silver bullet solution, but there 
are options that may be considered. For instance, the simplest thing 
would be to require an assurance that Federal funds will supplement 
State and local funds. That is very similar to what we're doing now, 
and we could keep it as an assurance for which we are responsible and 
on which our Federal funds are contingent.
    If there is a need for a methodology to prove what districts are 
doing, one could consider linking supplement, not supplant with 
comparability provisions. Could current comparability provisions be 
used to satisfy ESSA supplement, not supplant requirements? A benefit 
to this approach is that schools may use full-time equivalency instead 
of actual salaries. The current comparability rules work from our 
perspective and we think could be an option to meet the requirements in 
ESSA by allowing it in the regulations.
    Yet another option could involve keeping existing supplement, not 
supplant requirements and, additionally, requiring States to assure 
they will establish a method to compare spending on low-income students 
at the building and district level to statewide averages. Any 
discrepancy outside of a certain range would have to be explained to 
ED.
    Question 2. Under NCLB and the Obama administration's waivers, I 
consistently heard from Rhode Island teachers and principals that they 
could achieve better results if not for the layers of bureaucracy 
stifling innovation at multiple levels.
    I am very pleased that ESSA is a step away from that one-size-fits-
all, overly prescriptive posture. You have all heard me talk about the 
provisions I fought for in ESSA--requiring States to describe how they 
will encourage opportunities for increased autonomy and flexibility.
    I am concerned because I do not want to see ED use the regulatory 
process to grab back the control that ESSA intended to push down to the 
State and local level. What could ED do on the supplement, not supplant 
issue that would support greater innovation at the local level?
    Answer 2. I'm going to refer to my answer in your first question 
regarding supplement, not supplant. I don't know if supplement, not 
supplant can engender innovation, but, related to your first question, 
if we want to eliminate bureaucracy the Department of Education could 
make changes to simplify the supplement, not supplant proposed rules to 
recognize how complex compliance would be under the system they put 
forward in negotiated rulemaking.
    Separately, under the many flexibilities granted under ESSA, one 
that I believe will result in significant innovation is the new 
provision to allow State education agencies to waive the poverty 
requirement for a school to become schoolwide program. This, I believe, 
will result in significant and more innovative programming in schools 
and districts.

 Response by Thomas Ahart, Ed.D., to Questions of Chairman Alexander, 
        Senator Collins, Senator Sanders, and Senator Whitehouse

                           Chairman Alexander

    Question. We've heard through testimony that this proposed rule 
could require forced teacher transfers, require costly overhauls of 
district finance systems, and promote practices that serve to further 
segregate poor students in the poorest schools.
    You mention the rule ``provides regulatory barriers to effective 
instructional services for students, interference in school autonomy in 
staff recruitment and selection, intrusion in the deployment of 
effective school leaders, unworkable criteria and unnecessary 
requirements, additional costs, and unrealistic administratively 
created obligations.''
    As a district leader, what specific actions in the Des Moines 
Public School system or other systems in which you've worked would you 
need to take in order to comply with this proposed rule on supplement, 
not supplant? What problems would those actions pose that run counter 
to efforts to improve schools in your district?
    Answer. What often seems to be lost on the Department is that our 
ability to best serve schools with concentrated poverty that do not 
benefit from title I funds will be jeopardized under the proposed 
supplement, not supplant regulations if districts are forced to spend 
additional State and local funds to cover the salary differentials 
between higher paid and lower paid teachers. Many high poverty schools 
are not served with title I because, frankly, there is not enough to go 
around. While a 40 percent free/reduced rate can qualify a school for 
title I services, there are currently 14 Des Moines schools with a 
poverty rate between 73 percent and 40 percent that we are not able to 
provide with title I services. The very children the legislation is 
designed to support will be negatively impacted under the proposed 
regulations.
    Operationally, this proposed regulation would effectively require 
salary equivalency between title and non-title schools or require 
school districts to make up the difference with State and local funds. 
Since the Nation's teacher salary system is primarily based on 
increasing salary increments for years of experience (as well as for 
advanced educational attainment), schools with older, higher paid staff 
compared to younger, less highly paid staff would necessarily trigger 
noncompliance on an unprecedented scale.
    To comply, districts would have to spend additional State and local 
funds to cover the salary differentials between higher paid and lower 
paid teachers. Or, in an alternative compliance scenario, districts 
potentially could shift their higher-paid teachers to title I schools 
and their lower-paid teachers to non-title I schools. The Center of 
American Progress (CAP) reported in 2012 that the cost of compliance 
with this type of per-pupil comparability requirement would be $6.8 
billion based on national data at the time, and in 2015 CAP estimated 
the compliance cost at $8.5 billion nationally using the most recent 
OCR expenditure data. The Council of the Great City Schools estimated 
the compliance cost for their 69 member school districts could reach 
$3.9 billion, ranging from millions to hundreds of millions of dollars 
in individual districts. (C)
    Unfortunately, neither of these options correlate with improving 
student academic performance because, to state it simply: there is no 
relationship between salary level and teacher effectiveness. This would 
result in unwarranted disruptions in instructional continuity and 
communities of practice in our schools.
    Higher paid teachers teach for the same 6 hours daily and 180 
school days annually as teachers with lower pay and less time in the 
profession; students receive an equivalent level of service from their 
teachers regardless of pay or years of service. Lower pay can be 
attributed to a variety of factors including individuals entering the 
profession later in life as a second career, the difference between 
taking single or family coverage for insurance benefits, or advanced 
educational attainment--which may or may not be in an area related to 
the individual's teaching assignment. None of these factors translate 
to the quality instruction provided by the teacher. The issue is 
complicated and cannot be narrowed to the simplistic issues identified 
in the draft regulations.
    Moreover, current Federal requirements already ensure that at least 
the same number of full-time equivalent teachers are deployed in title 
I as in non-title I schools.
    School districts clearly do not have the State and local funds to 
cover the salary differential costs of compliance, nor should districts 
disrupt instructional continuity and communities of practice in our 
schools by summarily transferring teachers. Moreover, the teacher 
transfer option would violate most collective bargaining agreements. 
Many districts literally would be faced with an impossibility of 
performance under these regulations--which have no reasonable basis in 
the Act and appear to violate at least three separate statutory 
prohibitions in ESSA. I hasten to add that neither of these solutions, 
even if possible, reflect best education practice.
    These operational concerns relate to regulatory barriers to 
effective instructional services for students, interference in school 
autonomy in staff recruitment, selection, and placement, unworkable 
criteria, unnecessary requirements, additional costs, and unrealistic 
administratively created obligations.
                            senator collins
    Question. During Secretary King's confirmation hearing, I asked for 
his assurance that the Department would engage rural communities in its 
ESSA implementation processes. For example, I was alarmed that the 
Department held its initial public listening sessions in DC and Los 
Angeles. Rural districts also seem to have been underrepresented on the 
committee of negotiators selected for the negotiated rulemaking.
    It's vital that rural communities and rural educators have a seat 
at the table. What should the Department be doing to ensure rural 
communities are represented in its rulemaking?
    In your States, what are you doing, as stakeholders, to ensure 
rural voices are heard in your State and local planning efforts?
    Answer. The Iowa Department of Education has organized internal 
teams to begin work on Iowa's State plan to implement the provisions 
included in ESSA. The Director of the Iowa Department of Education, 
Ryan Wise, has assured superintendents in our 333 districts they will 
have regular opportunities for timely and meaningful consultation with 
relevant stakeholders, including parents, local educational agencies, 
teachers, and principals, when developing the transition plan.
    Even in Iowa, the broad range of individual district 
characteristics and the students and families they serve vary widely. 
It has been a long-standing practice of the Iowa Department of 
Education to ensure representation of the diversity of our State and 
its school districts when seeking input on important issues--rural, 
urban, large and small districts, as well as the geographic 
distribution of individuals providing input and the demographics of the 
districts they represent.
    I look forward to the development of a more thoughtful State 
accountability system under ESSA, and we are working closely with our 
State department of education on a statewide implementation process.

                            Senator Sanders

    Question 1. We must do everything that we can to ensure that every 
child--regardless of her or his circumstances--has access to a high-
quality education. We know that a high-quality education is a resource-
intensive endeavor. We also know that disadvantaged children need 
additional resources to combat the ravages of poverty and 
discrimination. The Elementary and Secondary Education Act (ESEA) of 
1965 marked the beginning of a strong role for the Federal Government 
in combating inequities on both fronts. Clearly, there is much more 
work that must be done.
    A key component of the Federal Government's role in education is 
ensuring that our schools have the additional resources needed to 
ensure that every child can reach her or his full potential. Today, 
over half of all public school children come from low-income families. 
Examining the most recent data available, there is clearly an increased 
need, as well as a lack of sufficient Federal resources to meet this 
need (figure 1). Between school year 2004-5 and school year 2013-14 we 
have seen a 32 percent increase in children eligible for free or 
reduced lunch--an increase of over 6 million children.
    Yet the main source of Federal funding for public schools serving 
low-income children--Title I-A of ESEA--has not only not failed to keep 
pace with the reality that our public schools are serving more low-
income children than a decade ago, funding has not even kept up with 
inflation. Real title I-A funding is down 6 percent since fiscal year 
2005 while the percentage of low-income kids in public schools has 
increased by 32 percent over the same time period. If at a bare minimum 
title-I-A funding had kept pace with inflation since fiscal year 2005, 
appropriations for title-I-A would have been $15.2 billion in fiscal 
year 2014 instead of $14.4 billion--a difference of nearly a billion 
dollars. Furthermore, if title I-A funding had kept pace with both 
inflation and the growing number of children coming from low-income 
families since fiscal year 2005, title-I-A funding would have hit $20.2 
billion in fiscal year 2014, a gap of over $5.5 billion when 
considering reality versus actual funding (figure 2).
    Dr. Ahart, can you please speak to the importance of Federal 
education funding meeting the increased needs of our public schools? 
Beyond a dramatic increase to title-I-A funding, what other funding 
streams within ESEA and in other Federal programs require an increase 
to meet the realities of today's public schools?
    Answer 2. The changing demographics of Des Moines Public Schools 
reflects the myriad of needs and potential barriers we face without 
adequate funds in meeting the needs of all of our students and 
supporting them in reaching high academic standards.
    DMPS is a majority minority urban district, serving over 33,000 
students, 58 percent of whom are minorities. Two ongoing challenges 
faced by the district are poverty and the high number of students who 
are English Language Learners.
    The majority of families in the district are low-income, and this 
rate has steadily increased over the past two decades. In 1993, only 33 
percent of district students qualified for the Free and Reduced Lunch 
(FRPL) program. This has increased to over 73 percent of students 
qualifying today. Most schools provide free breakfast and lunch to 
students. And the poverty levels continue to grow, as evidenced by 
increased numbers of kindergarten students qualifying for FRPL in the 
context of an increasing enrollment for the district. The poverty 
levels in Des Moines' poorest zip codes, known as the Urban Core, 
resemble other high poverty cities, such as Detroit or Philadelphia.
    Figure 1 highlights the changes in K-12 enrollment with regard to 
eligibility for free/reduced priced lunch, English language learner 
programming, and special education services. DMPS mirrors the State's 
upward trend of children eligible for free/reduced priced lunch through 
2014-15. However, Iowa's rate of eligibility is lower than DMPS's, with 
38.8 percent (2015-16 data not yet available) of students in Iowa 
(excluding DMPS) eligible in 2014-15 and 74.8 percent of DMPS students 
eligible in 2015-16.
    The number of English language learner (ELL) students has steadily 
increased in DMPS and Iowa. In the past 10 years, the ELL population at 
DMPS has grown by over 70 percent. Currently, ELL students represent 
20.6 percent of DMPS students. DMPS is ranked 11th in the State with 
regard to percentage of ELL students. DMPS educates approximately 6,500 
ELL students in grades K-12. The number of ELL students at DMPS is more 
than the total number students enrolled at 96 percent of Iowa 
districts. The percentage of students requiring special education 
services has held steady in DMPS. In 2014-15, 12.6 percent (2015-16 
data not yet available) of students statewide required services, while 
15.1 percent of DMPS students required services in 2015-16.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Since the early 1970s, Iowa has chosen to serve as a resettlement 
State for refugees from around the world. As a result, the number of 
English Language Learners (ELL) at DMPS has greatly increased from 300 
students who speak five native languages in the mid-1970's, to the 
current level of 6,580 students (20.6 percent of students) speaking 
over 100 different languages and dialects. The language barriers for 
both students and their families create significant obstacles to 
learning. Further complicating their learning is that many ELL's are 
illiterate in their native languages. Parent communication with school 
staff and their ability to assist their children with school work is 
limited. As ELL students learn English, they often become one of the 
only links between their linguistically isolated families and the world 
within which they are trying to survive.
    Additionally, student disengagement increases during the transition 
from elementary to middle school. The percentage of DMPS students 
proficient in reading dropped from 72 percent in 5th grade (2010-11) to 
49 percent in 6th grade (2011-12). Furthermore, the Iowa Youth Survey 
gauged the number of DMPS students who felt committed to school and 
learning. Results show that the percentage significantly decreased 
between elementary school (86 percent) to middle school (67 percent) 
and stayed the same from middle school to high school (67 percent). 
Students who drop out of school face significant consequences. They 
earn lower wages, are eight times more likely to commit crimes, are 
twice as likely to live in poverty, and earn $1,000,000 less than their 
graduating peers over their lifetimes (Alliance for Excellent 
Education, 2011).
    The changing demographics of our district and the needs of our 
students associated with these demographics demonstrate the need for 
increased funding in the following title Programs:

    <bullet> Title I--Improving Basic Programs Offered by State and 
Local Educational Agencies
    <bullet> Title II--Preparing, training, and recruiting high quality 
teachers, principals, or other school leaders
    <bullet> Title II--Language Instruction for English Language 
Learners and Immigrant Students
    <bullet> Title IV--21st Century Schools
    <bullet> Title V--State Innovation and Local Flexibility
    <bullet> Title VI--Indian, Native Hawaiian, and Alaska Native 
Education
    <bullet> Title VII--Impact Aid
    <bullet> Title IX--Education for the Homeless and Other Laws
Figure One:
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure Two:
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 2. Yesterday, on the 62d anniversary of the Brown v. Board 
decision, the Government Accountability Office (GAO) released a report 
confirming what educators, families, students, and community 
stakeholders have been telling us anecdotally for some time--our public 
schools are becoming more segregated by both race and family income.
    The number of schools that are doubly segregated by both race and 
income--where 75 percent or more of the kids at these schools come from 
low-income families and are black or Hispanic--has increased from 9 
percent of all public schools in school year 2000-2001 to 16 percent of 
all public schools in school year 2013-14. Additionally, today, nearly 
one in five public students attend these doubly segregated public 
schools--more than double the amount of kids who attended these schools 
almost 15 years ago. Furthermore, Hispanic children are often triply 
segregated by race, family income, and native language. Shamefully, 
nearly two-thirds--61 percent--of all high-poverty schools are schools 
where over 75 percent or more of the children are black and Hispanic.
    Segregation and isolation by race and income in our public school 
is an alarming phenomenon on its own. Even more troubling is that the 
fact that these doubly segregated schools are not offering students a 
comparable education to non-segregated schools and schools at the other 
end of the spectrum that are wealthy and predominately white. The GAO 
report uncovers that these doubly segregated schools have fewer 
resources, do not offer the full range of core courses like math and 
science, offer less advanced coursework, and have disproportionately 
more disciplinary actions than other public schools.
    I'd like to ask this entire panel--what can the Federal Government 
do to reverse this troubling trend of segregation by race and income, 
and ensure an equal and adequate education for all children? Please 
feel free to expound on reforms within education and greater system 
wide changes including housing, transportation, jobs, and more. 
Additionally, through the implementation of the Every Student Succeeds 
Act (ESSA) what can the Department of Education do to make States and 
school districts aware of opportunities within this new law to increase 
racial and socioeconomic diversity in our schools?
    Answer 2. Best and promising practices regarding counteracting the 
re-segregation of schools include:

    1. Additional incentives, training, and support for teachers to 
work in diverse/urban environments.

     a. Urban districts can often compete for new highly qualified 
teachers in terms of salary and benefits, but struggle with adequate 
housing, appropriate training.
     b. Programs in DMPS like the Alternative teacher Contract which 
offer specific training, with longer commitment and a Master degree fit 
these needs and show increasing promise.

    2. Equitable facilities funding.

     a. Many families are drawn to districts that have competitive 
advantages, from state-of-the-art Libraries, modern gymnasiums, 
innovated laboratories, and athletic fields, families with means are 
determining where they would like to settle based on the amenities the 
school offers.
     b. New buildings in DMPS has improved moral, provided enhanced 
opportunity/ Suburban districts continue to see benefit from facilities 
upgrades in all areas as well.

    3. Redraw school attendance boundaries in a way that captures a 
more diverse student population, including the consideration for 
specific program opportunities unique to a geographical location.
     a. State like Iowa would benefit from school districts that are 
struggling to maintain capacity.
     b. Internal boundary changes have created more equitable 
opportunities for students, District is working on tackling greater 
access to gifted and talented programing. DMPS has already seen impact 
in AP programming.

    4. Additional competitive grants to encourage diversity and will 
work with other agencies to encourage more integrated schools and 
communities. Such as the new I3 grant.

    a. Resources are an indicator of priority. Current grant funding 
has been highly effective in increasing the capacity, accountability, 
and fidelity of implementation for other initiatives. Additional grant 
funding would allow innovative practices to prove effectiveness and 
establishing scalability.

    5. Reinforcement of school segregation policies to consider income.

     a. School re-segregation largely intersects race with income as an 
effect on the impact.
                           senator whitehouse
    Question 1. ESSA is a relief to many, especially in Rhode Island. 
Everyone who I've talked to is very excited about this bipartisan bill 
and the opportunities it presents.
    I am concerned about the supplement, not supplant issue. Many of 
you have said that ED's proposed regulations on ``supplement, not 
supplant'' are an overreach. But I am also aware of many inequities 
that exist in local and State funding for education.
    Absolutely no one wants to see Federal money come in and provide an 
excuse to send other funding into wealthier, well-connected school 
districts and have title I fill the gap.
    I've heard from many about the problems with ED's draft proposal. 
My question is not what are the problems, but what should ED do 
instead? That is, what would you affirmatively propose to ensure that 
title I funds are supplemental and not supplanting State and local 
funds?
    Answer 1. The Title I Statement of Purpose declares:

          The purpose of this title is to provide all children 
        significant opportunity to receive a fair, equitable, and high-
        quality education, and to close educational achievement gaps.

    Further, section 1111 delineates the obligation of States to file a 
State plan that is:

           . . . developed by the State educational agency with timely 
        and meaningful consultation with the Governor, members of the 
        State legislature and State board of education (if the State 
        has a State board of education), local education agencies 
        (including those located in rural areas), representatives of 
        Indian tribes located in the State, teachers, principals, other 
        school leaders, charter school leaders (if the State has 
        charter schools), specialized instructional support personnel, 
        paraprofessionals, administrations, other staff, and parents . 
        . .

    States and local school districts have widely diverse 
characteristics related to their size, local funding, demographics of 
the students they serve, and State laws that govern public schools.
    Let those closest to the local school districts and the students 
and families we serve determine what the qualities of a fair, 
equitable, and high-quality education are that will close educational 
achievement gaps.
    Use the processes put into place by ESSA, along with the knowledge 
and skills of these on the ESSA planning committees, to develop a State 
plan to ensure title I funds are supplemental and not supplanting State 
and local funds.
    And most importantly, allow these planning committees to put 
together a plan that ensures an equitable education for all children--
remembering that equitable does not mean equal. The only hope for 
successful results from ESSA rests in the State agencies' ability to 
craft guidance that is meaningful to individual State and district 
contexts.

    Question 2. Under NCLB and the Obama administration's waivers, I 
consistently heard from Rhode Island teachers and principals that they 
could achieve better results if not for the layers of bureaucracy 
stifling innovation at multiple levels.
    I am very pleased that ESSA is a step away from that one-size-fits-
all, overly prescriptive posture. You have all heard me talk about the 
provisions I fought for in ESSA--requiring States to describe how they 
will encourage opportunities for increased autonomy and flexibility.
    I am concerned because I do not want to see ED use the regulatory 
process to grab back the control that ESSA intended to push down to the 
State and local level. What could ED do on the supplement, not supplant 
issue that would support greater innovation at the local level?
    Answer 2. While regulations are intended to clarify provisions of 
the statute and facilitate effective implementation, many of the 
regulatory provisions appear to restrict, condition, redefine, and even 
expand ESSA.
    These operational concerns relate to regulatory barriers to 
effective instructional services for students, interference in school 
autonomy in staff recruitment, selection, and placement, unworkable 
criteria, unnecessary requirements, additional costs, and unrealistic 
administratively created obligations.
    The Education Department could be helpful in issuing non-regulatory 
guidance that provides a non-exclusive range of examples of 
implementation options for various provisions of ESSA. There is no such 
thing as one-size-fits-all. Even in Iowa, the broad range of individual 
district characteristics vary widely.
    In addition, use the processes put into place by ESSA, along with 
the knowledge and skills of those charged with developing a State plan 
to ensure title I funds are supplemental and not supplanting State and 
local funds.
    And most importantly, allow these planning committees ESSA charged 
with putting together a State plan to do their jobs. These are the 
people best able to put together an innovative plan that provides for 
equity, understanding that does not mean equal.
    The only hope for successful results from ESSA rests in the State 
agencies' ability to craft guidance that is meaningful to individual 
State and district contexts.

  Response by Nora Gordon, Ph.D. to Questions of Chairman Alexander, 
                Senator Sanders, and Senator Whitehouse

                           chairman alexander
    Question. In your testimony, you discuss how prior to the new law, 
compliance with Supplement, not Supplant was typically determined by 
districts detailing individual costs and proving that everything paid 
for by title I money was extra for students.
    You note that this was a burdensome practice that often led to 
inefficient spending.
    However, the changes Congress made to ``Supplement, not Supplant'' 
actually serve to encourage more effective spending with title I money 
and decrease compliance burden for school districts, and the proposed 
rule actually runs counter to congressional intent.
    How does the proposed rule run counter to congressional intent by 
actually increasing the burden and discouraging better, flexible 
spending decisions by local school districts and schools?
    Answer. The proposed rule would not simply ``undo'' the 
congressional intent in ESSA to encourage effective spending. Rather, 
it would require school districts to change how they allocate State and 
local resources across schools. Many districts would not comply with 
the rule, even if they allocate more teachers to high--poverty schools. 
In the CRDC data, I have identified districts that weight additionally 
for student poverty, using student-based budgeting/weighted student 
formulas (which are largely viewed as one of the most equitable 
approaches to funding schools) that would fail to comply with the rule. 
The reasons for non-compliance likely vary--but one reason could be 
that high-poverty students who generate more funds--may not all be 
concentrated only in title I schools.
    Many non-title I schools have high poverty levels. I analyzed the 
2011-12 Common Core of Data Public School Universe and found (of those 
schools reporting free-lunch eligibility data) 9,015 schools that do 
not participate in title I and have at least 40 percent of their 
students eligible for free lunch; of these non-title I schools, 2,826 
had at least 60 percent of their students eligible for free lunch.
    To comply with the proposed rule, districts would be forced to make 
annual after-the-fact adjustments to their staffing and other 
distributions of funds. The adjustments needed to comply with the 
proposed rule would in fact make it quite difficult to comply with 
statutory language itself (requiring a methodology that demonstrates 
title I schools do not get less State and local funds because of their 
participation in title I), because consistently applied methodologies 
would likely fail to deliver the result required by the draft rule.
    Rather than encouraging innovation and transparency, the proposed 
rule would push districts away from consistent resource allocation 
methods that permit leaders to plan coherently and effectively for the 
future.
                            senator sanders
    Question. Yesterday, on the 62d anniversary of the Brown v. Board 
decision, the Government Accountability Office (GAO) released a report 
confirming what educators, families, students, and community 
stakeholders have been telling us anecdotally for some time--our public 
schools are becoming more segregated by both race and family income.
    The number of schools that are doubly segregated by both race and 
income--where 75 percent or more of the kids at these schools come from 
low-income families and are black or Hispanic--has increased from 9 
percent of all public schools in school year 2000-2001 to 16 percent of 
all public schools in school year 2013-14. Additionally, today, nearly 
one in five public students attend these doubly segregated public 
schools--more than double the amount of kids who attended these schools 
almost 15 years ago. Furthermore, Hispanic children are often triply 
segregated by race, family income, and native language. Shamefully, 
nearly two-thirds--61 percent--of all high-poverty schools are schools 
where over 75 percent or more of the children are black and Hispanic.
    Segregation and isolation by race and income in our public school 
is an alarming phenomenon on its own. Even more troubling is that the 
fact that these doubly segregated schools are not offering students a 
comparable education to non-segregated schools and schools at the other 
end of the spectrum that are wealthy and predominately white. The GAO 
report uncovers that these doubly segregated schools have fewer 
resources, do not offer the full range of core courses like math and 
science, offer less advanced coursework, and have disproportionately 
more disciplinary actions than other public schools.
    I'd like to ask this entire panel--what can the Federal Government 
do to reverse this troubling trend of segregation by race and income, 
and ensure an equal and adequate education for all children? Please 
feel free to expound on reforms within education and greater system 
wide changes including housing, transportation, jobs, and more. 
Additionally, through the implementation of the Every Student Succeeds 
Act (ESSA) what can the Department of Education do to make States and 
school districts aware of opportunities within this new law to increase 
racial and socioeconomic diversity in our schools?
    Answer. Local approaches to school desegregation often involve 
extra costs. For example, voluntary integration plans, whether magnets 
or more general intradistrict choice options, may offer special 
programming to all students in order to draw students from a wealthier 
attendance area to a low-income attendance area. Alternatively, a 
district may provide additional funds or services to low-income 
disadvantaged students in economic integration programs in order to 
provide additional supports to these students in more rigorous school 
settings (which can be in higher wealth attendance areas.) These 
expensive programs may take place outside of title I schools, and 
outside of high poverty schools within diverse districts. In addition 
to actions such as those now being pursued to encourage cross-agency 
efforts tackling segregation in education and housing, and the role of 
transportation, ED should be sure its interpretation of SNS does not 
rule out such racial and economic integration efforts.
                           senator whitehouse
    Question 1. ESSA is a relief to many, especially in Rhode Island. 
Everyone who I've talked to is very excited about this bipartisan bill 
and the opportunities it presents.
    I am concerned about the supplement, not supplant issue. Many of 
you have said that ED's proposed regulations on ``supplement, not 
supplant'' are an overreach. But I am also aware of many inequities 
that exist in local and State funding for education.
    Absolutely no one wants to see Federal money come in and provide an 
excuse to send other funding into wealthier, well-connected school 
districts and have title I fill the gap.
    I've heard from many about the problems with ED's draft proposal. 
My question is not what are the problems, but what should ED do 
instead? That is, what would you affirmatively propose to ensure that 
title I funds are supplemental and not supplanting State and local 
funds?
    Answer 1. In ESSA, Congress set forth an actual test of whether 
title I funds are supplemental and not supplanting State and local 
funds in a title I school. Under the test, each LEA must describe how 
it allocates funds across schools, and demonstrate that this 
methodology does not result in title I schools receiving fewer State 
and local dollars than they would were they not participating in the 
title I program.
    In the discussion surrounding ED's draft proposal, it has somehow 
been assumed that absent this proposal, ED would not be doing anything 
to ensure the integrity of program funds via this new, clear, easily 
tested SNS standard. To the contrary, ED and SEAs, must enforce the 
law, and the law sets a new high bar for SNS.
    For more details on how districts could be sure they are meeting 
the new standard--which under NCLB was optional for schoolwide programs 
under NCLB--ED's July 2015 schoolwide program guidance is a useful 
tool. The same test that was optional (and rarely used) under NCLB for 
SWP schools, is now required rather than optional under ESSA. The 
explanation in ED's July 2015 schoolwide guidance, which is consistent 
with the ESSA language, should be the basis for compliance with SNS.

    <bullet> July, 2015--ESEA Title I Schoolwide Guidance, Non-
Regulatory Guidance PDF (3.30MB).

    Congress and ED should also ensure that ESSA's new reporting 
requirements are used to produce high-quality data that can inform 
future Federal decisionmaking. Though there have been past efforts at 
collecting school-level finance data based on actual, not average, 
teacher salaries, given existing data infrastructure in districts, the 
reliability of these data is unclear. ED can help promote the integrity 
of future data by: (1) seeking extensive feedback from State and local 
agencies about how their accounting systems are currently structured, 
because any Federal reporting requirements will pull from these 
frameworks and aligning Federal reporting with existing data elements 
will both lessen local burden and improve Federal data quality; and (2) 
cross-validate data for randomly selected districts with any available 
local administrative sources.

    Question 2. Under NCLB and the Obama administration's waivers, I 
consistently heard from Rhode Island teachers and principals that they 
could achieve better results if not for the layers of bureaucracy 
stifling innovation at multiple levels.
    I am very pleased that ESSA is a step away from that one-size-fits-
all, overly prescriptive posture. You have all heard me talk about the 
provisions I fought for in ESSA--requiring States to describe how they 
will encourage opportunities for increased autonomy and flexibility.
    I am concerned because I do not want to see ED use the regulatory 
process to grab back the control that ESSA intended to push down to the 
State and local level. What could ED do on the supplement, not supplant 
issue that would support greater innovation at the local level?
    Answer 2. Congress' approach to SNS opens title I to innovative 
uses of funds. As I have documented in my research with Sarah Reber, 
confusion over the SNS requirement led to significant bureaucratic 
requirements, and perhaps more importantly, title I being ``locked 
out'' for innovative programs that are good for students.\1\ The most 
important thing ED can do to encourage innovation with title I funds is 
to make sure SEAs and LEAs understand their spending options.
---------------------------------------------------------------------------
    \1\ Gordon, Nora and Sarah Reber. 2015. ``The Quest for a Targeted 
and Effective Title I: Challenges in Designing and Implementing Fiscal 
Compliance Rules.'' RSF: The Russell Sage Foundation Journal of the 
Social Sciences, 1(3), 129-147.
---------------------------------------------------------------------------
    At this point, ED has built up a sizable body of nonregulatory 
policy guidance that in some way relates to the pre-ESSA version of 
supplement, not supplant. Whether ED clarifies SNS under ESSA through 
regulations, through non-regulatory guidance, or lets the statutory 
language speak for itself, it is imperative to strike old guidance that 
relates to the pre-ESSA definition of SNS. These documents should be 
removed from ED's Web site. ED should actively engage with SEAs to be 
sure that they also remove the documents which they post on their own 
State Web sites as well, and encourage States to communicate the new 
requirements clearly to their LEAs. In each of these cases, ED should 
communicate the new rule as described in the July 2015 schoolwide 
guidance.
    This is not a straightforward process, because in many cases, SNS 
is just one small part of a larger guidance document. ED should not 
leave them intact (including outdated text) even if noting in another 
document that it supersedes the previous guidance. Rather it should 
create a new version of the old one, that either removes all reference 
to SNS or replaces the old language with new language.
    This would be an excellent opportunity to modernize the user-
interface on ED's guidance, so that users can search across what are 
now multiple documents from a web browser (if they do not know which 
documents will be relevant to their question), rather than downloading 
numerous PDF documents and searching one by one.
    Even the July 2015 schoolwide guidance, which was the clearest 
communication yet of the rule, noted that the guidance should be used 
with other pre-existing guidance. ED should facilitate understanding of 
the rule by putting everything in one place, so administrators do not 
need to seek out the SNS portion of multiple documents.
    Here is a (likely not exhaustive) list of now-outdated guidance 
documents:

    <bullet> November 2010--When to Treat Expenditures of Education 
Jobs Funds as State or Local Funds for Purposes of the Fiscal 
Requirements under Title I, Part A of the Elementary and Secondary 
Education Act of 1965 WORD (471K) / PDF (271K).
    <bullet> September 3, 2009--Title I, Part A Recovery Funds for 
Grants to Local Educational Agencies Uses of Funds Guidance.
    <bullet> March 2010--Title I, Part A Guidance on Funds Made 
Available under the American Recovery and Reinvestment Act of 2009 
(ARRA): http://www2.ed.gov/policy/gen/leg/recovery/guidance/title-i-
rev-201003.doc.
    <bullet> February, 2008--Fiscal Issues: Title I, Part A, Non-
Regulatory Guidance MS WORD (995K) / PDF (254K).

    Note: I am including schoolwide guidance documents below despite 
their previous allowed use of the new SNS test because one could get 
the mistaken impression from these that the new SNS test is optional 
for schoolwide programs, and that it is prohibited for targeted 
assistance schools.

    <bullet> October 13, 2015--ESEA Title I Schoolwide Guidance Webinar 
(PPT) PDF (3.63MB).
    <bullet> July, 2015--ESEA Title I Schoolwide Guidance, Non-
Regulatory Guidance PDF (3.30MB).
    <bullet> March, 2006--Designing Schoolwide Programs, Non-Regulatory 
Guidance MS WORD (452K).
    <bullet> Guidance on Targeted Assistance Schools: http://www2.ed.
gov/legislation/ESEA/Title_I/target.html.

    Finally, ED should devote a section of its Web site to showcasing 
innovative uses of title I funds. SEAs and LEAs could submit ideas and 
ED could write up very short descriptions of the programs. ED might 
seek to encourage submission of cases in which LEAs have partnered with 
other local not for profit or governmental agencies to provide 
services, or when LEAs have fiscally consolidated funds. Local 
administrators could comment briefly on hurdles they overcame and what 
they were newly able to accomplish.

 Response by Denise Marshall to Questions of Senator Collins, Senator 
                    Sanders, and Senator Whitehouse

                            senator collins
    Question. During Secretary King's confirmation hearing, I asked for 
his assurance that the Department would engage rural communities in its 
ESSA implementation processes. For example, I was alarmed that the 
Department held its initial public listening sessions in DC and Los 
Angeles. Rural districts also seem to have been underrepresented on the 
committee of negotiators selected for the negotiated rulemaking.
    It's vital that rural communities and rural educators have a seat 
at the table. What should the Department be doing to ensure rural 
communities are represented in its rulemaking?
    In your States, what are you doing, as stakeholders, to ensure 
rural voices are heard in your State and local planning efforts?
    Answer. COPAA is actively engaged with the business, civil rights 
and disability communities in developing resources for broad 
distribution and training to help stakeholders know how to work within 
their State to influence title I plan development. There is an effort 
to assure that issues such as those facing rural communities will be 
given attention so that parents and advocates in those communities will 
know how to engage and connect in their State planning process.
                            senator sanders
    Question 1. We must do everything that we can to ensure that every 
child--regardless of her or his circumstances--has access to a high-
quality education. We know that a high-quality education is a resource-
intensive endeavor. We also know that disadvantaged children need 
additional resources to combat the ravages of poverty and 
discrimination. The Elementary and Secondary Education Act (ESEA) of 
1965 marked the beginning of a strong role for the Federal Government 
in combating inequities on both fronts. Clearly, there is much more 
work that must be done.
    A key component of the Federal Government's role in education is 
ensuring that our schools have the additional resources needed to 
ensure that every child can reach her or his full potential. Today, 
over half of all public school children come from low-income families. 
Examining the most recent data available, there is clearly an increased 
need, as well as a lack of sufficient Federal resources to meet this 
need (figure 1). Between school year 2004-5 and school year 2013-14 we 
have seen a 32 percent increase in children eligible for free or 
reduced lunch--an increase of over 6 million children.
    Yet the main source of Federal funding for public schools serving 
low-income children--Title I-A of ESEA--has not only not failed to keep 
pace with the reality that our public schools are serving more low-
income children than a decade ago, funding has not even kept up with 
inflation. Real title I-A funding is down 6 percent since fiscal year 
2005 while the percentage of low-income kids in public schools has 
increased by 32 percent over the same time period. If at a bare minimum 
title-I-A funding had kept pace with inflation since fiscal year 2005, 
appropriations for title-I-A would have been $15.2 billion in fiscal 
year 2014 instead of $14.4 billion--a difference of nearly a billion 
dollars. Furthermore, if title I-A funding had kept pace with both 
inflation and the growing number of children coming from low-income 
families since fiscal year 2005, title-I-A funding would have hit $20.2 
billion in fiscal year 2014, a gap of over $5.5 billion when 
considering reality versus actual funding (figure 2).
    Ms. Marshall, can you please speak to the importance of Federal 
education funding meeting the increased needs of our public schools? 
Beyond a dramatic increase to title-I-A funding, what other funding 
streams within ESEA and in other Federal programs require an increase 
to meet the realities of today's public schools?
    Answer 1. Schools and districts continue to struggle to meet the 
educational needs of all students and especially those of students with 
disabilities. COPAA has long advocated for increases to all Titles of 
ESEA and in addition to title I-A, increased funding for titles II-IV 
are imperative so that ESEA--now the Every Student Succeeds Act (ESSA) 
can be implemented effectively by providing the professional 
development, English Learner funds and important grants to States. In 
addition, for over 40 years, Congress has failed to meet its obligation 
to States as promised in 1975 when P.L. 94-142 was passed which is now 
the Individuals with Disabilities Education Act (IDEA). To date, States 
don't receive even half of the funds promised under Part B of the 
IDEA--with just 16 percent of the per pupil expenditure currently 
covered when 40 percent of such funds were part of the original 
agreement. COPAA urges the Senate to fully fund the IDEA.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Figure Two:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question 2. It is abundantly clear that low-income and 
disadvantaged children need additional support in order to succeed. 
That is why, title-I-A education funding is supposed to be in addition 
to and not in-lieu of local and State education funding. Since 1970, 
Congress has included supplement, not supplant (SNS) provisions in ESEA 
to codify this fundamental principle.
    The Negotiated Rulemaking Committee for Title I, Part A of ESEA as 
amended by the Every Student Succeeds Act was unable to meet consensus 
on SNS regulations. It is now up to the U.S. Department of Education to 
draft regulations on SNS that ensure that Federal funding is on top of 
State and local funding and not used as backfill to compensate for 
unfair State and local spending practices on education.
    Ms. Marshall, can you speak to the importance of the Department of 
Education crafting strong regulations for SNS? Ms. Marshall, what would 
a strong SNS regulation mean for the 6.4 million children with 
disabilities in our public schools? Ms. Murguia, what would a strong 
SNS regulation mean for children of color including Latino girls and 
boys who represent a majority of the children in our public schools, 
and what would it mean for English Language Learners? Finally, what 
progress can be made for all students if title-I-A funding is truly 
supplemental?
    Answer 2. COPAA is in agreement with the Leadership Conference on 
Human and Civil Rights on this. We have signed a letter that says to 
the Congress and to the U.S. Department of Education:

          A strong SNS regulation would mean that the U.S. Department 
        of Education would measure compliance by examining actual 
        school level expenditures, which builds upon the ESSA's new 
        reporting requirements. In order for Federal funds to be 
        considered supplemental, each title I school must receive from 
        State and local sources at least as much per-pupil funding as 
        the average of non-title I schools in the district. Unless 
        title I schools are receiving an equitable base of funds from 
        non-Federal sources to ensure that the Federal funds are truly 
        supplemental, then title I funds are being used to supplant by 
        filling in gaps of funds the schools should be receiving. This 
        is a violation of the law. A comparison of spending between 
        each title I and the average of non-title I schools allows for 
        considerable variability among both title I and non-title I 
        schools in State and local expenditures, therefore not running 
        afoul of the law's prohibition against requiring the 
        equalization of spending.
          Compliance with an ``actual expenditures test'' also 
        recognizes the reality that equitable means fair, not equal--
        underscoring the law's aim to ensure that students impacted by 
        concentrated poverty have the unique supports and services that 
        will address their needs. This also preserves flexibility for 
        districts to use weighted student funding, formulas for 
        staffing and materials, or any other methodology for allocating 
        State and local funds to schools. The integrity of title I 
        funds must be preserved to fully realize the aim of ensuring 
        equity and equal access to quality educational opportunities.

    COPAA believes the progress we could expect to see from such 
regulation would result in equities that research and effective/best 
practice show result in healthy, safe and outcomes-driven school 
environments where school leaders, teachers, support personnel and 
students have a stronger shot at having what they need. Access to AP 
classes, up-to-date technology, expanded learning time, experienced 
educators, basic clean and safe facilities, at a minimum will 
contribute to assuring student achievement will rise and learning gaps 
will close.

    Question 3. I am very concerned that our schools and communities 
are dealing with a surge of students exposed to multiple adverse 
experiences and are not equipped with the resources, training, and 
support to accommodate this crisis.
    According to the national Adverse Childhood Experience Study, over 
half of those surveyed reported at least one form of childhood 
adversity. Shockingly, two in three children in our Nation--46 million 
children--are exposed to violence, crime, abuse, or psychological 
trauma a year. In Vermont, over 20 percent of children have had two or 
more adverse experiences, which include traumatic events like living in 
chronic poverty, living with someone with a substance abuse problem, 
experiencing community or family violence, and more. Even more alarming 
is the fact that our youngest citizens and their parents are at the 
forefront of this crisis. Since 2014, the Department for Children and 
Families in Vermont has seen a 33 percent increase of children in State 
custody with children under the age of six making up more than two-
thirds of this increase. Further, similar to nationwide trends, over 40 
percent of children come from low-income families in my home State, 
with young children the most likely of any age group to be poor.
    Ms. Marshall, what can the Department of Education do to help 
schools, educators, and communities be prepared to deliver trauma-
informed approaches to education when implementing the Every Student 
Succeeds Act (ESSA)? Additionally, what can the Department of Education 
do to ensure that educators teaching in environments where a large 
percentage of students have had adverse childhood experiences (ACEs) 
have the support and the self-care they need to succeed? Furthermore, 
what policies should Congress enact to help communities combat these 
challenges and attack the root causes--like poverty, exposure to 
violence and substance abuse--driving these adverse experiences? How 
would increased Federal investments in child care, preschool, maternal 
and child home visiting, before-school, afterschool, and summer 
programming, nutritional supports, wrap-around services for schools and 
more help to fight this crisis? Likewise, how would raising the Federal 
minimum wage, addressing under-employment and unemployment, 
implementing paid family leave, and enacting universal health care 
coverage help attack the root causes of these adverse experiences?
    As national education leaders, what plans are your organizations 
making to work with States to ensure that their schools and 
practitioners have trauma-informed approached to education? How will 
you make States and school districts aware of opportunities under ESSA 
to create trauma-informed environments?
    Answer 3. COPAA has actively engaged with the disability and civil 
rights community to promote the use of best practices to provide 
trauma-informed care--in both our policy and advocacy work. We know 
that traumatizing experiences, which include the use of aversives such 
as seclusion and restraint, can affect children's brain development and 
behavior. In fact, children with intellectual and/or developmental 
disabilities (IDDs) are at greater risk than the general population for 
experiencing abuse, neglect, and the associated trauma. Behaviors 
resulting from trauma can create challenging and sometimes dangerous 
situations for the child, providers, and educators.
    Historically, seclusion and restraint have been used to control the 
behavior challenges of children with mental health conditions in 
psychiatric hospitals, treatment facilities, and schools.\1\ For 
decades, it was frequently thought that, without effective seclusion 
and restraint practices, children, youth, and adults were in danger of 
injuring themselves and others.\2\ Children continue to be subjected to 
seclusion and restraint interventions at high rates and are at risk of 
injury from these practices.\3\ The controversial practice of secluding 
or restraining children when they are agitated continues to be used in 
public schools. Yet, research confirms that seclusion and restraint 
practices re-traumatize children, increase rather than decrease 
challenging behaviors, and do not calm the child. Even if no physical 
injury is sustained, children, especially those with an IDD, are at 
risk of traumatization and re-traumatization during and after use of 
seclusion and restraint. A child does not learn meaningful lessons on 
alternative ways to communicate or interact when a teacher or treatment 
staff member responds to the child's challenging behavior with 
seclusion and restraint. For decades, policymakers, clinicians, 
teachers, school principals, and direct care providers in child-serving 
systems have been challenged with not just reducing but eliminating 
seclusion and restraint as control and safety interventions. Teachers 
must know how to replace these practices with effective, non-
traumatizing practices.
---------------------------------------------------------------------------
    \1\ Haimowitz, S., Urff, J., & Huckshorn, K.A. (2006, September). 
Restraint and seclusion: A risk management guide. Retrieved from http:/
/www.power2u.org/downloads/R-S%20Risk%20
Manag%20Guide%20Oct%2006.pdf.
    \2\ American Nurses Association. (2012, March 2). Reduction of 
patient restraint and seclusion in health care settings. Retrieved from 
http://www.nursingworld.org/MainMenuCategories/
EthicsStandards/Ethics-Position-Statements/Reduction-of-Patient-
Restraint-and-Seclusion-in-
Health-Care-Settings.pdf.
    \3\ Alliance to Prevent Restraint, Aversive Interventions, and 
Seclusion. (2008). In the name of treatment: A parent's guide to 
protecting your child from the use of restraint, aversive 
interventions, and seclusion (2d ed.). Retrieved from http://
stophurtingkids.com/wp-content/uploads/
2013/05/In-the-Name-of-Treatment_Second-Edition.pdf.
---------------------------------------------------------------------------
    Trends in public policy have also reflected a discontent in the use 
of seclusion, restraint, and aversive procedures. A consensus has 
emerged within children's mental health settings, hospitals, nursing 
homes, and psychiatric facilities over the last two decades that 
restraint and seclusion should not be included in treatment plans, and 
that restraint should be used only for emergencies and targeted for 
elimination. Instead, practices should be based on ``trauma informed 
care'' requiring an awareness of the psychological effects of aversive 
actions on children. Elements of trauma informed care mirror the 
standards of positive behavior support to address students who exhibit 
extremely challenging behaviors.\4\
---------------------------------------------------------------------------
    \4\ Westling et al. (2010). Use of Restraints, Seclusion and 
Aversives on Students with Disabilities, Research & Practice for 
Persons with Severe Disabilities. Vol. 35, No. 3Y4, 116-127.
---------------------------------------------------------------------------
    Eliminating seclusion and restraint is a trauma-informed practice. 
Being trauma informed requires a paradigm shift for educators and other 
child-serving providers in addressing behavioral challenges. A trauma-
informed approach requires providers to change the question from ``What 
is wrong with you?'' to ``What happened to you?'' \5\ Trauma-informed 
practices help children, teachers, and providers feel safe, protected, 
and valued. Trauma sensitive schools are schools where teachers and 
administrators comprehend the prevalence of childhood trauma, a place 
where students have the opportunity to build trusting relationships 
with nurturing adults, a place where instructional strategies are based 
on an understanding of the neurobiology of trauma, and a place where 
behaviors present a learning opportunity.\6\
---------------------------------------------------------------------------
    \5\ Alameda County Behavioral Healthcare Services. (2013). Trauma 
informed care vs. trauma specific treatment. Retrieved from http://
alamedacountytraumainformedcare.org/trauma-informed-care/trauma-
informed-care-vs-trauma-specific-treatment-2/.
    \6\ Cole, Susan. (2009). http://traumasensitiveschools.org/tlpi-
publications/.
---------------------------------------------------------------------------
    Students with disabilities and students of color continue to be 
subjected to disproportionate use of suspension and expulsion according 
to the 2014-2015 U.S. Department of Education Civil Rights Data 
Collection. While students receiving special education services 
represent just 12 percent of students nationally, they represent 25 
percent of students receiving multiple out of school suspensions. We 
know from research that children who are suspended more than once by 
ninth grade are more likely to drop out of school or be retained in a 
grade. Schools with exclusionary practices have poor attendance rates, 
high drop-out rates, low graduation rates, and higher incidences of 
bullying. In addition, they have been shown to have lower achievement 
scores on State standardized tests. Children who are suspended more 
than once in high school are much more likely to be involved in the 
court system in early adulthood, thus creating a phenomenon known as 
the school to prison pipeline.\7\
---------------------------------------------------------------------------
    \7\ Losen et al. (2015). Are We Closing the School Discipline Gap? 
UCLA Center for Civil Rights Remedies. https://
www.civilrightsproject.ucla.edu/resources/projects/center-for-civil-
rights-
remedies/school-to-prison-folder/federal-reports/are-we-closing-the-
school-discipline-gap/AreWe
ClosingTheSchoolDisciplineGap_FINAL221.pdf.
---------------------------------------------------------------------------
    COPAA is committed to working with stakeholders across the country 
to reinforce ESSA's new title I requirement [for which we helped 
advocate] that States show districts how they support their efforts to 
``reduce bullying, harassment, use of disciplinary practices and use of 
aversives.'' Regulations must make clear that ESSA provides the 
professional development resources for district and school staff to 
receive training, strategies, and guidance on interventions which 
create inclusive, trauma informed and culturally responsive 
environments for students and educators which take into account input 
from the parents and communities they serve. Regulations must also 
clarify that States must articulate in title I plans how they will 
provide resources and guidance, professional development, and technical 
assistance to reduce or remove the use of techniques, strategies, 
interventions, and policies that compromise the health and safety of 
students, such as seclusion and restraint.

    Question 4. Yesterday, on the 62d anniversary of the Brown v. Board 
decision, the Government Accountability Office (GAO) released a report 
confirming what educators, families, students, and community 
stakeholders have been telling us anecdotally for some time--our public 
schools are becoming more segregated by both race and family income.
    The number of schools that are doubly segregated by both race and 
income--where 75 percent or more of the kids at these schools come from 
low-income families and are black or Hispanic--has increased from 9 
percent of all public schools in school year 2000-2001 to 16 percent of 
all public schools in school year 2013-14. Additionally, today, nearly 
one in five public students attend these doubly segregated public 
schools--more than double the amount of kids who attended these schools 
almost 15 years ago. Furthermore, Hispanic children are often triply 
segregated by race, family income, and native language. Shamefully, 
nearly two-thirds--61 percent--of all high-poverty schools are schools 
where over 75 percent or more of the children are black and Hispanic.
    Segregation and isolation by race and income in our public school 
is an alarming phenomenon on its own. Even more troubling is that the 
fact that these doubly segregated schools are not offering students a 
comparable education to non-segregated schools and schools at the other 
end of the spectrum that are wealthy and predominately white. The GAO 
report uncovers that these doubly segregated schools have fewer 
resources, do not offer the full range of core courses like math and 
science, offer less advanced coursework, and have disproportionately 
more disciplinary actions than other public schools.
    I'd like to ask this entire panel--what can the Federal Government 
do to reverse this troubling trend of segregation by race and income, 
and ensure an equal and adequate education for all children? Please 
feel free to expound on reforms within education and greater system 
wide changes including housing, transportation, jobs, and more. 
Additionally, through the implementation of the Every Student Succeeds 
Act (ESSA) what can the Department of Education do to make States and 
school districts aware of opportunities within this new law to increase 
racial and socioeconomic diversity in our schools?
    Answer 4. The ESEA is a civil rights law and implementation of ESSA 
should preserve that legacy. The law's purpose is in fact: ``To provide 
all children significant opportunity to receive a fair, equitable, and 
high-quality education, and to close educational achievement gaps.'' 
COPAA and the entire civil rights community has long recognized equal 
educational opportunity as central to our struggle to achieve equality 
for all Americans. Without a robust and thoughtful implementation of 
ESSA over the next decade, we will have missed a crucial opportunity 
and the students we collectively represent will continue to be denied 
the full protections they need and are entitled to under Federal law. 
For today's students--whether a student with a disability, from a low-
income family, a student who speaks English as a second language, 
Native American or a student of color--both the expectations and the 
stakes couldn't be higher. Their future is hugely dependent on the 
quality of the education they receive--there is no arguing this point.
    The roots of ESSA are born out of Brown v. Board as it extends the 
Fourteenth Amendment to effectively impact the exclusion and 
limitations of instruction based on impermissible classifications. 
Further, it serves as a foundation for the disability rights movement 
in the 1970s, once de jure segregation based on race was resolved as a 
legal matter by legislation and court orders in 1970-71. COPAA has 
written extensively on the historical preeminence of Brown and other 
landmark cases to both preserve the legacy of the path carved toward 
equal access and the civil rights of children and their families,\8\ 
but to also document how each case can be used to support and reinforce 
what we know is true and that is education, regardless of race, income, 
disability, gender, religion or other is a civil right.
---------------------------------------------------------------------------
    \8\ Zimring, et al. (2013). The IDEA/EHA in Congress and the 
Supreme Court 1970-2012 What Lessons Can We Learn and What Can We Do 
Planning Litigation Strategies for the 21st Century. file:///C:/Users/
lkalo/AppData/Local/Microsoft/Windows/INetCache/Content.Outlook/
77YHW6NP/2013Pres.pdf.

    Question 5. Relatedly, Ms. Eskelsen Garcia, Ms. Marshall, Ms. 
Murguia, and Ms. Weingarten, ESSA provides States and local school 
districts more autonomy to make key educational decisions. What are 
your organizations' plans to make States and local school districts 
aware of opportunities to increase diversity under this new law? 
Additionally, what other tools or resources do States and communities 
need to tackle the difficult task of diversifying our schools and 
providing equal and adequate education for all students?
    Answer 5. COPAA is at the forefront of advocacy for students with 
disabilities and their families. COPAA works to increase the quality 
and quantity of representation available to students and their families 
and to ensure the rights of children with disabilities and their 
parents/guardians are protected. As an organization committed to civil 
rights, COPAA recognizes the relationship between discrimination and 
bias against people with disabilities and other forms or systems of 
oppression, domination, or discrimination based on race, national 
origin, ethnic and/or religious identity, sex/gender/gender identity/
sexual orientation, and socioeconomic status.
    COPAA is committed to considering fully, in all activities and 
programs, the intersectionality of race, national origin, ethnic, 
cultural and/or religious identity, sexual/gender identity/ sexual 
orientation, socioeconomic status, in our efforts to protect and 
enforce the legal and civil rights of students with disabilities and 
their families.
    It is critical that specific title I regulations assure States 
implement plans that fully support all students.
    COPAA takes seriously the impact title I implementation has on the 
outcomes of students with disabilities and other disadvantaged 
students. As stated, we understand States will have more discretion in 
carrying out ESSA, however, COPAA, along with our partners in the 
business, civil rights and disability community have and will continue 
to work to prevent efforts to water down expectations, avoid full 
transparency, diminish the importance of honest measures of the 
academic progress of all children in school accountability systems, or 
delay interventions when any group of students is struggling 
academically.
    Unfortunately, past history shows that States often set 
expectations for schools far too low which leads directly to low 
student achievement impacting our most disadvantaged students. States 
have set graduation goals as low as 60 percent, allowed as little as .1 
percent of annual growth to count as progress against State goals and 
set reading and math proficiency standards so low that high school 
graduates, deemed eligible for the State's regular diploma required 
remediation upon entering college. Recently, we've also seen how easily 
States can allow the focus of accountability to shift away from student 
learning. This is unacceptable.
    We advocate for ED to exercise its full legal authority to 
promulgate regulations that assure State title I plans must, in 
summary, provide:

    a. rigorous and consistent standards inclusive of all student 
groups;
    b. school differentiation or ratings that primarily reflect how all 
students are doing with prohibition on the use of aggregated subgroup 
data (e.g. super subgroups);
    c. strict State limit of 1 percent of all students, by subject, in 
the use of alternate assessments on alternate academic achievement 
standards for students with the most significant cognitive 
disabilities, with flexibility only at the district level and the 
application of strict criteria for any State waiver;
    d. valid and reliable assessment of English language proficiency 
and the inclusion of English learners in content assessments, with 
appropriate accommodations;
    e. clear requirements for identification, intervention and exit 
criteria for schools in each of the three categories identified in the 
law--the bottom 5 percent, schools with grad rates below 67 percent and 
schools with consistently low performing groups of students and assure 
State and district-led evidence-based intervention systems focused on 
raising achievement are initiated whenever any school is 
underperforming for all students or for any student group so that 
students don't languish year after year without help;
    f. definitions and/or parameters set for new statutory terms--
specifically for new terms: ``meaningful differentiation,'' 
``substantial weight'' and ``much greater weight'';
    g. specifications that the 95 percent participation requirement is 
included in the accountability system so the performance of students 
matters, provide Federal guidance on options for doing so and define 
consequences for failure to meet the requirement;
    h. recommendations for an acceptable range for statistically 
significant N sizes to measure subgroup performance so that as many 
students are included in school, district and State accountability 
metrics as possible;
    i. assurances for support to districts to reduce bullying, 
harassment, use of disciplinary practices (e.g. suspension and 
expulsion) and use of aversives (e.g. seclusion and restraint), all of 
which disproportionately impact students with disabilities and students 
of color;
    j. universal access in all data reporting; cross-tabulate data and 
expand on the availability of data disaggregated by Asian American and 
Pacific Islander categories; and,
    k. clarity that supplement, not supplant provisions presume and 
ensure an equal base of actual per-pupil funding before any Federal 
funds are considered supplemental.

    The test of regulations, guidance, technical assistance and other 
implementation activities must be whether or not they advance 
educational equity and serve the interests of all students. Low-income 
students, students of color, students with disabilities, English 
learners, and Native students deserve no less than robust and thorough 
regulation by this Department to close opportunity and achievement 
gaps. Throughout regulations, the Department should reinforce the non-
discrimination responsibility of schools, districts and States under 
Title VI of the Civil Rights Act of 1964, Title IX of the Education 
Amendments of 1972, Section 504 of the Rehabilitation Act of 1973, the 
Individuals with Disabilities Education Act and Title II of the 
Americans with Disabilities Act of 1990.
    As noted, the ESEA is our Nation's most important civil rights law 
for promoting educational achievement and protecting the rights and 
interests of students disadvantaged by discrimination, poverty, 
disability, race, language and other conditions that may limit their 
educational opportunity. With its reauthorization, the responsibility 
continues to rest with the U.S. Department of Education to provide 
comprehensive, detailed and clarifying rules to ensure that States and 
school districts implement the new law in a way that not only honors 
the purpose of the law but also holds States accountable for access 
over $15 Billion in Federal funds. Despite claims to the contrary, 
Federal funds are still conditional thorough compliance with the law. 
ESSA is a new law that includes new flexibility as well as 
requirements--the bright-line provisions the civil rights community 
helped support--and the Secretary has the authority to define, monitor, 
and enforce the law.
                           senator whitehouse
    Question 1. ESSA is a relief to many, especially in Rhode Island. 
Everyone who I've talked to is very excited about this bipartisan bill 
and the opportunities it presents.
    I am concerned about the supplement, not supplant issue. Many of 
you have said that ED's proposed regulations on ``supplement, not 
supplant'' are an overreach. But I am also aware of many inequities 
that exist in local and State funding for education.
    Absolutely no one wants to see Federal money come in and provide an 
excuse to send other funding into wealthier, well-connected school 
districts and have title I fill the gap.
    I've heard from many about the problems with ED's draft proposal. 
My question is not what are the problems, but what should ED do 
instead? That is, what would you affirmatively propose to ensure that 
title I funds are supplemental and not supplanting State and local 
funds?
    Answer 1. Regulations are the first step. And, as you acknowledge, 
unless title I schools are receiving an equitable base of funds from 
non-Federal sources to ensure that the Federal funds are truly 
supplemental, then title I funds are being used to supplant by filling 
in gaps of funds the schools should be receiving. This is a violation 
of the law.
    COPAA supports the Leadership Conference on Civil and Human Rights 
position and has advocated that:

          ``. . . a comparison of spending between each title I and the 
        average of non-title I schools allows for considerable 
        variability among both title I and non-title I schools in State 
        and local expenditures, therefore not running afoul of the 
        law's prohibition against requiring the equalization of 
        spending.''

          Compliance with an ``actual expenditures test'' also 
        recognizes the reality that equitable means fair, not equal--
        underscoring the law's aim to ensure that students impacted by 
        concentrated poverty have the unique supports and services that 
        will address their needs. This also preserves flexibility for 
        districts to use weighted student funding, formulas for 
        staffing and materials, or any other methodology for allocating 
        State and local funds to schools. The integrity of title I 
        funds must be preserved to fully realize the aim of ensuring 
        equity and equal access to quality educational opportunities.

    Question 2. Under NCLB and the Obama administration's waivers, I 
consistently heard from Rhode Island teachers and principals that they 
could achieve better results if not for the layers of bureaucracy 
stifling innovation at multiple levels.
    I am very pleased that ESSA is a step away from that one-size-fits-
all, overly prescriptive posture. You have all heard me talk about the 
provisions I fought for in ESSA--requiring States to describe how they 
will encourage opportunities for increased autonomy and flexibility.
    I am concerned because I do not want to see ED use the regulatory 
process to grab back the control that ESSA intended to push down to the 
State and local level. What could ED do on the supplement, not supplant 
issue that would support greater innovation at the local level?
    Answer 2. Regulations should require an ``actual expenditures 
test'' because it also recognizes the reality that equitable means 
fair, not equal--underscoring the law's aim to ensure that students 
impacted by concentrated poverty have the unique supports and services 
that will address their needs. This also preserves flexibility for 
districts to use weighted student funding, formulas for staffing and 
materials, or any other methodology for allocating State and local 
funds to schools. The integrity of title I funds must be preserved to 
fully realize the aim of ensuring equity and equal access to quality 
educational opportunities.

   Response by Janet Murguia, J.D., to Questions of Senator Collins, 
                Senator Sanders, and Senator Whitehouse

                            senator collins
    Question. During Secretary King's confirmation hearing, I asked for 
his assurance that the Department would engage rural communities in its 
ESSA implementation processes. For example, I was alarmed that the 
Department held its initial public listening sessions in DC and Los 
Angeles. Rural districts also seem to have been underrepresented on the 
committee of negotiators selected for the negotiated rulemaking.
    It's vital that rural communities and rural educators have a seat 
at the table. What should the Department be doing to ensure rural 
communities are represented in its rulemaking?
    In your States, what are you doing, as stakeholders, to ensure 
rural voices are heard in your State and local planning efforts?
    Answer. As I stated in my testimony, ESEA was enacted in 1965 to 
ensure all children, regardless of where they grow up, receive a high-
quality education. NCLR relies on our diverse Affiliate network--
serving urban and rural communities--to create a multi-stakeholder 
strategy to ensure the implementation of this law addresses the broad 
and diverse concerns of the students in our schools, including those of 
native students. We also recognize that this task is not always easy, 
particularly in remote and hard-to-reach areas. We have seen as Latino 
communities have expanded in the Southeastern United States, that 
service providers must be on hand to help these communities advocate at 
all levels of government.
                            senator sanders
    Question 1. We must do everything that we can to ensure that every 
child--regardless of her or his circumstances--has access to a high-
quality education. We know that a high-quality education is a resource-
intensive endeavor. We also know that disadvantaged children need 
additional resources to combat the ravages of poverty and 
discrimination. The Elementary and Secondary Education Act (ESEA) of 
1965 marked the beginning of a strong role for the Federal Government 
in combating inequities on both fronts. Clearly, there is much more 
work that must be done.
    A key component of the Federal Government's role in education is 
ensuring that our schools have the additional resources needed to 
ensure that every child can reach her or his full potential. Today, 
over half of all public school children come from low-income families. 
Examining the most recent data available, there is clearly an increased 
need, as well as a lack of sufficient Federal resources to meet this 
need (figure 1). Between school year 2004-5 and school year 2013-14 we 
have seen a 32 percent increase in children eligible for free or 
reduced lunch--an increase of over 6 million children.
    Yet the main source of Federal funding for public schools serving 
low-income children--Title I-A of ESEA--has not only not failed to keep 
pace with the reality that our public schools are serving more low-
income children than a decade ago, funding has not even kept up with 
inflation. Real title I-A funding is down 6 percent since fiscal year 
2005 while the percentage of low-income kids in public schools has 
increased by 32 percent over the same time period. If at a bare minimum 
title-I-A funding had kept pace with inflation since fiscal year 2005, 
appropriations for title-I-A would have been $15.2 billion in fiscal 
year 2014 instead of $14.4 billion--a difference of nearly a billion 
dollars. Furthermore, if title I-A funding had kept pace with both 
inflation and the growing number of children coming from low-income 
families since fiscal year 2005, title-I-A funding would have hit $20.2 
billion in fiscal year 2014, a gap of over $5.5 billion when 
considering reality versus actual funding (figure 2).
    Ms. Murguia, can you please speak to the importance of Federal 
education funding meeting the increased needs of our public schools? 
Beyond a dramatic increase to title-I-A funding, what other funding 
streams within ESEA and in other Federal programs require an increase 
to meet the realities of today's public schools?
    Answer 1. At its core, ESEA was enacted in 1965 as a civil rights 
law to correct resource inequities in low-income communities and 
communities of color. ESEA's original intent recognized that a high-
quality education was fundamentally linked to adequate resources. Yet, 
50 years later, resource inequities and gaps in student achievement 
remain. As a result, the Every Student Succeeds Act (ESSA) must 
increase funding and other support for low-income children and students 
of color to ensure the law's promise for all students. In particular, 
lawmakers should increase funding for title I-A, title III, and title 
IV.
    In addition to increased appropriations, the Department of 
Education must move forward with a robust rulemaking on resource-
related regulations on supplementing funds. As highlighted in my 
written testimony, a recent analysis by the Education Trust showed that 
across the Nation, the highest-poverty districts receive nearly $1,200 
(10 percent) less in State and local funds per student than the lowest-
poverty districts.\1\ The differences are even larger--nearly $2,000 
(15 percent)--when comparing districts with the highest and lowest 
populations of students of color.\2\
---------------------------------------------------------------------------
    \1\ Natasha Ushomirsky and David Williams, ``Funding Gaps 2015: Too 
Many States Still Spend Less on Educating Students Who Need the Most,'' 
The Education Trust, 2015, http://edtrust.org/wpcontent/uploads/2014/
09/FundingGaps2015_TheEducationTrust1.pdf.
    \2\ Ibid.
---------------------------------------------------------------------------
    It is also clear that resources are closely correlated with 
educational attainment. Title III funding for English learners averaged 
roughly $162 \3\ in per-pupil expenditures in 2014 and $164 \4\ in 
2015. The recent 2013-2014 Civil Rights Data Collection showed that 
while English learners are 11 percent of students in schools offering 
gifted and talented education programs (GATE), only 3 percent of GATE 
students are English learners. These students are more likely to be 
retained in high school, along with students of color and students with 
disabilities.\5\ Unequal and inadequate educational resources for 
students of color and English learners undermine the goals of our 
foundational civil rights and K-12 law. It is imperative that Federal 
education funding equitably serve students regardless of race, ZIP 
code, income, or national origin.
---------------------------------------------------------------------------
    \3\ NCLR calculation using U.S. Department of Education, ``Digest 
of Education Statistics 2014,'' Table 204.20, https://nces.ed.gov/
programs/digest/d15/tables/dt15_204.20.asp?current=yes (accessed June 
9, 2016) and U.S. Department of Education, ``Fiscal Year 2015 Budget 
Summary and Background Information,'' www2.ed.gov/about/overview/
budget/budget15/summary/15summary.pdf.
    \4\ Ibid.
    \5\ U.S. Department of Education Office of Civil Rights. ``2013-
2014 Civil Right Data Collection,'' U.S. Department of Education, 2016 
(accessed June 8, 2016).

    Question 2. It is abundantly clear that low-income and 
disadvantaged children need additional support in order to succeed. 
That is why, title-I-A education funding is supposed to be in addition 
to and not in-lieu of local and State education funding. Since 1970, 
Congress has included supplement, not supplant (SNS) provisions in ESEA 
to codify this fundamental principle.
    As you know, the Negotiated Rulemaking Committee for Title I, Part 
A of ESEA as amended by the Every Student Succeeds Act was unable to 
meet consensus on SNS regulations. It is now up to the U.S. Department 
of Education to draft regulations on SNS that ensure that Federal 
funding is on top of State and local funding and not used as backfill 
to compensate for unfair State and local spending practices on 
education.
    Ms. Murguia, can you speak to the importance of the Department of 
Education crafting strong regulations for SNS? Ms. Murguia, what would 
a strong SNS regulation mean for children of color including Latino 
girls and boys who represent a majority of the children in our public 
schools, and what would it mean for English Language Learners? Finally, 
what progress can be made for all students if title-I-A funding is 
truly supplemental?
    Answer 2. As I highlighted in my testimony, our Federal education 
system works best when policies are designed to be responsive to the 
communities they serve. Our school funding system is simply not 
adequate to support low-income students and students of color; they are 
not afforded the same resources as their wealthier counterparts--a 
paradox given ESEA's original intent. The SNS provision is designed to 
ensure that Federal funds are supplemental to local and State funding 
rather than in lieu of this funding. My testimony points to research 
from the Education Trust that shows low-income students are being 
short-changed and this has real academic consequences. A strong SNS 
regulation will promote greater resource equity by requiring that title 
I schools receive just as much funding for students as non-title I 
schools. If title I funding were to be truly supplemental, students in 
high-poverty schools would receive the additional support they need to 
succeed in a competitive 21st-century workplace.

    Question 3. I am very concerned that our schools and communities 
are dealing with a surge of students exposed to multiple adverse 
experiences and are not equipped with the resources, training, and 
support to accommodate this crisis.
    According to the national Adverse Childhood Experience Study, over 
half of those surveyed reported at least one form of childhood 
adversity. Shockingly, two in three children in our Nation--46 million 
children--are exposed to violence, crime, abuse, or psychological 
trauma a year. In Vermont, over 20 percent of children have had two or 
more adverse experiences, which include traumatic events like living in 
chronic poverty, living with someone with a substance abuse problem, 
experiencing community or family violence, and more. Even more alarming 
is the fact that our youngest citizens and their parents are at the 
forefront of this crisis. Since 2014, the Department for Children and 
Families in Vermont has seen a 33 percent increase of children in State 
custody with children under the age of six making up more than two-
thirds of this increase. Further, similar to nationwide trends, over 40 
percent of children come from low-income families in my home State, 
with young children the most likely of any age group to be poor.
    Ms. Murguia, what can the Department of Education do to help 
schools, educators, and communities be prepared to deliver trauma-
informed approaches to education when implementing the Every Student 
Succeeds Act (ESSA)? Additionally, what can the Department of Education 
do to ensure that educators teaching in environments where a large 
percentage of students have had adverse childhood experiences (ACEs) 
have the support and the self-care they need to succeed? Furthermore, 
what policies should Congress enact to help communities combat these 
challenges and attack the root causes--like poverty, exposure to 
violence and substance abuse--driving these adverse experiences? How 
would increased Federal investments in child care, preschool, maternal 
and child home visiting, before-school, afterschool, and summer 
programming, nutritional supports, wrap-around services for schools and 
more help to fight this crisis? Likewise, how would raising the Federal 
minimum wage, addressing under-employment and unemployment, 
implementing paid family leave, and enacting universal health care 
coverage help attack the root causes of these adverse experiences?
    As national education leaders, what plans are your organizations 
making to work with States to ensure that their schools and 
practitioners have trauma-informed approaches to education? How will 
you make States and school districts aware of opportunities under ESSA 
to create trauma-informed environments?
    Answer 3. As the Department of Education moves forward with the 
implementation of ESSA, it must consider ACEs through trauma-informed 
practices. NCLR has over 250 Affiliates across the country on the 
forefront of providing services that assure safe, stable, nurturing 
relationships and environments for children with adverse childhood 
experiences. This is all too common in immigrant communities: family 
separation caused by immigration enforcement and experiences with 
violence in Central America leave long-term impressions on young 
people. Research supports what our Affiliates see frequently; a recent 
study by Child Trends found ACEs have negative lasting effects on 
health and well-being for students. The same study found that economic 
hardship is the most common ACE nationally, a troubling finding for 
low-income students nationwide.\6\ In response, States and districts 
should learn from community-based organizations and examine ways to 
incorporate wraparound services to support low-income and other 
vulnerable students. In addition, Federal policymakers should examine 
solutions to the root causes of ACEs, such as addressing poverty by 
raising the minimum wage, enhancing the social safety net, creating 
opportunities for economic mobility, and fixing our immigration system.
---------------------------------------------------------------------------
    \6\ Vanessa Sacks, David Murphey, and Kristin Moore. ``Adverse 
Childhood Experiences: National and State-Level Prevalence,'' July 
2014, http://www.childtrends.org/wp-content/uploads/2014/07/Brief-
adverse-childhood-experiences_FINAL.pdf.

    Question 4. Yesterday, on the 62d anniversary of the Brown v. Board 
decision, the Government Accountability Office (GAO) released a report 
confirming what educators, families, students, and community 
stakeholders have been telling us anecdotally for some time--our public 
schools are becoming more segregated by both race and family income.
    The number of schools that are doubly segregated by both race and 
income--where 75 percent or more of the kids at these schools come from 
low-income families and are black or Hispanic--has increased from 9 
percent of all public schools in school year 2000-2001 to 16 percent of 
all public schools in school year 2013-14. Additionally, today, nearly 
one in five public students attend these doubly segregated public 
schools--more than double the amount of kids who attended these schools 
almost 15 years ago. Furthermore, Hispanic children are often triply 
segregated by race, family income, and native language. Shamefully, 
nearly two-thirds--61 percent--of all high-poverty schools are schools 
where over 75 percent or more of the children are black and Hispanic.
    Segregation and isolation by race and income in our public school 
is an alarming phenomenon on its own. Even more troubling is that the 
fact that these doubly segregated schools are not offering students a 
comparable education to non-segregated schools and schools at the other 
end of the spectrum that are wealthy and predominately white. The GAO 
report uncovers that these doubly segregated schools have fewer 
resources, do not offer the full range of core courses like math and 
science, offer less advanced coursework, and have disproportionately 
more disciplinary actions than other public schools.
    I'd like to ask this entire panel--what can the Federal Government 
do to reverse this troubling trend of segregation by race and income, 
and ensure an equal and adequate education for all children? Please 
feel free to expound on reforms within education and greater system 
wide changes including housing, transportation, jobs, and more. 
Additionally, through the implementation of the Every Student Succeeds 
Act (ESSA) what can the Department of Education do to make States and 
school districts aware of opportunities within this new law to increase 
racial and socioeconomic diversity in our schools?
    Relatedly, Ms. Eskelsen Garcia, Ms. Marshall, Ms. Murguia, and Ms. 
Weingarten, ESSA provides States and local school districts more 
autonomy to make key educational decisions. What are your 
organizations' plans to make States and local school districts aware of 
opportunities to increase diversity under this new law? Additionally, 
what other tools or resources do States and communities need to tackle 
the difficult task of diversify our schools are providing equal and 
adequate education for all students?
    Answer 4. Thank you for your excellent question and remarks on the 
multiple levels of segregation facing low-income students and students 
of color in our schools today. Currently, one in every four children in 
schools across the country is Latino. The recent report by GAO you 
mentioned makes clear that segregation has increased over the past 
decade for low-income students in high-poverty schools. Addressing this 
issue will necessarily require a multi-stakeholder, cross-agency 
strategy to examine systemic inequities our students face every day. 
Through this type of collaboration, stakeholders can identify barriers 
to socioeconomic mobility and integration, and work to provide tools 
and best practices to communities to promote equal access to 
opportunities.
    Furthermore, it is critical to use the new requirements under ESSA 
to make sure community voices are involved in the implementation of the 
law. NCLR has over 250 Affiliates across the country, including a 
network of charter schools, after-school services, and early education 
providers who are ready and eager to provide guidance and technical 
assistance to States and districts on ESSA's implementation. Through 
partnerships with local nonprofit organizations, NCLR at the national 
level can share best practices and help communities understand their 
power in increasing diversity in schools and their communities. All 
understand that Latino success in schools is paramount for their 
communities and the Nation, and as such must strive to end segregation 
once and for all.
                           senator whitehouse
    Question 1. ESSA is a relief to many, especially in Rhode Island. 
Everyone who I've talked to is very excited about this bipartisan bill 
and the opportunities it presents.
    I am concerned about the supplement, not supplant issue. Many of 
you have said that ED's proposed regulations on ``supplement, not 
supplant'' are an overreach. But I am also aware of many inequities 
that exist in local and State funding for education.
    Absolutely no one wants to see Federal money come in and provide an 
excuse to send other funding into wealthier, well-connected school 
districts and have title I fill the gap.
    I've heard from many about the problems with ED's draft proposal. 
My question is not what are the problems, but what should ED do 
instead? That is, what would you affirmatively propose to ensure that 
title I funds are supplemental and not supplanting State and local 
funds?
    Answer 1. As I stated in my testimony, ESSA grants the Department 
of Education the authority to promulgate strong regulations on fiscal 
equity, including the supplement, not supplant provision. The 
Department must use this authority. Districts need to demonstrate that 
they spend just as much in title I schools as they spend in non-title I 
schools. Based on a recent analysis by the Education Trust, we know 
that funding is not equitable and this has consequences for low-income 
students and students of color. High-poverty schools receive nearly 
$1,000 less in local funds than schools in wealthier districts. 
Furthermore, districts that serve students of color receive nearly 
$2,000 less in local funds than their less diverse counterparts.\7\ It 
is paramount that the Department ensures each title I school is 
receiving comparable services as a non-title I school. ESSA strikes an 
important balance, however, with its update to supplement, not 
supplant: allowing States and districts flexibility to innovate within 
parameters set by the Federal Government. While the States have been 
given some latitude to innovate, the Federal Government must still play 
a role in setting guardrails to make sure all students are meeting 
challenging academic goals.
---------------------------------------------------------------------------
    \7\ Natasha Ushomirsky and David Williams, ``Funding Gaps 2015: Too 
Many States Still Spend Less on Educating Students Who Need the Most,'' 
The Education Trust, 2015, http://edtrust.org/wpcontent/uploads/2014/
09/FundingGaps2015_TheEducationTrust1.pdf.

    Question 2. Under NCLB and the Obama administration's waivers, I 
consistently heard from Rhode Island teachers and principals that they 
could achieve better results if not for the layers of bureaucracy 
stifling innovation at multiple levels.
    I am very pleased that ESSA is a step away from that one-size-fits-
all, overly prescriptive posture. You have all heard me talk about the 
provisions I fought for in ESSA--requiring States to describe how they 
will encourage opportunities for increased autonomy and flexibility.
    I am concerned because I do not want to see ED use the regulatory 
process to grab back the control that ESSA intended to push down to the 
State and local level. What could ED do on the supplement, not supplant 
issue that would support greater innovation at the local level?
    Answer 2. Education has been lauded as a pathway to the American 
Dream, particularly for low-income students and students of color. As I 
noted previously, we are not seeing these results in the data. 
Furthermore, the Civil Rights Data Collection's latest report shows a 
pattern of unequal access to educational resources for students of 
color and English learners:

    <bullet> English learners represent 5 percent of high school 
students, but only 2 percent of Advanced Placement course 
enrollment.\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Education Office of Civil Rights. 2013-2014 
Civil Right Data Collection. Washington: U.S. Department of Education. 
2016. Accessed June 8, 2016.
---------------------------------------------------------------------------
    <bullet> Latino students represent 21 percent of high school 
enrollments, but only 12 percent of students enrolled in calculus.\9\
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
    <bullet> Black and Latino students are 1.5 times more likely to be 
taught by novice teachers compared to schools with lower Black and 
Latino enrollments.\10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    The supplement, not supplant regulation grants States adequate 
flexibility to pilot new and innovative programs or scale effective 
programs. It also provides guardrails to ensure low-income students, 
students of color, and English learners have the resources they need 
for academic success. Opportunities should not be defined by race, 
ethnicity, national origin, or ZIP code. We can and must do more for 
these students.

    [Whereupon, at 12:07 p.m., the hearing was adjourned.]

                                   

      
</pre></body></html>
